  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



     The Department of Homeland Security’s 

            Role in Food Defense and 

        Critical Infrastructure Protection 





OIG-07-33                        February 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         February 23, 2007

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This report assesses actions taken by DHS in support of food defense and critical infrastructure
protection. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all those who contributed to this report.




                                             Richard L. Skinner 

                                             Inspector General 

Contents 


Executive Summary ..................................................................................................................... 1 


Background ..................................................................................................................................... 2 

          Overview of the Food Sector ................................................................................................... 2 

          Hazards to the Food Sector ...................................................................................................... 3 

          Potential Impacts of Food Sector Hazards............................................................................... 6 

          A Historical Perspective on Federal Food Defense and Critical Infrastructure Protection
          Responsibilities ........................................................................................................................ 8 

          DHS Food Sector Responsibilities ........................................................................................ 12 

          Challenges Intrinsic to the Fulfillment of DHS’ Mandate..................................................... 14 


Results of Review ........................................................................................................................ 17

          DHS’ Internal Coordination of Food Sector Activities .........................................................                         17 

                  Distribution of DHS Food Sector Activities..............................................................                       17 

                  Management of DHS Food Sector Activities ............................................................                          20 

                  Need for Consolidated DHS Food Sector Leadership ...............................................                               27 

          Public and Private Partners ....................................................................................................       28 

                  Sector Governance and Information Sharing.............................................................                         29 

                  Charting and Protecting the Food Sector ...................................................................                    44 

                  Coordination of Research and Development, Education and Training Initiatives ....                                              50 

          Prioritization Challenges........................................................................................................      59 

          DHS Fulfillment of its Responsibilities.................................................................................               68 

          Opportunities for Additional Work........................................................................................              74 


Conclusion ..................................................................................................................................... 87 


Management Comments and OIG Analysis ...................................................................... 88 


Appendices
          Appendix A            Purpose, Scope, and Methodology................................................................. 98 

          Appendix B            Recommendations.......................................................................................... 99 

          Appendix C            Management Comments on the Draft Report ............................................... 101 

          Appendix D            Farm-to-Table Continuum ............................................................................ 120 

          Appendix E            Federal Food Sector Regulatory Oversight................................................... 121 

          Appendix F            Critical Infrastructure Sectors and Designated Sector-Specific Agencies.... 124 

          Appendix G            DHS Food Sector Responsibilities ............................................................... 125 

          Appendix H            DHS Food-Sector-Related Programs and Initiatives .................................... 128 

          Appendix I            The Food Sector in Frameworks for Infrastructure Protection, 

                                National Preparedness, and Incident Management....................................... 136 

          Appendix J            Chronology of Significant Events................................................................. 144 

          Appendix K            Major Contributors to This Report ............................................................... 147 

          Appendix L            Report Distribution ....................................................................................... 148 


                                          DHS’ Role in Food Defense and Critical Infrastructure Protection
Contents 


Tables
     Table 1    DHS Food Defense and Critical Infrastructure Protection
                Activities and Initiatives ................................................................................ 19
     Table 2    Areas of Shared DHS Food Defense and Critical Infrastructure Protection
                Program Thrust .............................................................................................. 24
     Table 3    DHS Execution of Food-Related Responsibilities......................................... 68
     Table 4    Critical Infrastructure Sectors and Sector-Specific Agencies....................... 124
     Table 5    DHS Food Sector Responsibilities and Their Origins .................................. 125


Figures
     Figure 1   Review Focus Along Incident Timeline ........................................................ 13
     Figure 2   Farm-to-Table Continuum ............................................................................ 120
     Figure 3   Regulatory Oversight of Sample Foods........................................................ 123
     Figure 4   Food Sector Elements of Homeland Security Frameworks.......................... 141


Abbreviations
     CBP        Customs and Border Protection, Department of Homeland Security
     CDC        Centers for Disease Control and Prevention, Department of Health and
                Human Services
     DHS        Department of Homeland Security
     FBI        Federal Bureau of Investigation, Department of Justice
     FDA        Food and Drug Administration, Department of Health and Human Services
     GAO        Government Accountability Office
     HHS        Department of Health and Human Services
     ISAC       Information Sharing and Analysis Center
     NCFPD      National Center for Food Protection and Defense
     NIPP       National Infrastructure Protection Plan
     S&T        Science and Technology Directorate, Department of Homeland Security
     UC Davis   University of California, Davis
     U.S.       United States
     U.S.C.     United States Code
     USDA       United States Department of Agriculture




                         DHS’ Role in Food Defense and Critical Infrastructure Protection
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The federal government is charged with defending the food supply from
                intentional attacks and natural hazards. While the Department of Homeland
                Security (DHS) is not the designated lead for a number of key activities in this
                area, Congress and the President have assigned DHS many important food
                defense and critical infrastructure protection responsibilities. This report
                examines DHS activities relating to post-harvest food, and focuses on
                prevention, protection, preparedness, and detection efforts.

                There are four main limitations in DHS’ related efforts. First, DHS must
                improve internal coordination. DHS food sector activities are distributed
                across multiple organizational units, and similar program thrusts have
                emerged. Consolidated management attention is required to reduce the risk of
                duplication and promote collaboration.

                Second, DHS needs to engage its public and private food sector partners more
                effectively. Food sector partners were frustrated by the quality and extent of
                DHS external coordination in sector governance and information sharing;
                mapping; and research, development, education, and training.

                Third, DHS could do more to prioritize resources and activities based on risk.
                DHS units have used different approaches to prioritizing food sector activities
                in the context of their larger missions, and have not developed a common
                perspective on food sector risk. There is little consensus on how any of the
                elements of risk apply to the food sector, and staff in key positions expressed
                misinformed views about food sector risk.

                Finally, DHS must fully discharge its food sector responsibilities. DHS has
                satisfied basic requirements in most, but not all, areas of responsibility. The
                department has not submitted an integrated federal food defense budget plan
                or clearly established assessment standards for use in the food sector.

                Our report contains 16 recommendations to enhance DHS’ performance and
                improve the security posture of the food supply. DHS concurred with 12 of
                these recommendations.




                      DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                 Page 1 

Background
        Overview of the Food Sector
                          The nation’s food sector is comprised of an array of distinct businesses
                          and operations that help bring food products to consumers around the
                          world. The host of steps in the food production system is often
                          collectively described as a “farm-to-table” continuum. This continuum is,
                          in fact, a tremendously complex system characterized by numerous
                          interdependencies. An illustration of the farm-to-table continuum can be
                          found in Appendix D.

                          Pre-harvest elements of the continuum include crops and animals in the
                          field, as well as fertilizers and animal feed. The harvesting or slaughter of
                          agricultural products marks the beginning of the post-harvest food sector,
                          which extends through the balance of the continuum until products are
                          consumed. This review concentrated on post-harvest elements of the food
                          supply so as not to duplicate previous Government Accountability Office
                          work on the pre-harvest side.1

                          The post-harvest food industry accounts for 12% of the nation’s economic
                          activity and employs more than 10% of the American workforce.2 It
                          consists of enormous subsectors, including business lines addressing
                          processing, storage, transportation, retail, and food service. Statistics on
                          just two of these subsectors serve to illustrate the magnitude of the sector.

                          The National Restaurant Association projects that the industry’s 925,000
                          U.S. locations will reach $511 billion in sales for 2006, serving over 70
                          billion “meal and snack occasions” for the year.3 Meanwhile, the nation’s
                          $460 billion food retail business consists of more than 34,000
                          supermarkets, 13,000 smaller food markets, 1,000 wholesale club stores,
                          13,000 convenience stores, and 28,000 gas station food outlets. Like the
                          other components of the food industry, these subsector business units have
                          a broad geographic distribution and are present in all regions of the
                          country.




1
  For more information on efforts to counter pre-harvest agroterrorism, refer to the Government Accountability 

Office’s March 2005 report, Homeland Security: Much Is Being Done to Protect Agriculture from a Terrorist

Attack, but Important Challenges Remain (GAO-05-214).

2
  Bureau of Labor Statistics, Occupational Employment Statistics, “Frequently Asked Questions,” 

http://www.bls.gov/oes/oes_ques.htm. 

3
  http://www.restaurant.org/pdfs/research/2006factsheet.pdf


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 2 

                        Private sector entities are the predominant owners and operators of the
                        food sector. Federal, state, and local governments have noteworthy food
                        production, distribution, retail, and service operations, but these are small
                        when compared to private sector operations.

                        Regulation of the food industry is divided between federal, state, and local
                        agencies. State, territorial, and local governments conduct oversight of
                        food retail and food service establishments within their jurisdictions.
                        These levels of government oversee restaurants, institutional food service
                        establishments, and hundreds of thousands of food retailers. Within the
                        federal government, primary responsibility for food safety rests with two
                        agencies. The Food Safety and Inspections Service of the U.S.
                        Department of Agriculture (USDA) oversees the processing of red meat,
                        poultry, and processed egg products. The Food and Drug Administration
                        (FDA) of the Department of Health and Human Services (HHS), in turn,
                        regulates the processing of virtually all other food products. In addition to
                        these two, several other federal agencies provide oversight of food
                        processing, distribution, and retail. A comparison of foods regulated by
                        the Food Safety and Inspections Service and FDA can be found in
                        Appendix E.


        Hazards to the Food Sector
                        The food sector could experience several types of significant adverse
                        events. Among these, intentional food contamination is of greatest
                        concern to many in the food security and safety fields. In December 2004,
                        the former Secretary of Health and Human Services, Tommy Thompson
                        remarked that, “I, for the life of me, cannot understand why the terrorists
                        have not attacked our food supply because it is so easy to do."4

                        Protecting the U.S. food supply from intentional adulteration has grown in
                        importance since the attacks of September 11, 2001. Some have
                        suggested that terrorist attacks on the food supply are increasingly likely.
                        In 2003, the President’s Council of Advisors on Science and Technology
                        wrote that “terrorist acts of a widely diffuse nature such as attacks on the
                        food supply … could become a preferred means of attack in an
                        environment where terrorist networks have been ‘decapitated’ and their
                        ability to communicate and raise funds significantly diminished.”5 Food

4
  William Branigin, Mike Allen and John Mintz, “Tommy Thompson Resigns From HHS,” Washington Post, 

December 3, 2004. 

5
  President’s Council of Advisors on Science and Technology, The Science and Technology of Combating 

Terrorism, July 2003, p. 5. 


                           DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                      Page 3 

                           products may be deliberately contaminated with chemical, biological, or
                           radiological agents. Despite the range of possible contaminating agents
                           and the openness of parts of the food supply chain, there have been few
                           recorded cases of deliberate food contamination in the United States.
                           These events have only had a localized effect and have not resulted in
                           serious casualties on a massive scale or catastrophic economic loss. The
                           following are three prominent domestic incidents of food contamination:

                               • 	 In 1984, members of a religious cult poisoned ten Oregon salad
                                   bars with Salmonella, resulting in 751 individual cases of illness.
                               • 	 In 1996, a disgruntled employee of a Texas hospital willfully
                                   tainted snacks in a staff break room. This incident caused illness in
                                   12 people.6
                               • 	 In 2003, a Michigan supermarket employee infected 200 pounds of
                                   beef with an insecticide, causing illness in 92 people.7

                           Though it is without domestic precedent, the prospect of a mass-scale food
                           contamination event is of particular concern because the nation is subject
                           to major unintentional foodborne illness outbreaks. Experts reason that,
                           with some study and limited access, an individual or individuals with
                           malevolent aims could reproduce these outbreaks with more dire
                           consequences. In 2003, the FDA wrote that, “If an unintentional
                           contamination of one food … can affect 300,000 individuals, a concerted,
                           deliberate attack on food could be devastating, especially if a more
                           dangerous chemical, biological, or radionuclear agent were used.”8

                           Food safety practitioners devote considerable attention and resources to
                           addressing the hazards associated with unintentional food contamination.
                           In the past, this type of food contamination has led to some major
                           outbreaks, which have occurred with much more frequency and on a
                           considerably larger scale than deliberate acts of contamination. In 1985,
                           for example, the unintentional contamination of milk with Salmonella
                           typhimurium caused illness in 170,000 individuals in the United States. A
                           decade later, an estimated 224,000 people in 41 states became ill after
                           consuming ice cream with Salmonella enteriditidis.9

                           While foodborne disease outbreaks typically result from products
                           contaminated by naturally occurring biological pathogens, foodborne

6
  Ali S. Khan, David L. Swerdlow, and Dennis D. Juranek, “Precautions against Biological and Chemical Terrorism
Directed at Food and Water Supplies,” Public Health Reports, January-February 2001, pp. 3-14.
7
  Association of State and Territorial Health Officials, “Issue Brief: State Activities in Food Security,” April 2004.
8
  FDA, “Risk Assessment for Food Terrorism and Other Food Safety Concerns,” October 13, 2003.
9
  Food Safety Department, World Health Organization, Terrorist Threats to Food: Guidance for Establishing and
Strengthening Prevention and Response Systems, 2002, p. 5.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 4 

                           illnesses have also been traced to toxins, heavy metals, pesticides, and
                           other chemicals. In 1981, for instance, a toxic agent in cooking oil
                           sickened about 20,000 and resulted in the deaths of approximately 800 in
                           Spain.10 Such contamination events can have long-term effects. In
                           Michigan in 1973, a fire retardant containing a potentially carcinogenic
                           hazardous substance was inadvertently mixed with cattle feed and several
                           thousand people ingested products from animals that had eaten the
                           contaminated feed. Studies have shown that people who consumed these
                           products maintained high levels of the toxic substance years later. It
                           persists, for example, in the breast milk of women who consumed affected
                           foods.11

                           Intentional or unintentional damage to food industry facilities could also
                           adversely affect the sector and result in temporary shortages of certain
                           food products. Because there are available substitutes for most foodstuffs,
                           however, the effect of such losses may be firm-, product-, or industry-
                           specific, and not widespread. Damage to facilities at “chokepoints” in the
                           supply chain for a number of food products, however, could have more
                           pronounced economic effects.

                           The food sector could also suffer adversely from the debilitation of other
                           sectors. Because food is often consumed some distance from its point of
                           production, significant transportation disruptions have the potential to
                           spawn food shortages. The availability of food products is also dependent
                           on the continuing efforts of the food sector workforce. Conditions that
                           undermine the willingness of food industry workers to go to their
                           worksites or to otherwise perform their jobs could also contribute to food
                           shortages. Because major U.S. cities typically have access to about one
                           week’s supply of food, however, transportation and labor disruptions of
                           this kind would have to be sustained before they could critically undercut
                           the availability of food.12 Sustained disruptions could occur, for example,
                           in the case of a widespread outbreak of a communicable disease during
                           which workers may be reluctant to appear at job sites for extended
                           periods. In addition, although it is possible to sustain the flow of some
                           foodstuffs during extended electrical outages, the supply of perishable
                           food products could be significantly reduced in the absence of electricity.


10
   FDA, “Risk Assessment for Food Terrorism and Other Food Safety Concerns,” October 13, 2003. 

(http://www.cfsan.fda.gov/~dms/rabtact.html).

11
   http://www.sciencedaily.com/releases/2000/12/001214082240.htm and Brilliant, L.B., et al. “Breast-milk

monitoring to measure Michigan's contamination with polybrominated biphenyls,” The Lancet, Volume 312, Issue 

8091, (September 23, 1978), pp. 643-646. 

12
   McIntire Peters, Katherine. “Officials fear terrorist attack on U.S. food supply,” Government Executive, June 10,

2003. 


                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 5 

DHS’ Role in Food Defense and Critical Infrastructure Protection 

                           Page 6 

         Potential Impacts of Food Sector Hazards
                           The White House has stated that a successful attack on the nation’s
                           agriculture and food system could have “catastrophic health and economic
                           effects.”13 Indeed, regardless of the cause, an adverse food sector event
                           could negatively impact public health, the economy, the public’s
                           psychological well-being, and the effectiveness of government. DHS
                           recognizes negative impacts in these four areas as the types of
                           consequences that might result from incidents affecting the nation’s
                           critical infrastructures.14

                           Foremost among potential effects are those on public health and safety.
                           Foodborne illness outbreaks currently cause widespread morbidity and
                           mortality. The Centers for Disease Control and Prevention (CDC)
                           estimates that the United States experiences 76 million illnesses, 325,000
                           hospitalizations, and 5,000 deaths from unintentional food contamination
                           each year.15 Recent USDA estimates place the annual cost of premature
                           deaths caused by a single common foodborne illness, salmonellosis – an
                           illness resulting from infection with Salmonella bacteria – at over $2.1
                           billion.16 The current public health burden of unintentional contamination
                           is borne more heavily by vulnerable subpopulations, such as individuals
                           with weakened immune systems. In some cases, sickness from
                           contaminated food results in chronic illness.

                           Significant public health consequences also are to be anticipated in the
                           event of a well-orchestrated deliberate act of food contamination. A
                           recent article predicted that over 100,000 Americans – many of them
                           school children – could be poisoned if a single milk truck was
                           contaminated with one gram of botulinum type A toxin.17 Though some
                           experts questioned the technical basis for the paper’s conclusions and
                           signaled that the dairy industry had taken appropriate countermeasures to
                           reduce this threat,18 a single intentional food contamination event could
                           sicken thousands.

13
   Homeland Security Presidential Directive 9: Defense of United States Agriculture and Food, January 30, 2004, 

paragraph 2. 

14
   DHS, National Infrastructure Protection Plan, June 30, 2006, p. 1.

15
   Mead, Paul S., et al., “Food-Related Illness and Death in the United States,” Emerging Infectious Diseases, vol. 5,

1999, pp. 607-25. 

16
   http://www.ers.usda.gov/Data/FoodBorneIllness/salm_Intro.asp?Pathogen=Salmonella&p=1&s=&y=2005&n=

1397187

17
   Wein, Lawrence M. and Yifan Liu, “Analyzing a bioterror attack on the food supply: The case of botulinum toxin 

in milk,” Proceedings of the National Academy of Sciences, July 12, 2005, pp. 9984-9989. 

18
   Leitenberg, Milton and George Smith, “Got Toxic Milk?: A Rejoinder.” June 14, 2005

(http://www.fas.org/sgp/eprint/milk.html), and Clay Detlefsen, “Dairy Industry vigilant in addressing food security,” 

Cheese Market News, July 1, 2005. 


                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 7 

                         Given the size of the food sector, damage to the sector could undermine
                         the orderly functioning of the economy. The broad distribution and
                         widespread prevalence of the nation’s food processing plants, storage
                         facilities, and retail outlets, along with the continuous distribution and
                         transportation of food, suggest that a major contamination event could
                         have a significant disruptive effect on the national economy. The food
                         industry also accounts for $60 billion in exports and a positive net balance
                         of trade. Damage to the nation’s food sector could result in the loss of
                         export markets and add to trade deficits.

                         An incident need not be widespread to cause major harm to U.S. trade.
                         U.S. beef exports plunged when 119 countries instituted bans on American
                         beef after “mad cow” disease was found in a U.S. herd in 2003.19 Japan, a
                         $1.4 billon annual market for U.S. beef, partially lifted its ban two years
                         later. Even then, nearly half of the countries accepting U.S. beef in 2003
                         had not permitted the resumption of U.S. beef imports.20

                         Commentators on the subject have observed that an adverse food sector
                         event could also reduce state and local governments’ ability to maintain
                         order and deliver essential services. A major food contamination event
                         could engender public panic on a local or mass scale, depending on the
                         affected food product and population, and media coverage of the incident.
                         Widespread public panic could occur if adulteration of foods resulted in a
                         large number of deaths. An appreciable decline in public confidence in
                         the government could result if a contamination event were linked to a
                         government facility.

                         Finally, an adverse incident affecting the food sector could undermine
                         public morale and confidence in the nation’s institutions. Most Americans
                         currently regard their food as safe. A July 2005 Gallup Poll found that
                         large majorities of respondents were “confident” that food in U.S. grocery
                         stores and restaurants was safe.21 Because there have been few incidents
                         of large-scale food contamination, it is not clear how the public’s
                         perceptions about the safety of food might change in response. The
                         Gilmore Commission reported that a major act of terrorism against the
                         food supply is likely to have “a major psychological impact.” It further




19
   USDA, “Livestock and Poultry: World Markets and Trade,” November 2005. 

20
   USDA, “Statement by Agriculture Secretary Mike Johanns Regarding the Opening of the Japanese Market to U.S.

Beef,” Release No. 0544.05, December 11, 2005. 

21
   Gallup Poll News Service, "Is Confidence in U.S. Food Supply Wilting?," September 20, 2005. 


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 8 

                          indicated that the psychological consequences of such an attack were “not
                          well understood.”22


        A Historical Perspective on Federal Food Defense and 

        Critical Infrastructure Protection Responsibilities 

                          It is the policy of the federal government to protect the food system from
                          “terrorist attacks, major disasters, and other emergencies.”23 The structure
                          of government support for this policy is set out in several different laws
                          and executive directives. To understand the current state of federal efforts
                          surrounding food defense and critical infrastructure protection, one must
                          first understand the history behind those efforts.

                          A number of federal food-related responsibilities arise from the
                          government’s role in critical infrastructure protection. Federal efforts in
                          the critical infrastructure protection arena emerged in July 1996, when
                          President Clinton formed the President’s Commission on Critical
                          Infrastructure Protection. This commission, which consisted of
                          representatives of federal agencies, was tasked with assessing the
                          vulnerabilities and threats to the nation’s critical infrastructures. For these
                          purposes, “critical infrastructure” was defined to include infrastructures
                          the incapacitation or destruction of which would debilitate the defense or
                          economic security of the country. At the time, food and agriculture were
                          not regarded as critical infrastructure sectors.24

                          Presidential Decision Directive 63 outlined ways for the Executive Branch
                          to enhance the protection of critical infrastructures. The directive assigned
                          lead responsibilities for infrastructure sectors to particular federal
                          agencies. For example, the Department of the Treasury was designated
                          the lead agency for the banking and finance sector. Responsible agencies
                          were, in turn, to help “swiftly eliminate any significant vulnerability to
                          both physical and cyber attacks on our critical infrastructures.”25

                          In addition, the directive envisioned a growing partnership between
                          federal, state, and private sector entities to develop plans to defend against
                          and recover from attacks on infrastructure.26 Presidential Decision

22
   Advisory Panel to Assess Domestic Response Capabilities for Terrorism Involving Weapons of Mass Destruction 

(Gilmore Commission), Fourth Annual Report to the President and Congress, December 15, 2002, p. 68. 

23
   Homeland Security Presidential Directive 9: Defense of United States Agriculture and Food, January 30, 2004, 

paragraph 4. 

24
   EO 13010: Critical Infrastructure Protection, July 15, 1996, paragraph 1.

25
   Presidential Decision Directive 63: Critical Infrastructure Protection, May 18, 1998, Section 2. 

26
   Ibid., Section 4.


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 9 

                         Directive 63 sought to foster this partnership through the formation of
                         Information Sharing and Analysis Centers (ISACs) – which were to serve
                         as information exchange centers.

                         As food and agriculture were not considered critical infrastructure sectors
                         at the time, they did not receive direct attention under Presidential
                         Decision Directive 63’s framework. Notwithstanding their absence from
                         critical infrastructure discussions of the day, food and agriculture did
                         formally register among White House national security considerations.
                         The National Security Council’s Weapons of Mass Destruction
                         Preparedness Group included a subgroup related to agriculture and food
                         safety chaired by USDA.27

                         These structures were in place at the time of the terrorist attacks of
                         September 11, 2001. Soon thereafter, President Bush signed Executive
                         Order 13231, modifying White House involvement in critical
                         infrastructure protection activities. This Executive Order stressed the
                         protection of information systems supporting critical infrastructures,
                         forged a presidential critical infrastructure protection board with a number
                         of specialized standing committees, and established a new infrastructure
                         advisory council with membership drawn from the private sector,
                         academia, and state and local government.28

                         Heightened awareness of the hazards facing the food sector grew within
                         the executive and legislative branches of the federal government following
                         the September 2001 attacks. This awareness was reflected, in part, by the
                         June 2002 passage of the Public Health Security and Bioterrorism
                         Preparedness and Response Act of 2002 (Bioterrorism Act). The
                         Bioterrorism Act called for increased controls on dangerous biological
                         agents and toxins, and provided the FDA with more authorities to detect
                         and respond to the possible adulteration of food products.29

                         Awareness of these hazards also expanded as a result of the work of the
                         Gilmore Commission. In its fourth annual report to Congress and the
                         President, the Commission discussed its concerns about the readiness of
                         the food and agriculture sectors in the event of a terrorist attack. After
                         examining the readiness of these sectors, the Commission directed 6 of its


27
   Presidential Decision Directive 62: Protection Against Unconventional Threats to the Homeland and Americans 

Overseas, May 22, 1998. Noted in Advisory Panel to Assess Domestic Response Capabilities for Terrorism

Involving Weapons of Mass Destruction (Gilmore Commission), Fourth Annual Report to the President and 

Congress, December 15, 2002, pp. 69-70.

28
   EO 13231: Critical Infrastructure Protection, October 16, 2001, Sections 1, 3, and 10. 

29
   21 U.S.C. §§ 331, 334, 335a, 341, 342, 343, 350, 374, 381, 398, and 399.


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 10 

                          56 recommendations at improving terrorism preparedness and response for
                          the food and agriculture sectors.30

                          In July 2002, the White House Office of Homeland Security released a
                          National Strategy for Homeland Security that elevated the national
                          security standing of the food sector. Acknowledging possible “insider
                          threats” to the food supply through food product tampering by employees
                          in the processing and distribution system, the National Strategy for
                          Homeland Security expanded the list of “critical” infrastructure sectors to
                          include food and agriculture.31

                          The February 2003, National Strategy for Physical Protection of Critical
                          Infrastructure and Key Resources highlighted the possible exploitation of
                          critical infrastructure to cause harm and disruption. Whereas past
                          guidance on critical infrastructure protection stressed the risks associated
                          with destroying or disabling critical infrastructures, this new strategy
                          explicitly recognized the potential to exploit critical infrastructures to ill
                          effect.32 This new recognition may have been the product of a painful
                          lesson on September 11, 2001, a day on which commercial airlines were
                          exploited to inflict damage beyond the aviation sector. Whatever its
                          origins, this was an important acknowledgement for the food sector, as
                          many experts regard the exploitation of the sector as of considerably
                          greater concern than the destruction or disabling of its assets.

                          DHS’ engagement in critical infrastructure protection efforts dates to its
                          inception. The department’s enabling legislation, the Homeland Security
                          Act,33 transferred the infrastructure protection functions of the Federal
                          Bureau of Investigation’s (FBI) National Infrastructure Protection Center
                          and Department of Commerce’s Critical Infrastructure Assurance Office
                          to DHS.34 In addition, the Homeland Security Act assigned DHS
                          overarching responsibility for the following critical infrastructure
                          protection activities:

                               • 	 Carrying out comprehensive assessments of the vulnerabilities of
                                   the nation’s critical infrastructures;


30
   Advisory Panel to Assess Domestic Response Capabilities for Terrorism Involving Weapons of Mass Destruction 

(Gilmore Commission), Fourth Annual Report to the President and Congress, December 15, 2002, p. viii. 

31
   Executive Office of the President, Office of Homeland Security, National Strategy for Homeland Security, 

July 2002, pp. 30, 34. 

32
   National Strategy for Physical Protection of Critical Infrastructure and Key Resources, February 2003, p. viii. 

33
   6 U.S.C. § 101 et seq.

34
   6 U.S.C. § 121(g)(1) transferred most National Infrastructure Protection Center functions to DHS. The Critical

Infrastructure Assurance Office’s functions are transferred to DHS in § 121(g)(3). 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 11 

                                • 	 Integrating relevant information in order to identify priorities for
                                    protection and support measures undertaken by the public and
                                    private sectors;
                                • 	 Developing a comprehensive national plan for securing critical
                                    infrastructures; and,
                                • 	 Recommending measures necessary to protect critical
                                    infrastructures.35

                           In crafting the Homeland Security Act, Congress also recognized the
                           possible danger of foodborne terror. Section 308(b)(2) of the Homeland
                           Security Act, 6 U.S.C. §188, required DHS to establish university-based
                           centers of excellence in order to enhance the statutory mission of the new
                           department. Congress set one criteria for the selection of Centers of
                           Excellence as a “demonstrated expertise in food safety.”

                           In December 2003, the White House issued the seventh in a series of
                           Homeland Security Presidential Directives, often referred to as HSPDs,
                           setting homeland security policy for the federal government. This policy
                           directive, Homeland Security Presidential Directive 7, amended the model
                           for interagency coordination on critical infrastructure protection originally
                           set out in Presidential Decision Directive 63. Homeland Security
                           Presidential Directive 7 modified the existing framework by identifying
                           the DHS Secretary “as the principal [f]ederal official to lead, integrate,
                           and coordinate implementation of efforts among [f]ederal departments and
                           agencies, [s]tate and local governments, and the private sector to protect
                           critical infrastructure and key resources.”36 It also designated Sector-
                           Specific Agencies for each critical infrastructure sector responsible for
                           working with DHS to augment security. The food sector is part of one of
                           the 17 federally recognized critical infrastructure sectors. Homeland
                           Security Presidential Directive 7 identified USDA and HHS as co-Sector-
                           Specific Agencies for the food sector, making this the only sector with two
                           Sector-Specific Agencies. A list of critical infrastructure sectors and
                           corresponding Sector-Specific Agencies is presented in Appendix F.

                           Homeland Security Presidential Directive 7 also stipulates that DHS is to
                           “produce a comprehensive, integrated national plan” to protect critical
                           infrastructures.37 In June 2006, DHS released a National Infrastructure
                           Protection Plan (NIPP) consistent with this requirement. The NIPP
                           describes missions, goals, and standards for protection of infrastructure
35
   6 U.S.C. §§ 121(d)(2), (3), (5), and (6).

36
   Homeland Security Presidential Directive 7: Critical Infrastructure Identification, Prioritization, and Protection, 

December 17, 2003, paragraph 12. 

37
   Homeland Security Presidential Directive 7: Critical Infrastructure Identification, Prioritization, and Protection, 

December 17, 2003, paragraph 27. 


                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 12 

                          sectors, and expounds on the relationship between DHS and the Sector-
                          Specific Agencies.

                          Another primary source of executive branch food defense responsibilities
                          is Homeland Security Presidential Directive 9, “Defense of United States
                          Agriculture and Food,” which outlines the policy framework for the
                          protection of the food supply. Issued in January 2004, Homeland Security
                          Presidential Directive 9 set out numerous related requirements for DHS,
                          USDA, and FDA, among other federal agencies. Homeland Security
                          Presidential Directive 9 appointed DHS “responsible for coordinating the
                          overall national effort” to protect the food and agriculture sectors, and
                          designated the DHS Secretary as “the principal [f]ederal official to lead,
                          integrate, and coordinate implementation of efforts” among federal, state,
                          local, and private sector elements.38 Thus, a primary measure of DHS’
                          effectiveness in protecting the food sector is how well the department
                          works with outside entities, especially its federal partners, to facilitate the
                          improved security of the sector.

                          Other pertinent presidential policy guidance, Homeland Security
                          Presidential Directives 8 and 10, set forth national policy for preparedness
                          and biodefense, respectively. Each accords DHS important related
                          responsibilities.


        DHS Food Sector Responsibilities
                          While the two primary sources of DHS’ food defense and critical
                          infrastructure protection responsibilities are Homeland Security
                          Presidential Directives 7 and 9, additional responsibilities are outlined in
                          other Presidential Directives,39 the Homeland Security Act, USA PATRIOT
                          Act, and strategic documents like the NIPP. These responsibilities can be
                          viewed as existing along an incident timeline from prevention to
                          preparedness and detection to recovery.




38
   Homeland Security Presidential Directive 9: Defense of United States Agriculture and Food, January 30, 2004, 

paragraph 6. 

39
   Homeland Security Presidential Directive 8: Preparedness, Homeland Security Presidential Directive 9: Defense 

of United States Agriculture and Food, and Homeland Security Presidential Directive 10: Biodefense for the 21st 

Century also identify pre-response DHS food-sector responsibilities. 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 13 

              Figure 1. Review Focus Along Incident Timeline




                                          s
                                       es
        n




                                        n
    tio




                    n
                                                Incident




                                                                 n




                                                                                           y
                                     ed




                                                                               se
                   tio




                                                               io




                                                                                            r
  en




                                                                            on




                                                                                         ve
                                  ar
                ec




                                                               ct
 ev




                                                                          sp




                                                                                      co
                                 ep




                                                             te
              ot
Pr




                                                           De




                                                                        Re




                                                                                    Re
            Pr




                               Pr
                         Focus of this Review



            This review focused on DHS’ pre-response obligations to food sector
            defense and critical infrastructure protection. Pre-response activities are
            those that precede awareness that an incident has occurred. Accordingly,
            they exclude activities in the incident response and recovery process.

            DHS pre-response responsibilities in food defense and critical
            infrastructure protection can be grouped into eight categories:
                • critical infrastructure protection management and coordination
                • asset identification and sector mapping
                • information sharing, threat awareness, and warning
                • vulnerability assessment
                • consequence assessment and modeling
                • protective measures and prioritization
                • research and development
                • education, outreach, training, and preparedness

            Some of these responsibilities specifically identify the food sector as a
            focus of the department’s obligations. In many other cases, however,
            DHS’ responsibilities in the food sector derive from the industry’s
            standing as critical infrastructure. For more detail on these responsibilities
            and their statutory origins please consult Appendix G.

            Congress and the White House have instructed DHS to assume different
            roles in the execution of its food sector responsibilities. For some
            responsibilities, DHS is given primary or exclusive responsibility for a
            task. In other cases, the department is to work collaboratively with other
            federal departments to fulfill a shared responsibility. Finally, in some
            other instances, DHS’ responsibility is to serve in a supporting capacity.



              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                         Page 14 

        Challenges Intrinsic to the Fulfillment of DHS’ Mandate
                         DHS faces some noteworthy challenges in the pursuit of its food sector
                         responsibilities. Many of these challenges arise from factors outside of the
                         department’s control.

                         One challenge stems from the sector’s absence from early critical
                         infrastructure planning efforts. As discussed earlier, until 2002, executive
                         directives on critical infrastructure protection did not acknowledge the
                         food sector’s place among critical infrastructures. The Gilmore
                         Commission attributed its observation that “relatively little action ha[d]
                         been taken to address the threat” to food and agriculture due, in part, to the
                         late acknowledgement of the sector as critical.40 Prior to 2002, strategies
                         and approaches to critical infrastructure protection were developed
                         without particular emphasis on or consideration of the food sector. This
                         late start represents a hurdle in DHS’ efforts to fulfill its food defense and
                         critical infrastructure protection responsibilities.

                         An additional challenge relates to the fact that so much of the food
                         industry is privately owned and outside of the department’s regulatory
                         control. This restricts DHS’ familiarity with food industry operations, as
                         well as its understanding of related threats, vulnerabilities, and
                         consequences. DHS also has a limited ability to directly influence
                         appropriate preparedness and mitigation actions. Vibrant cooperation and
                         support between government and the private sector are needed to fully
                         understand vulnerabilities, study possible consequences, prepare for
                         threats, and implement mitigation measures.

                         Another major challenge DHS faces is a product of the department’s
                         pedigree. DHS was assembled from twenty-two pre-existing agencies and
                         organizations. None of these organizations had a primary mission focus
                         on post-harvest food products, though some had contact with the food
                         industry. The closest contact any constituent group within DHS had with
                         food products came through the import inspection process. Agricultural
                         import inspectors, who transferred to DHS from USDA’s Animal and
                         Plant Health Inspection Service, regularly inspected imported food
                         products to determine whether they were host to animal or plant pests and
                         pathogens that posed a threat to the nation’s pre-harvest agricultural and
                         livestock production. Also, some customs inspectors had received cross-
                         designation as FDA inspectors, and other customs staff were engaged in
                         the implementation of the Bioterrorism Act prior to DHS’ formation. In

40
  Advisory Panel to Assess Domestic Response Capabilities for Terrorism Involving Weapons of Mass Destruction
(Gilmore Commission), Fourth Annual Report to the President and Congress, December 15, 2002, p. 69.

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 15 

                         addition, the National Infrastructure Protection Center, which operated
                         under the Department of Justice prior to the formation of DHS, had some
                         engagement with food sector defense after the sector gained recognition as
                         a critical infrastructure sector. Finally, the Federal Emergency
                         Management Agency dealt with food products as they related to
                         emergency response. Even in combination, these legacy engagements
                         with the food sector were minor. Despite the limited familiarity DHS had
                         with the food sector at the time of its formation, the department was
                         assigned numerous important responsibilities in the area within a year of
                         its establishment.

                         In part because of DHS’ limited legacy expertise in the field, the
                         successful execution of the department’s food defense and critical
                         infrastructure protection responsibilities requires substantial coordination
                         with public sector partners. Because numerous public sector entities
                         regulate the food industry, the insights to be gained through partnerships
                         with food industry regulators come with a significant coordination
                         requirement.

                         Thus, another challenge relates to the fragmentary nature of government
                         food safety regulation and quality assurance activities. Within the federal
                         government, primary responsibility for food safety rests with two agencies
                         with distinct authorities and regulatory regimes, HHS’s FDA and the
                         USDA’s Food Safety and Inspections Service. In addition to these two
                         primary federal food regulators, at least seven other federal agencies
                         provide some oversight of food processing, distribution, and retail.41

                         Strung together by more than two dozen laws, the complex web of federal
                         food oversight has been draped unevenly over the sector. Consequently,
                         some foods are subject to considerably more intensive oversight than
                         others. As the Government Accountability Office (GAO) has reported,
                         USDA has historically outspent FDA in food safety activities despite the
                         fact that it regulates approximately nine times fewer facilities. This
                         imbalance in spending is also noteworthy considering that the food
                         products USDA regulates account for almost four times less consumer
                         spending, and are tied to about two times fewer foodborne illness
                         outbreaks than those for which FDA is responsible.42

41
   USDA’s Grain Inspection, Packers and Stockyards Administration; USDA’s Agricultural Marketing Service; the
Department of Commerce’s National Oceanic and Atmospheric Administration; the Environmental Protection
Agency; the Federal Trade Commission; the Department of the Treasury’s Alcohol and Tobacco Tax and Trade
Bureau; and DHS’ Customs and Border Protection.
42
   Prepared Statement of Lawrence J. Dyckman, Government Accountability Office, Federal Food Safety and
Security System – Fundamental Restructuring Is Needed to Address Fragmentation and Overlap, March 20, 2004,
pp. 9-10.

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 16 

Even where oversight is intensive, federal regulators can exercise only
limited authority. Neither the Food Safety and Inspections Service nor
FDA has the authority to issue mandatory food recalls, except in the case
of infant formula. GAO reported that neither agency believes current food
safety and inspection laws provide them with authority to fully regulate all
aspects of food security.

Added to the patchwork of federal food oversight is the work of state and
local agriculture and public health departments, which also regulate the
industry. As noted previously, state, territorial, and local governments
oversee the safety of food retail and food service establishments within
their jurisdictions.

The enormity of the food sector and the complexity of government
oversight pose substantial challenges to food defense and critical
infrastructure protection. These challenges are compounded by the fact
that some of the department’s obligations to the food sector are set out in
guidance documents that are not clearly compatible. Homeland Security
Presidential Directive 7, for example, focuses on terrorism threats, while
other applicable presidential directives mandate that DHS protection and
preparedness activities address all hazards, regardless of cause.
Furthermore, it is sometimes difficult to translate activities across the
different frameworks laid out in these directives. It is not easy, for
example, to understand how preparedness activities conducted under
Homeland Security Presidential Directive 8 support the critical
infrastructure protection responsibilities established under Homeland
Security Presidential Directive 7. Differences like these have helped set
the stage for some of the difficulties in defining priorities and monitoring
resource allocation discussed in the following sections. Appendix I
provides more information on the interplay of the frameworks for
infrastructure protection, national preparedness, and incident management
as they apply to post-harvest food.

Facing a complex and unfamiliar infrastructure sector with little legacy
expertise, DHS has been invested with a range of responsibilities. Though
numerous, these responsibilities represent only a fraction of the
department’s overall commitments. While DHS must fulfill its food
sector responsibilities, the department’s level of engagement and resource
allocation to related activity should be shaped by a rational assessment of
priorities. It is DHS’ stated policy to prioritize efforts in accordance with
risk. As defined by the department, risk contains three elements:



  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 17 

                              • 	 Threat – the “intention and capability of an adversary to undertake
                                  actions that would be detrimental” to critical infrastructures;43
                              • 	 Vulnerability – a “weakness in the design, implementation, or
                                  operation of an asset or system that can be exploited by an
                                  adversary, or disrupted by a natural hazard or technological
                                  failure,”44 and
                              • 	 Consequence - the “result of a terrorist attack or other hazard that
                                  reflects the level, duration, and nature of the loss resulting from the
                                  incident.”45

                          Determining how the three elements apply to the food sector is a
                          challenging task. Mapping this assessment onto judgments about risk in
                          other areas of DHS responsibility and developing risk-driven priorities is a
                          profoundly difficult undertaking.


Results of Review
        DHS’ Internal Coordination of Food Sector Activities
                          Several organizational units in the department carry out DHS food-sector
                          related activities. The supervision of these activities is distributed across
                          several managers in these units. This divided leadership arrangement has
                          produced similar programming across different components and has not
                          provided the level of internal coordination required. The internal
                          coordination that has occurred has been performed on an inconsistent
                          basis. As a result, opportunities to leverage information from one program
                          in support of another have been missed. Coordination across DHS food
                          sector programming can be improved through focused, consolidated
                          leadership attention, with responsibility assigned to a single senior staff
                          official.


                 Distribution of DHS Food Sector Activities

                          DHS is not organized to address its food sector responsibilities in a
                          consolidated way. These responsibilities are distributed across multiple
                          DHS units. This is the result of the interplay of DHS’ organizational
                          structure and the responsibilities themselves.


43
   DHS, NIPP, June 30, 2006, p. 105.

44
   Ibid. 

45
   Ibid., p. 103. 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 18 

As presently structured, DHS has four directorates, seven agencies, fifteen
major offices, and a center. These organizational elements are structured
to address missions like improving the nation’s all-hazards preparedness
and securing the border while facilitating the legitimate flow of trade.
There is no major organizational entity within DHS that is focused
exclusively or even largely on the execution of DHS responsibilities in the
food sector.

Drawn from several statutes, the department’s food sector responsibilities
are broad-based. These responsibilities extend from the monitoring of
sector infrastructure protection progress to the development of
countermeasures, and from asset identification to consequence modeling.
Under DHS’ current organization, the functional expertise required to
fulfill these responsibilities is distributed across several organizational
units.

Efforts to operationalize these responsibilities are also distributed widely
across DHS. Many of these efforts are undertaken in units of DHS’
Preparedness Directorate. Two divisions in its Office of Infrastructure
Protection – the Infrastructure Partnerships Division and Risk
Management Division – conduct food sector critical infrastructure
protection activities. Another major office within the Preparedness
Directorate, the Office of Grants and Training, funds curriculum
development, education, outreach, exercises, and planning to prepare for
hazards to the food sector. A third unit, the Office of the Chief Medical
Officer manages a data system that integrates foodborne illness
information, among other related activities. Food defense and critical
infrastructure protection activities are also conducted and sponsored by the
Science and Technology (S&T) Directorate. S&T supports related
research, education, and analysis through its Office of Research and
Development, Biological Countermeasures Portfolio, and Homeland
Security Advanced Research Projects Agency. Finally, Customs and
Border Protection (CBP) has contact with food defense issues through its
efforts to enforce federal commercial importation laws and secure the
nation’s borders.

DHS operates a number of programs and initiatives with food defense and
critical infrastructure protection features. Related programs and activities
are arrayed across the five different DHS organizational entities discussed
above: the Office of Infrastructure Protection, Office of Grants and
Training, Office of the Chief Medical Officer, S&T, and CBP. The
following table illustrates the placement of DHS food-related programs
and initiatives within each of these five DHS units. For more information
on DHS food-sector-related programs and initiatives refer to Appendix H.

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 19 

DHS’ Role in Food Defense and Critical Infrastructure Protection 

                           Page 20 

Table 1.     DHS Food Defense and Critical Infrastructure Protection
             Activities and Initiatives

           DHS Activities and Initiatives with Food Defense Applications

     Office of Infrastructure Protection
           Food & Agriculture Government Coordinating Council
           Food & Agriculture Sector Coordinating Council support
           Homeland Security Information Network - Food & Agriculture Portal
           National Infrastructure Coordination Center
           Homeland Infrastructure Threat and Risk Analysis Center
           Protected Critical Infrastructure Information program
           DHS Educational Reports
           Site Assistance Visits
           Buffer Zone Plans*
           Strategic Partnership Program for Agroterrorism support
           National Asset Database
           National Infrastructure Simulation and Analysis Center
     Office of Grants and Training
           Multi-State Partnership for Security in Agriculture support
           University of California - Davis (UC Davis) training support
           University of Tennessee vulnerability assessment training support
           Lousiana State University agroterrorism course development
           Exercise support
           State Homeland Security Program
     Office of the Chief Medical Officer
           National Biosurveillance Information System**
     Science and Technology Directorate (S&T)
           National Center for Food Protection and Defense (NCFPD)
           Food Biological Agent Detection Sensor
           National Biodefense Analysis and Countermeasures Center research
           University of Kentucky tracking system
           Critical Infrastructure Protection Decision Support System
     Customs and Border Protection (CBP)
           Notification and Targeting Support
*	  Buffer Zone Plans are products of the Buffer Zone Protection Program, a joint effort between the
    Office of Infrastructure Protection and Office of Grants & Training.
**	 Management of the National Biosurveillance Integration System transferred from the Office of
    Infrastructure Protection to the Office of the Chief Medical Officer on September 1, 2006.



                  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                             Page 21 

     DHS programs and initiatives that support food defense and critical
     infrastructure protection also frequently support other efforts. Some DHS
     programs that apply to the food sector serve critical infrastructure
     protection efforts at large, and only engage the food sector to a limited
     degree. Other DHS programs and initiatives address both pre-harvest and
     post-harvest elements of the food supply chain. The level of attention and
     focus these programs and initiatives place on food defense and critical
     infrastructure protection, in particular, varies considerably. Only 3 of the
     25 programs and initiatives listed in the table focus primarily or
     exclusively on post-harvest food defense and critical infrastructure
     protection – the National Center for Food Protection and Defense, the
     Food Biological Agent Detection Sensor, and University of Kentucky
     tracking system.


Management of DHS Food Sector Activities

     The management of DHS’ food-sector-related activities is as dispersed as
     the activities themselves. At the time of our fieldwork, no single senior
     manager or official in DHS was dedicated to monitoring or overseeing all
     of the department’s food sector activities. Rather, responsibility for
     executing these activities rested with managers across the five DHS
     components discussed above.

     Nested within separate DHS units, program managers for food-sector
     related efforts had limited information about activities in other parts of
     DHS. As a result, they were not able to easily identify areas in which
     coordination would have been beneficial. Because these program
     managers had restricted insight into the related activities of other
     departmental components, they sometimes executed and supported food-
     sector-related activities without an appropriate level of internal
     coordination.

     This dynamic was evident in initiatives funded by the Office of Grants and
     Training and S&T. Grants and Training and S&T did not collaborate with
     each other in the development of grant guidance and requirements or in
     the review of grant applications. Just as the Grants and Training did not
     involve S&T in the development of education, training and outreach
     programs at the outset, S&T did not involve Grants and Training in the
     development of its Broad Agency Announcement for its food protection
     and defense Center of Excellence.

     The shortage of advance communication and coordination contributed, in
     part, to the propagation of similar projects and initiatives. Common

       DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                  Page 22 

program thrusts emerged in the areas of communication; education,
training, and exercises; threat agent studies; and sector modeling and
consequence assessment.

Many of these common program thrusts evolved at the S&T-sponsored
National Center for Food Protection and Defense (NCFPD), which has
pursued a broad base of food-related work. The NCFPD, based at the
University of Minnesota, is a university-based Homeland Security Center
of Excellence. As of September 2006, the NCFPD had 39 active research
projects involving 83 students, including 9 post-doctoral and 56 graduate
students.

Initiatives similar to the work conducted by the NCFPD have been
sponsored by Grants and Training under the Homeland Security Exercise
and Evaluation Program, the Multi-State Partnership for Security in
Agriculture, as well as through the University of California at Davis
(UC Davis), the University of Tennessee, and Louisiana State University.
Programs that S&T has funded that perform work similar to that of the
NCFPD include the Food Biological Agent Detection Sensor, and the
National Biodefense Analysis and Countermeasures Center. Other
parallel efforts are underway at the national laboratories under the
auspices of Office of Infrastructure Protection- and S&T-supported
programs, the National Infrastructure Simulation and Analysis Center and
Critical Infrastructure Protection Decision Support System, respectively.

Communication Initiatives

Several projects funded by Grants and Training and S&T, such as risk
communication initiatives and website and database development
activities, support initiatives to improve food sector communication and
information sharing.

The NCFPD, the Multi-State Partnership, and UC Davis each have food-
related risk communication projects that seek to build the capability to
educate planners, first responders, and the public about the risks of an
attack on the food supply. The NCFPD’s risk communication program
focuses on the development and delivery of training modules and visual
aids to convey messages on food-related incidents. The Multi-State
Partnership’s risk communication initiatives target key personnel involved
in conveying messages to the public during and after a bioterrorism event.
Like the NCFPD, it has conducted risk communication training and
developed risk communications products for food-related incidents.
UC Davis offers a course on risk communication. Its objective is to


  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 23 

prepare first responders to communicate with the public after an
intentional attack on the food sector.

S&T and Grants and Training also fund parallel website and database
development efforts. The NCFPD, UC Davis, and the National
Biodefense Analysis and Countermeasures Center each support websites
or databases that currently host or will host information on threats,
vulnerabilities, consequences, and protective measures that relate to
biological or chemical agents that can be introduced into the food supply.
A separate set of similar websites and databases are under development by
the Multi-State Partnership and the Homeland Security Exercise and
Evaluation Program. The Multi-State Partnership and Homeland Security
Exercise and Evaluation Program both sponsor website and database
development efforts that will support information on exercises, exercise
methodologies, and best practices.

Education, Training, and Exercises

The NCFPD, and Grants and Training-supported programs at the Multi-
State Partnership, UC Davis, the University of Tennessee, and Louisiana
State University are all involved in the development, delivery, and
evaluation of courses and exercises in the realm of food protection and
defense.

The NCFPD, the Multi-State Partnership, UC Davis, the University of
Tennessee, and Louisiana State University have educational programs on
planning for and responding to food-related bioterror attacks, and provide
information on assessing vulnerabilities and developing protective
measures for the food sector. All of these programs target, at least in part,
the first responder community.

Currently, the Homeland Security Exercise and Evaluation Program, the
Multi-State Partnership, and UC Davis are all directly engaged in the
development and delivery of exercises and the subsequent provision of
lessons learned and best practices to the food sector. Grants and Training
has directly supported four food contamination exercises since DHS was
established. Recently, six states participated in a Multi-State Partnership-
facilitated exercise designed to identify the strengths and weaknesses of
current information sharing systems. Further, the Multi-State Partnership
is involved in assessing training and exercises, and inventorying food
emergency response exercises. Although UC Davis does not have as
extensive an exercise program, it has integrated tabletop exercises into its
educational curriculum.


  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 24 

                          Threat Agent Studies

                          The NCFPD, National BioDefense Analysis and Countermeasures Center,
                          and Food Biological Agent Detection Sensor programs have projects that
                          support threat agent identification and detection in food matrices. The
                          detection and identification of agents in foods (food matrices) poses
                          significant challenges. Unlike pure lab samples of threat agents, food
                          matrices contaminated with threat agents contain substances that can help
                          the agent multiply, mask its presence, or generally undermine the
                          effectiveness of detection techniques that are reliable in other settings.
                          Food products contain a range of substances and have varied
                          consistencies, factors that confound efforts to apply any single detection
                          technique widely. Also, threat agents may be unevenly distributed in
                          foods, so identifying appropriate sampling procedures represents another
                          challenge.

                          The NCFPD’s detection and diagnostics projects focus on developing
                          rapid and accurate methods for detecting biological and chemical agents in
                          food products and enabling efficient monitoring and testing in a range of
                          production, processing, and retail settings. The Biological Threat
                          Characterization Center at the National BioDefense Analysis and
                          Countermeasures Center pursues some similar work, and has
                          comparatively tested laboratory test technique and protocols for detecting
                          threat agents in one food matrix. Finally, S&T is sponsoring the
                          development of rapid, portable technology to detect select agents in liquid
                          food matrices under its Food Biological Agent Detection Sensor
                          program.46

                          Both the NCFPD and National BioDefense Analysis and Countermeasures
                          Center support research on agent viability in food matrices. The NCFPD’s
                          work relates to the deactivation of threat agents, while the
                          Countermeasures Center effort is centered on the study of agent
                          survivability in different food matrices.

                          Sector Modeling and Consequence Assessment

                          DHS has pursued food sector modeling efforts through the NCFPD, the
                          Critical Infrastructure Protection Decision Support System, and the
                          National Infrastructure Simulation and Analysis Center. The NCFPD has
                          developed a food contamination event modeling tool that can be used

46
  Pursuant to Section 201 of the Bioterrorism Act (P.L. 107-188), codified at 42 U.S.C. § 262a, CDC has identified
41 “select agents” that pose a threat to human health and safety. CDC lists toxins, bacteria, fungi, and viruses
among select agents affecting human health. (http://www.cdc.gov/od/sap/docs/salist.pdf).

                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 25 

                               track the effect of hypothetical food contamination events. The NCFPD
                               system models the distribution and consumption of the food product,
                               resulting illnesses, public health system contacts, and response. The
                               Critical Infrastructure Protection Decision Support System has assembled
                               a more limited capability in this area by assembling a model for the supply
                               chain for a single food commodity. The National Infrastructure
                               Simulation and Analysis Center is also developing a model for a portion of
                               the food supply chain – the dairy industry.

    Table 2. 	        Areas of Shared DHS Food Defense and Critical Infrastructure Protection
                      Program Thrust

                                          Areas of Common Program Thrust
                                                                S&T                                    G&T                          IP




                                                            vis
         Program Areas


                                                           SS




                                                                                                       .
                                                            C




                                                                                                       nn
                                                            S
                                                D




                                                                                                                       P

                                                                                                                                C
                                                         Da
                                                         AC

                                                        AD

                                                        P-D
                                              FP




                                                                                                                     EE

                                                                                                                              SA
                                                                                                     Te
                                                         P




                                                                                                            U
                                                     MS
                                            NC

                                                     NB




                                                     UC




                                                                                                                   HS
                                                     FB




                                                                                                            LS




                                                                                                                            NI
                                                     CI




                                                                                                  U.
Communication
  ¾ Risk communication        3                                                3        3
  ¾ Websites & Databases      3    3                                                    3                         3
Education, Training & Exercises
  ¾ Education                 3                                                3        3        3          3
  ¾ Training & Exercises                                                       3        3                         3
Threat Agent Studies
  ¾ Agent Detection & ID      3    3     3
  ¾ Agent Viability           3    3
Sector Modeling & Consequence Assessment
  ¾   Modeling Activities                  3                          3                                                    3
 G&T – Office of Grants and Training; IP – Office of Infrastructure Protection; NCFPD – National Center for Food Protection and
 Defense; NBACC – National Biodefense Analysis and Countermeasures Center; FBADS – Food Biological Agent Detection
 Sensor; CIP-DSS – Critical Infrastructure Protection Decision Support System; MSP – Multi-State Partnership for Security in
 Agriculture; LSU – Louisiana State University; HSEEP – Homeland Security Exercise and Evaluation Program; NISAC – National
 Infrastructure Simulation and Analysis Center



                               The common program thrusts that have arisen need not result in waste.
                               Indeed, while many of the programs developing under these common
                               thrusts are similar, several are complementary. Provided adequate
                               coordination, programs with common thrusts can fruitfully contribute to
                               one another’s work and advance the DHS mission. Shared program
                               thrusts present many opportunities to leverage information and improve
                               final products. However, a management regime is not in place to ensure

                                  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                             Page 26 

that this coordination occurs as needed. As a result, the internal
coordination of these efforts has often taken place after programs were
already funded or in progress.

Some efforts to coordinate across existing programs have resulted from
DHS staff improvisation. Although DHS staff in the different directorates
were not initially aware of other DHS food-related activities, they sought
to coordinate efforts when they encountered similar programs elsewhere in
the department.

After the White House issued Homeland Security Presidential Directive 9,
DHS program staff from around the department converged to discuss ways
for the department to address its related responsibilities. Affected
program staff initially met on a monthly basis. While these Homeland
Security Presidential Directive 9 sessions ultimately waned, they did
increase awareness that similar programming was occurring in different
parts of the department. This awareness prompted Office of Grants and
Training staff to establish a forum for collaborating on food-related
research projects. Grants and Training staff forged an Agroterrorism
Training Working Group in late 2004 and invited S&T and Office of
Infrastructure Protection staff to its sessions.

Recently, contacts among the program staff overseeing DHS’ food sector
activities intensified through exchanges on avian influenza. Several key
participants in the Homeland Security Presidential Directive 9 sessions
reportedly reconvened to support coordination on pandemic influenza
preparedness, and new linkages between the Office of Infrastructure
Protection and CBP have developed as well.

Continuing collaboration through the Agroterrorism Training Working
Group and on avian influenza, however, have not provided the level of
cross-program coordination required. In several instances, coordination
across DHS programs occurred as a result of outreach efforts by the
institutions performing DHS-sponsored work. Sometimes, this
coordination took place without DHS staff involvement. Had these
institutions not determined how their efforts would best complement one
another, we believe that resources would have been expended in redundant
efforts.

The NCFPD’s efforts to collaborate across DHS programs provide a good
illustration of this dynamic. DHS provided inadequate liaison support to
the NCFPD. When we visited the NCFPD in December 2005, staff
reported difficulties accessing information and personnel from DHS
programs outside of S&T’s University Programs group. At the time,

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 27 

NCFPD was not familiar with important DHS programs involved in food
sector protection work, including DHS-funded work being done by other
entities.

In September 2006, S&T reported that it was “taking steps to increase the
staff devoted to improving coordination” with the NCFPD. But even
before the NCFPD had received appropriate DHS liaison support, it had
established contacts with the National Labs. NCFPD representatives were
able to share information on related modeling efforts under the Critical
Infrastructure Protection Decision Support System program and are now
in the early stages of planning future collaboration in this area.

The NCFPD also formed relationships with DHS-sponsored food-related
initiatives at the Multi-State Partnership and UC Davis and without the
department’s assistance. As a result, the three institutions have
participated in one another’s events and have shared information on
research findings and best practices. The NCFPD has fostered numerous
linkages with these organizations, and in one instance, brought in the
Multi-State Partnership to participate in a panel discussion on a post
harvest food contamination scenario.

Coordination at the project level is not the exclusive domain of the
NCFPD – other DHS-supported grant recipients have taken steps to
accommodate other DHS programs. The Multi-State Partnership, for
example, initially had plans to conduct vulnerability assessments and
vulnerability assessment training, but elected to forgo its independent
efforts and work through the Strategic Partnership Program Agroterrorism
initiative. Both programs are now working together to increase its
members’ knowledge and understanding of vulnerability assessments. In
these cases, however, it was the grant recipient, rather than DHS, that
sought out and initiated coordination with allied programs.

Despite recent efforts to coordinate at the program and project level, some
limited duplication of effort has occurred. Common thrusts in the Food
Biological Agent Detection Sensor program and at the NCFPD have
converged to the point that they focus on identical research objectives.
Without advance coordination, the Food Biological Agent Detection
Sensor program and NCFPD both independently embarked on research
initiatives to develop rapid testing platforms to detect the same select
agents in the same food matrix. In one case related to the detection of one
Clostridium botulinum in a particular food matrix, Food Biological Agent
Detection Sensor program and NCFPD testing platforms target detection
at different points in the production cycle, and might complement one
another. Food Biological Agent Detection Sensor program and NCFPD

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 28 

                        testing platform development efforts related to the detection of Bacillus
                        anthracis in the same food matrix, however, appear to be competing
                        approaches to the same problem. It is important to note, however, that
                        while these efforts have duplicative aims, and thereby focus on the same
                        research objective, they are not identical. Both the specific technical
                        approaches underlying these platform development efforts, as well as their
                        timelines for completion, differ.


                Need for Consolidated DHS Food Sector Leadership

                        The department’s support for common program thrusts creates a
                        continuing need for thoughtful management attention and oversight of
                        related efforts.

                        The limited leadership attention to food defense and critical infrastructure
                        protection is so pronounced that several key DHS staff could not identify a
                        senior DHS official responsible for Homeland Security Presidential
                        Directive 9 implementation. One DHS employee advised us that a single
                        DHS contractor was responsible for tracking and monitoring the
                        department’s efforts to implement Homeland Security Presidential
                        Directive 9 responsibilities.

                        Some government officials we spoke with suggested that the DHS Chief
                        Medical Officer was best positioned to assemble a unified effort on food
                        defense and critical infrastructure protection. Indeed, the Chief Medical
                        Officer’s primary functions include the coordination of DHS’ biodefense
                        activities, and service as the principal DHS liaison with HHS and USDA.
                        Office of the Chief Medical Officer staff we interviewed interpret these
                        functions to include coordination of DHS’ implementation of Homeland
                        Security Presidential Directives 9 and 10, and in recent testimony the
                        Under Secretary for Preparedness added that the Chief Medical Officer
                        was responsible for the coordination of “activities to prevent and mitigate
                        biologically-based attacks on … our food supply.”47

                        Despite these assertions of Chief Medical Officer responsibilities in this
                        area, the Chief Medical Officer has not been given explicit authority to
                        accomplish coordination and oversight of all DHS food defense and
                        critical infrastructure protection activities. The Chief Medical Officer
                        does not have formal authority to direct the work of other DHS offices and

47
  Statement of George Foresman, DHS Under Secretary for Preparedness, before the U.S. House of
Representatives, Committee on Homeland Security, Subcommittee on Emergency Preparedness, Science and
Technology, March 8, 2006.

                           DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                      Page 29 

           these DHS offices are subject to no specific requirement to support the
           Chief Medical Officer’s efforts. Moreover, at present, the Chief Medical
           Officer does not have adequate staff support to discharge this
           responsibility. Within the Office of the Chief Medical Officer,
           coordination of DHS food-related biodefense activities falls under the
           purview of the Science, Policy, and Biodefense Division. This division is
           also tasked with coordinating and integrating DHS’ biodefense portfolio,
           developing policy and procedures for specific threats, and improving
           international medical coordination. Yet, as of June 2006, it had only two
           staff.

           Effective implementation of DHS’ food sector responsibilities requires
           focused, consolidated leadership attention to preside over internal
           coordination efforts. This leadership attention can help lend clarity to
           decisions on prioritizing resources and maintain an overall picture of
           implementation of DHS food sector responsibilities. If the Chief Medical
           Officer is to perform this function and do so effectively, he or she will
           require more clear authorities and additional qualified staff.

           To address the internal coordination requirement associated with DHS’
           food sector activities more effectively, we recommend that the Under
           Secretary for Preparedness, in conjunction with the Under Secretary for
           Science and Technology:

           Recommendation #1: Identify a single senior DHS official to be
           accountable for coordinated implementation of all DHS food sector
           responsibilities, and provide this official with clear authorities and
           adequate staffing to perform this function.


Public and Private Partners
           External coordination is essential for DHS to succeed in executing its
           responsibilities for food defense and critical infrastructure protection.
           Relationships with food sector partners are important because of the
           operational control and regulatory sway that they have with the sector.
           Related input from public and private sector partners is particularly
           valuable in light of DHS’ limited food sector experience. Partnerships
           with governmental entities are also vital because DHS shares so many
           food sector responsibilities.

           DHS’ interaction with public and private sector partners will shape the
           level of engagement and support that these groups provide the department
           in executing its food-related responsibilities.

             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                        Page 30 

                 Sector Governance and Information Sharing

                          Status of the Food ISAC

                          Coordination among federal agencies and the private sector on food
                          defense and critical infrastructure protection issues predates DHS. Before
                          DHS became operational, the FBI’s National Infrastructure Protection
                          Center became involved in the formation of a private sector Information
                          Sharing and Analysis Center for the food industry. A product of the
                          infrastructure protection framework outlined in Presidential Decision
                          Directive 63, ISACs were to “serve as the mechanism for gathering,
                          analyzing, appropriately sanitizing and disseminating private sector
                          information” to both industry and the government. ISACs were also
                          envisioned as providing a means to disseminate select government
                          information to the private sector.48

                          The Food ISAC was established in February 2002, as a direct outgrowth
                          of an agreement between the National Infrastructure Protection Center and
                          the Food Marketing Institute. At the time, the National Infrastructure
                          Protection Center Director noted that Food Marketing Institute was a
                          natural leader of the ISAC because of its ability to represent the sector and
                          disseminate information to a wide audience.49

                          Declared the “focal point for gathering information on threats” to domestic
                          infrastructures, the National Infrastructure Protection Center integrated a
                          representative of the Food ISAC into its operations – providing the new
                          ISAC a seat at the table alongside members of the intelligence
                          community.50 According to industry representatives, the Food ISAC
                          distributed some useful threat and vulnerability information to food
                          industry associations and firms in 2002 and early 2003.

                          By mid 2003, however, DHS’ Office of Infrastructure Protection had
                          concluded that, as implemented, the Food ISAC was not well-suited to
                          serve the department’s full range of information sharing and analysis
                          objectives. The Office of Infrastructure Protection contended that the
                          Food Marketing Institute’s ISAC did not reach a sector-wide audience,
                          and one DHS manager said that the ISAC’s connection to the Food
                          Marketing Institute could produce “constant battles” between the Food
                          Marketing Institute and other food sector associations. The Office of
                          Infrastructure Protection also expressed concern that the Food ISAC was

48
   Presidential Decision Directive 63: Critical Infrastructure Protection, May 18, 1998. Section IX, Annex A. 

49
   http://www.fmi.org/media/mediatext.cfm?id=390

50
   Ibid. 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 31 

                          not performing analytical work – a major ISAC responsibility. Rather, the
                          Food Marketing Institute was simply passing news items and government
                          information to its membership. The Office of Infrastructure Protection
                          sought to develop a new structure to serve its vision for information
                          sharing and analysis better.

                          In August 2003, Office of Infrastructure Protection managers assembled
                          more than 200 food and agriculture sector representatives to discuss the
                          department’s vision for information sharing and coordination. According
                          to the Office of Infrastructure Protection, the assembled sector
                          representatives were then given the opportunity to develop a new
                          organizational structure. Two bodies emerged from this DHS-facilitated
                          process – the Food and Agriculture Government Coordinating Council and
                          the Food and Agriculture Sector Coordinating Council.

                          DHS leaders proclaimed the resulting “self-organization” of the food and
                          agriculture sectors a national model.51 The Government Coordinating
                          Council, which draws on representatives from government at all levels,
                          including federal departments other than the Sector-Specific Agencies, is
                          responsible for coordinating the food sector’s security activities, policy,
                          and communication across layers of government and the private sector.
                          The Sector Coordinating Council consists of private sector representatives
                          from various parts of the food and agriculture sectors. Due to the size of
                          the food and agriculture sectors and the diversity of enterprises active
                          within them, the Sector Coordinating Council is divided into seven
                          subcouncils. While working either independently or with the Government
                          Coordinating Council, the Sector Coordinating Council’s mission is to
                          provide DHS and the Sector Specific Agencies a private sector perspective
                          on food and agriculture defense.

                          DHS sought to apply a new suite of information sharing and analysis
                          initiatives to the new organizational structure. DHS offered these tools to
                          the sector to help address the limitations it perceived in the Food ISAC’s
                          operations. One of these new tools, the Homeland Security Information
                          Network Food and Agriculture portal, is specific to the sector. Three other
                          entities, the National Infrastructure Coordinating Center, the Homeland
                          Infrastructure Threat and Risk Analysis Center, and Protected Critical
                          Infrastructure Information Program, address all infrastructure sectors.

                          Although we encountered little criticism of the composition of Sector
                          Coordinating Council and Government Coordinating Council structures

51
  National Pork Producers Council, Capital Update, Vol. 4, Issue 14, April 29, 2005.
(http://www.nppc.org/wm/show.php?id=443&c=3)

                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 32 

                         that emerged from this process, the Food Marketing Institute said that the
                         reorganization effort resulted in lost time and only produced a marginal
                         return. With more than 50 member associations, the Food Marketing
                         Institute asserted that the Food ISAC was able to reach a large proportion
                         of the sector. Instead of building upon this existing information sharing
                         initiative, the Food Marketing Institute maintained that DHS chose “to
                         burn the ISAC and salt the earth.” From the Food Marketing Institute’s
                         perspective, the department’s decision to restructure private sector
                         engagement with the government needlessly set back food sector
                         infrastructure protection efforts.

                         In July 2004, the National Infrastructure Advisory Council – a joint public
                         and private sector body charged with advising the President and DHS
                         Secretary – recommended that government, "assist the ISACs in
                         delivering basic alerts and advisories to their sectors" and seek to increase
                         the volume and dissemination of alerts and advisories.52 The evolution of
                         government engagement with the Food ISAC has not developed in line
                         with the National Infrastructure Advisory Council recommendation.
                         Rather than assisting the ISAC in delivering alerts and advisories, DHS
                         has essentially kept the ISAC from such a role. With the transfer of the
                         National Infrastructure Protection Center to DHS, the Food ISAC lost
                         ready access to sanitized government information that it had been able to
                         disseminate to ISAC members in the past. By spring 2006, the Food
                         ISAC’s contact with the government had deteriorated to the extent that,
                         according to the ISAC, it did not have a dedicated DHS point of contact.
                         This has contributed to a decline in the volume and scope of information
                         disseminated to industry by the ISAC. Industry representatives reported
                         that the flow of information from the ISAC to the private sector had
                         declined, and that this decline had not been offset by increased
                         information flow from other sources.

                         Interestingly, the Sector Coordinating Council is not very distinct from the
                         ISAC in terms of industry representation. The Sector Coordinating
                         Council, for the most part, has the same industry participants as the ISAC.
                         Four Sector Coordinating Council subcouncils represent the post-harvest
                         elements of the food supply chain. As of February 2006, nine of the
                         twelve members representing these post-harvest subcouncils on the Sector
                         Coordinating Council were on the Food ISAC’s membership list. One of
                         the three not included in this group is a member of an association that is
                         part of the ISAC. The similarity of the Sector Coordinating Council to the
                         Food ISAC is echoed on the pre-harvest side. Five of the nine

52
  National Infrastructure Advisory Council, Evaluation and Enhancement of Information Sharing and Analysis, July
13, 2004, p. 12.

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 33 

                            organizations on the three pre-harvest Food and Agriculture Sector
                            Coordinating Council subcouncils were also members of the Food ISAC.

                            Thus, the Sector Coordinating Council only scarcely expanded industry
                            representation beyond the Food ISAC’s membership. Though structured
                            distinctly, the Sector Coordinating Council has essentially the same
                            constituent parts as the ISAC, including the Food Marketing Institute.

                            While the Food ISAC was operating with a representative membership
                            and board in August 2003 when DHS moved to reorganize the sector, the
                            first session of the Sector Coordinating Council did not take place for
                            another ten months, in June 2004. These modest readjustments were
                            accompanied by a hiatus in activity lasting nearly a year.

                            In contrast to DHS’ concern that the ISAC’s affiliation with one food
                            industry association may trigger conflicts or disadvantage others, industry
                            representatives we spoke with evinced no apprehension on this front.
                            Rather, some expressed puzzlement over DHS’ decision to “orphan” the
                            Food ISAC. Experts outside of the Food Marketing Institute, including
                            other original members of the Sector Coordinating Council, shared this
                            sentiment.

                            DHS’ diminished engagement with the Food ISAC contributed to its
                            decline. An expression of the moribund nature of the Food ISAC is its
                            absence from the ISAC Council, a group of ISACs designed to improve
                            information sharing linkages across sectors. Sustained by the continued
                            involvement of 12 ISACs, the Council seeks to improve national
                            infrastructure protection “by establishing and maintaining a framework for
                            valuable interaction between and among the ISACs and with
                            government.”53 The food sector could be missing valuable partnership
                            opportunities because it does not have a representative on the ISAC
                            Council. DHS notes, for example, that the Sector Coordinating Council
                            Chairs are working with the ISAC Council “to determine and implement
                            information sharing requirements” for each sector. The absence of the
                            Food ISAC from the ISAC Council is likely to diminish the value of this
                            effort for the food sector.

                            Instead of drawing on the food industry’s post-9/11 momentum on critical
                            infrastructure protection efforts, DHS effectively alienated the ISAC’s
                            leadership and disengaged from its operations. Meanwhile, as we discuss
                            later, the coordination and information sharing mechanisms DHS


53
     http://www.isaccouncil.org/about/

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 34 

instituted to address the ISAC’s limitations have been slow to develop and
are only partially successful.

DHS should leverage more effectively the Food ISAC’s information
dissemination capabilities in keeping with the National Infrastructure
Advisory Council’s vision for DHS engagement with ISACs. This can be
accomplished without altering the current state of sector governance.

We recommend that the Assistant Secretary for Infrastructure Protection:

Recommendation #2: Restore communication with the Food ISAC by
re-establishing a DHS point of contact and creating food-industry-specific
products for ISAC distribution.


A New Framework for Coordination

Notable limitations in partnership efforts surfaced after the waning of the
ISAC. The current and former Government Coordinating Council and
Sector Coordinating Council members we interviewed almost uniformly
agreed that these councils originally did not have a coherent focus and a
true sense of partnership. Notwithstanding their concerns about the start
up of these bodies, most government and industry representatives we
spoke with were optimistic about the future of the Government
Coordinating Council and Sector Coordinating Council. And no one we
interviewed said that the councils should be abandoned. DHS’ official
view of the status and operations of the Government Coordinating Council
and Sector Coordinating Council is favorable. A December 2005, Office
of Infrastructure Protection report card for the food and agriculture sector
gives it top ratings for all seven governance metrics.

Participants in the two councils said that they saw the councils as “still
evolving” and “in flux.” Whether in private or public capacities, council
members noted the need to show the employers they represent a “tangible
benefit” of their Government Coordinating Council or Sector Coordinating
Council participation. Yet early meetings reportedly were poorly
organized and inefficient. For several months, basic organizational issues
consumed the work of the two councils; meetings had little substantive
content and stimulated minimal discussion.

Past and present council members attributed this sluggish start to DHS.
They reported that DHS had taken a “top-driven” approach to its critical
infrastructure protection leadership role, and that this detracted from the
vitality of the councils and sapped the cooperative spirit from the process.

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 35 

This approach reportedly created a difficult environment for the growth of
collaborative efforts and did little to foster productive working
relationships with industry leaders and government experts. Several
council participants we interviewed said that DHS needed further growth
as a business partner.

Early Sector Coordinating Council and Government Coordinating Council
meetings did not foster efforts to formulate policy, and when DHS
solicited the ideas and recommendations of council members on policy
matters, the solicitation process was sometimes regarded as flawed. One
limiting factor for policy development during meetings was a shortage of
time to comment on draft documents. Some Sector Coordinating Council
members reported that their association members generally did not
comment on DHS drafts because they were provided insufficient time to
do so. This made it hard for food associations to communicate their
members’ concerns. DHS may have thus lost out on important insights
from major components of the nation’s food sector.

Participation in the development of key policy documents can serve as an
important means of exchange with external partners. DHS engaged the
Sector Coordinating Council and Government Coordinating Council to
comment on the NIPP, the document that articulates national policy for
protecting all critical infrastructures. The NIPP passed through many
iterations. A NIPP Draft Base Plan was released on September 15, 2004,
followed by an Interim NIPP, which was completed in February 2005. A
Draft NIPP followed in November 2005. The final NIPP was published
in June 2006.

DHS coordination efforts surrounding the NIPP did not proceed smoothly.
A common frustration among sector participants we interviewed was that
they never learned how or whether their comments were applied to
subsequent drafts of the NIPP. This led more than one council member to
question the value of time spent reviewing DHS policy documents. Other
representatives complained that they were provided insufficient time to
comment. Some felt that they received little in return for their extensive
engagement.

USDA and FDA staff also reported that DHS had not set out a reasonable
timeline for developing Sector-Specific Plans. Sector-Specific Plans,
which are authored by the Sector-Specific Agencies, discuss how each
sector will address infrastructure protection. While DHS reportedly
developed the Sector-Specific Plan template over the course of a year, it
allowed the Sector-Specific Agencies just two months to complete their
draft Sector-Specific Plans. This was an especially challenging task

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 36 

because the Sector Specific Agencies were asked to consult with their
stakeholders as part of the Sector-Specific Plan formulation process. As a
result, staff from the Sector-Specific Agencies indicated that Draft Sector-
Specific Plans were assembled hurriedly and were not as valuable as they
could have been.

Council participants also signaled that, in contrast to DHS’ intensive
demands upon council members, DHS had demonstrated only limited
commitment of its own to the effort. In particular, USDA and FDA
expressed concerns about the organizational standing of DHS staff that
attend Government Coordinating Council meetings. While a Deputy
Under Secretary regularly represents USDA at the Government
Coordinating Council, junior staff or contractors have often represented
DHS. Staff from one Sector-Specific Agency argued that, as a result, the
councils frequently did not have access to anyone in DHS with policy
setting authority.

Frustration with the slow pace of council progress and disenchantment
with DHS’ management style and level of engagement may have led to
declining participation in the Government Coordinating Council. Our
analysis of Government Coordinating Council meeting minutes shows a
difficulty achieving what the Council’s charter calls a “decision-making
quorum.” This quorum is reached when there is at least one representative
each from DHS, FDA, USDA, the Association of State and Territorial
Health Officials, National Association of State Departments of
Agriculture, and National Association of County and City Health
Officials. We examined minutes for the 27 Government Coordinating
Council meetings that took place between mid-2004 and early 2006. Only
14 of these meetings met the “decision-making quorum” requirement. In
the first 15 meetings, only 4 meetings lacked the quorum. By contrast, a
quorum was not achieved for 9 of the 12 most recent meetings. This
decline in attendance over the more recent meetings may be a product of
the frustrations members reported.

One common disappointment Government Coordinating Council and
Sector Coordinating Council members shared with us was the unfulfilled
expectation that the councils would offer a window into DHS as a whole.
Although council members reported that DHS participants in the
Government Coordinating Council meetings were generally competent
and accessible, many anticipated direct access to more of the department
than was provided. While Office of Infrastructure Protection
representatives served as the principal DHS points of contact to the
councils, members desired more interaction with such DHS components as
S&T, Grants and Training, and, because of food import concerns, CBP.

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 37 

Even after several requests for an audience, some DHS components
reportedly did not attend Government Coordinating Council and Sector
Coordinating Council sessions. This led some council members to
develop unfavorable views of DHS, including one who described the
department as “so big and so dysfunctional.”

As council members’ frustration mounted, Hurricane Katrina brought
further dissatisfaction over DHS interaction with the food sector.
Although sector experts agreed that the resiliency of food production did
not lead to major supply problems, council members maintained that they
were not used appropriately to support relief efforts. One Sector
Coordinating Council member wondered why members spent so much
time on the councils if the councils are essentially ignored during a major
event. Perhaps more importantly, we were informed that during the crisis
following Hurricane Katrina, the Federal Emergency Management Agency
was asked to attend a joint session of the councils, but did not do so. The
councils were an untapped resource that could have been more involved in
getting food and bottled water to affected citizens. We were told that, due
to DHS’ perceived unresponsiveness, companies used their own
connections to provide food assistance to hurricane victims.

Another area in which DHS can improve its work with the councils is by
helping to establish a direct link to the National Infrastructure Advisory
Council. Originally, the National Infrastructure Advisory Council did not
have a member from the food sector, but a former Chief Executive Officer
of a major food company has since been appointed. FDA staff expressed
concerns that this individual does not have a formal relationship with the
Government Coordinating Council and Sector Coordinating Council. An
original member of the Sector Coordinating Council confirmed that the
food industry does not have a “formal link” to the National Infrastructure
Advisory Council. Without an appropriate linkage to the Government
Coordinating Council and Sector Coordinating Council, the National
Infrastructure Advisory Council may arrive at judgments incompatible
with Government Coordinating Council and Sector Coordinating Council
positions.

Leveraging the expertise and capabilities of the food sector may be easier
due to recent improvements council participants reported in the operation
of these bodies. As a result of DHS’ growing experience with food
infrastructure, some interviewees said DHS has developed a better
understanding of private sector needs. Also, council participants believe
that DHS’ leadership is seeking to be more responsive to the councils than
in the past. They praised the Assistant Secretary for Infrastructure
Protection for his commitment to improved coordination between DHS

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 38 

                            and the private sector. Through enhanced coordination, ultimately DHS
                            was able to secure the support of the Secretaries of Agriculture and Health
                            and Human Services for the frameworks and processes outlined in the
                            NIPP.54 Overall, Government Coordinating Council and Sector
                            Coordinating Council representatives were optimistic that DHS would
                            continue to develop its relationship with the coordinating councils. DHS’
                            ability to foster and maintain a positive relationship with the coordinating
                            councils will do much to determine the department’s overall effectiveness
                            in providing leadership, coordination, and support of food defense efforts.

                            We recommend that the Assistant Secretary for Infrastructure Protection:

                            Recommendation #3: Seek out improvement in DHS’ relationship with
                            food sector partners through:
                               • 	 Better attention to the demands and information flow related to
                                   coordinating council comments on DHS initiatives;
                               • 	 Higher level DHS official attendance at council meetings; and
                               • 	 Increased responsiveness to council requests for information,
                                   briefings, and presentations by other DHS components.


                            DHS Support for Food Sector Information Sharing

                            DHS support of food sector information sharing currently hinges on: the
                            National Infrastructure Coordinating Center; the Homeland Security
                            Information Network Food and Agriculture portal; Homeland
                            Infrastructure Threat and Risk Analysis Center; and the Protected Critical
                            Infrastructure Information program. Each of these programs and
                            initiatives had shortcomings with respect to food sector information
                            sharing at the time of our fieldwork. The persistence of shortcomings in
                            these areas is disturbing when considered alongside the decline of the
                            Food ISAC.

                            The public and private sector representatives we interviewed generally did
                            not have a good sense of the work DHS performs in these four areas. As
                            an illustration of the limited extent to which food sector experts were
                            familiar with DHS’ information sharing efforts, few could differentiate
                            between the National Infrastructure Coordinating Center and the
                            Homeland Infrastructure Threat and Risk Analysis Center.

                                The National Infrastructure Coordinating Center


54
     DHS, NIPP, June 30, 2006, p. 3.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 39 

Industry and government representatives we met with rarely had any
knowledge of the National Infrastructure Coordinating Center or its
operations. Two federal food sector intelligence experts outside of DHS
said that they were not aware that the National Infrastructure Coordinating
Center existed. “If we’ve never heard of it,” one noted, “what does that
tell you about the[ir] marketing plan?” In fact, a National Infrastructure
Coordinating Center manager acknowledged that the Center had not
pursued any food- or agriculture-specific outreach.

Given the limited familiarity food industry and government partners had
with the National Infrastructure Coordinating Center, it should not be
surprising that the Center received little or no information on post-harvest
food-related threats, incidents, or crises. A 24/7 watch operation center
overseen by the Office of Infrastructure Protection, the National
Infrastructure Coordinating Center is to serve as a point of “two-way
communication” between the private sector and DHS for reporting threats,
events, or crises that might affect critical infrastructure. The Center
forwards select information it receives from the public and private
industry to other units in DHS using several different types of reports.
From August 2005 through late March 2006, the National Infrastructure
Coordinating Center produced 855 written reports, of which 93 (about
11%) referenced food or agriculture. According to the Office of
Infrastructure Protection, however, the National Infrastructure
Coordinating Center “did not produce any reports that relate to post
harvest food matters” during that period – which included Hurricane
Katrina response and recovery efforts.

The absence of any informational products related to post-harvest food
during that period might also result from the National Infrastructure
Coordinating Center’s location and composition. This make-up might
lead the Center to focus more effort on outreach and product development
in infrastructure sectors in which staff have especially good access or
expertise. For example, the National Infrastructure Coordinating Center
can directly access transportation sector information and expertise through
its co-location with DHS’ Transportation Security Operations Center and
the presence of the Highway ISAC in the same facility. When we visited
the Center in February 2006, a few National Infrastructure Coordinating
Center staff had sector-specific experience, although none had experience
in food or agriculture. It is reasonable to expect that the sector-specific
experience center staff had, in turn, formed the basis for more effective
infrastructure information monitoring and reporting in those sectors.

The National Infrastructure Coordinating Center is designed to facilitate
information sharing “among Sector Coordinating Councils, Government

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 40 

                         Coordinating Councils, ISACs, and other security partners.”55 In order to
                         fulfill its mission in this area, the Center must build more substantial
                         relationships with food sector entities.

                         We recommend that the Assistant Secretary for Infrastructure Protection:

                         Recommendation #4: Expand National Infrastructure Coordinating
                         Center outreach efforts to include outreach targeted to the food sector, and
                         actively seek to increase information flow related to the food sector.


                             Homeland Security Information Network’s
                             Food and Agriculture Portal

                         The effectiveness of other DHS information sharing initiatives also has
                         been limited with respect to the food sector. The Homeland Security
                         Information Network is comprised of a number subsystems structured
                         around different user communities. It includes subsystems supporting law
                         enforcement, international interests, and emergency management, among
                         others.56 Among these subsystems is the “Critical Sectors” subsystem,
                         which supports the Food and Agriculture portal. The Homeland Security
                         Information Network Food and Agriculture portal is a web-based tool for
                         sharing threat and analytical information with sector representatives. DHS
                         engaged food sector representatives in the design and online layout of the
                         portal starting in October 2004. More than a year-and-a-half later, these
                         discussions were still ongoing.

                         The general view of food sector experts we spoke with was that the
                         network’s Food and Agriculture portal has potential value, but limited
                         utility for the sector’s information sharing purposes in its current form.
                         Concerns expressed centered on the following areas:

                             • 	 The absence of staff support for the portal by food experts
                                 undermines its ability to offer germane, timely information.
                             • 	 The portal has few members and an even smaller group of regular
                                 users, limiting the reach of information on the site. In December
                                 2005, the Office of Infrastructure Protection reported that only 166
                                 individuals had access to the Homeland Security Information
                                 Network’s Food and Agriculture portal.

55
  DHS, NIPP, June 30, 2006, p. 64. 

56
  For more information on the Homeland Security Information Network please consult our recent report on the 

subject. (DHS OIG, Homeland Security Information Network Could Support Information Sharing More Effectively, 

OIG-06-38, June 2006.)


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 41 

   • 	 The portal is a passive system and does not notify members about
       new content.
   • 	 Content is generally not very relevant, current, or useful from the
       vantage point of food sector representatives.
   • 	 The portal may not be well-suited to duplicate the threat reporting
       function envisioned for the ISAC.

While food sector representatives were aggrieved by the portal’s early
stage of development, we are concerned that the network’s Food and
Agriculture portal may essentially duplicate an FBI effort. A limited
access web community with information on threats, vulnerabilities, and
protective efforts related to the food and agriculture sectors, the FBI’s
AgInfraGard became operational in March 2006. As described by the FBI
and food sector representatives with access to the web community, much
of AgInfraGard’s content is similar to that of the Homeland Security
Information Network’s portal. The FBI believes its system is developing
more quickly than the Homeland Security Information Network’s and has
greater capability for information exchange. Meanwhile, according to one
FBI analyst, the DHS system “takes information but it doesn’t give a lot.”

Notwithstanding these areas of concern, there are some positive signs
regarding Food and Agriculture portal development. Perhaps the most
significant is the expressed interest of the Office of Infrastructure
Protection in detailing a state government and private sector representative
to help develop portal content. Identifying funding for this effort and
ensuring that detailees have adequate expertise will be keys to success on
this point. Without such an investment, a Sector Coordinating Council
representative candidly warned, “Homeland Security Information Network
is going to die.” If the Office of Infrastructure Protection is able to
advance plans in this area, it might be able to fulfill the potential of the
system, and cultivate a vital information sharing network.

We recommend that the Assistant Secretary for Infrastructure Protection:

Recommendation #5: Evaluate the feasibility of providing financial
support for and otherwise facilitate the detailing of state or local
government and private sector representatives to support Office of
Infrastructure Protection food sector efforts with an emphasis on the
Homeland Security Information Network’s Food and Agriculture Portal.


   Homeland Infrastructure Threat and Risk Analysis Center



  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 42 

Another major DHS information sharing initiative, the Homeland
Infrastructure Threat and Risk Analysis Center, is also in an early stage of
development. The center, which began operating in January 2005,
conducts threat, vulnerability, and consequence analysis related to the
nation’s infrastructure. As of June 2006, the center had prepared 38
written products. Of these, four related to post-harvest food. Two of the
four address the same material; one in classified form, the other in
unclassified form.

The Homeland Infrastructure Threat and Risk Analysis Center regards
private sector infrastructure owners as a primary customer base. Yet, few
food sector representatives we spoke with were familiar with the center or
any of its products. Private sector representatives who had received
specialized briefings by the center’s staff, and others who reviewed the
center’s products, however, reflected positively on the program and its
work. A member of the Sector Coordinating Council praised one May
2006, briefing the center proactively organized, and reported that the
Homeland Infrastructure Threat and Risk Analysis Center has been
receptive to industry input on its products.

Conversely, FDA and National Counterterrorism Center staff were critical
of food-related intelligence products developed by the Homeland
Infrastructure Threat and Risk Analysis Center. They said that these
products had not drawn on subject matter expertise as much as conjecture,
and said that some included irresponsible speculation. They said that they
often considered the center’s products to be at odds with the experts in
other government organizations, and asserted that the center’s products
had not been vetted to the extent necessary.

The Homeland Infrastructure Threat and Risk Analysis Center was,
however, able to supply some evidence that its food and agriculture sector
products were vetted by government and private sector experts, and
stressed the importance of independent assessments of intelligence
information. The center also supplied evidence that its products had been
received well by a Department of Justice official and state homeland
security representatives from North Dakota and New York.

Since its formation, Homeland Infrastructure Threat and Risk Analysis
Center staff have participated in exercises and food sector intelligence
meetings with other federal food sector experts. Unfortunately,
difficulties in the relationship between staff in other departments and one
Homeland Infrastructure Threat and Risk Analysis Center representative
strained the center’s exchanges with FDA and the National
Counterterrorism Center. An official from the Homeland Infrastructure

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 43 

Threat and Risk Analysis Center reported that this individual has been
reassigned, and USDA, FDA, and National Counterterrorism Center staff
remained committed to working with DHS. Recent indications are that the
Homeland Infrastructure Threat and Risk Analysis Center’s relationship
with outside food intelligence experts has improved in recent months.

The FDA staff we spoke with recommended that the Homeland
Infrastructure Threat and Risk Analysis Center develop more internal
expertise on particular infrastructure sectors by adding staff. When we
spoke with center representatives, they, too, acknowledged a need in this
area and indicated that the center was working to increase its staff. In the
meantime, it is imperative that DHS exploit USDA and FDA expertise to a
greater extent in interpreting food sector threat and vulnerability
information. Additional contact with USDA and FDA could also help the
center develop products that support the informational needs of industry
better.

   Protected Critical Infrastructure Information Program

The Homeland Security Act armed DHS with a new tool for gathering
private sector information on the nation’s critical infrastructure – the
ability to designate information as Protected Critical Infrastructure
Information. Approved infrastructure information submitted to the
government under DHS’ Protected Critical Infrastructure Information
program is protected from disclosure under the Freedom of Information
Act and should not be subject to production under a subpoena in civil
litigation. Infrastructure information related to any infrastructure sector
can be submitted through the program.

The food sector has been the most engaged infrastructure sector in
Protected Critical Infrastructure Information activities. Protected Critical
Infrastructure Information program staff described FDA’s Center for Food
Safety and Nutrition as the program’s “biggest customer.” Indeed, the
agency was one of the first government units outside of DHS to become
Protected Critical Infrastructure Information accredited, and Protected
Critical Infrastructure Information program staff reported that other HHS
agencies and USDA were next on their list of federal entities targeted for
accreditation. Perhaps more notably, most of the Protected Critical
Infrastructure Information program’s information submissions came from
the food industry as of February 2006. In fact, at the time, 257 of 330
total submissions, or about 78%, were food sector submissions.

Despite these successes, FDA representatives we met with had
unenthusiastic impressions of the Protected Critical Infrastructure

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 44 

                          Information program. While they planned to use the program to protect
                          needed private sector infrastructure information in the future, they decried
                          early difficulties in meeting the Protected Critical Infrastructure
                          Information program’s extensive training and security requirements to
                          become accredited. FDA staff said that the “intense” accreditation process
                          took four months. One FDA representative remarked that if he had known
                          how difficult it would be to achieve accreditation, he would have opted to
                          use another means to gather the food infrastructure information FDA
                          needed.

                          Government Coordinating Council and Sector Coordinating Council
                          members who discussed the Protected Critical Infrastructure Information
                          program with us reported that the program’s staff has been very helpful in
                          working with the private sector. Yet Government Coordinating Council
                          participants in one federal department advised that they were concerned
                          that Protected Critical Infrastructure Information program staff’s limited
                          familiarity with the particulars of the food industry might lead them to
                          make improper judgments in granting Protected Critical Infrastructure
                          Information protections for related information.

                          Even with publication of the Protected Critical Infrastructure Information
                          Final Rule on September 1, 2006, industry skepticism about the program
                          may persist. One food security expert at a large firm said the law and
                          regulation had established a “cumbersome operational mechanism” that
                          weighed against participation. Other industry representatives we spoke
                          with were not convinced that the program would be very useful for food
                          companies. Meanwhile, a government representative expressed the view
                          that the industry was likely to regard the program warily until its
                          information protections had been challenged in a legal setting and upheld
                          in court. A recent GAO report, Information Sharing: DHS Should Take
                          Steps to Encourage More Widespread Use of Its Program to Protect and
                          Share Critical Infrastructure Information, made similar observations.57

                          Protected Critical Infrastructure Information program staff said that the
                          key to increasing Protected Critical Infrastructure Information utilization
                          lies with potential end-users in government. Ultimately, government
                          agencies’ need for information is the primary impetus driving Protected
                          Critical Infrastructure Information submissions. Government end-users of
                          Protected Critical Infrastructure Information are also well-positioned to
                          lead private sector outreach efforts, as they can more effectively establish
                          the government’s need for private sector critical infrastructure information
                          on a case-by-case basis. Both USDA and FDA staff expressed the same

57
     GAO-06-383, May 2006, pp. 19-23.

                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 45 

                            perspective and recognized that they are the key to more food industry
                            participation.


                  Charting and Protecting the Food Sector

                            Asset Identification and System Mapping

                            DHS is responsible for collecting information on critical infrastructure
                            assets and systems. The National Asset Database is currently the
                            department’s primary repository for maintaining information on critical
                            infrastructure assets. It is not clear, however, how the National Asset
                            Database in its present form satisfies DHS’ responsibilities regarding the
                            food sector. The volume of recorded assets in the National Asset
                            Database varies substantially by state, and the National Asset Database
                            does not include all government information on food industry assets.
                            Finally, the database draws together information on infrastructure assets,
                            but not the systems that are vital to understanding the food sector.

                            As of January 2006, the National Asset Database had information on
                            77,069 infrastructure assets around the nation.58 Of those, 6,486 assets, or
                            eight percent, were listed as relating to the post-harvest food sector.59 The
                            National Asset Database contains other assets that support the food sector,
                            but are not reflected in this figure because they are listed under other
                            infrastructure sectors and segments. A number of port facilities that are
                            involved in shipping of food, for example, are listed as transportation
                            assets and, as a result, are not included in the 6,486 asset figure.

                            Like National Asset Database assets at large, food sector assets in the
                            database reflect variation in the intensity of state responses to 2003 and
                            2004 data calls. Indiana and Wisconsin, for example, account for more
                            than 53% of the total number of food sector assets in the database.
                            Accordingly, Wisconsin’s 2,032 food sector assets in the database are
                            about 20 times the number listed for Florida (102), and more than 145
                            times more than the number listed for California (14). Meanwhile, the
                            District of Colombia, Nevada, New Hampshire, Puerto Rico, Rhode
                            Island, Vermont, and Wyoming have no food sector assets in the National
                            Asset Database.




58
  DHS OIG, Progress in Developing the National Asset Database, June 2006, p. 1. 

59
  For the purposes of this analysis, food and agriculture sector assets without agricultural attributes, and restaurants 

and food vendors were considered post-harvest food assets. 


                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 46 

                          The limitations of food sector entries in the National Asset Database are
                          also evident upon examination of the assets listed for the 20 most
                          populous U.S. counties. Despite the broad geographic distribution of food
                          industry assets and the prevalence of major food processing, transit, retail,
                          and service facilities in all major U.S. cities, all but 2 of these 20 counties
                          had fewer than ten food assets listed in the National Asset Database. In
                          fact, the National Asset Database listed no food assets for five of these
                          counties: Clark County (Las Vegas), Nevada; Los Angeles County (Los
                          Angeles), California; Miami-Dade County (Miami), Florida; New York
                          County (Manhattan), New York; and Santa Clara County (San Jose),
                          California. Six other top counties had only one food asset listed in the
                          National Asset Database.60

                          One reason data limitations such as these persist is that the Office of
                          Infrastructure Protection has been unable to exploit existing federal
                          information about food industry assets. Office of Infrastructure Protection
                          staff reported that, in one case, this was the result of the FDA’s
                          unwillingness to share information. Office of Infrastructure Protection
                          staff advised us that they had sought the registered food facility list that
                          FDA is required by law to maintain, but said that FDA had resisted
                          sharing this information.61 Nevertheless, other available federal food
                          industry information is not included in the National Asset Database. The
                          Food Safety and Inspections Service, for example, maintains a list of food
                          processing facilities it inspects. We compared a sample of 100 facilities
                          from this list to the National Asset Database and found that none were
                          recorded in the database.

                          The Office of Infrastructure Protection has an opportunity to resolve some
                          of these basic issues in the near term, as it intends to convene expert
                          panels to review and refine National Asset Database asset information for
                          each sector. Although a panel has not yet been assembled for the food and
                          agriculture sector, a panel of sector experts was scheduled to have
                          reviewed all the sector’s assets by October 2006.

                          While an expert panel may be able to resolve some issues with the
                          National Asset Database data, other more foundational issues also require
                          attention. The USA PATRIOT Act defines critical infrastructure to include
                          systems and assets,62 yet the National Asset Database emphasizes assets.
                          To date, the most advanced step by DHS to define parts of the food system

60
   Broward County, Florida; Maricopa County, Arizona; Orange County, California; Riverside County, California; 

San Bernardino County, California; and San Diego County, California. 

61
   FDA maintains a listing of registered food facilities in the United States pursuant to Section 305(a) of the 

Bioterrorism Act, P.L. 107-188, codified at 21 U.S.C. § 415a. 

62
   USA PATRIOT Act, P.L. 107-56 § 1016(e), codified as 42 U.S.C. § 5195c(e). 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 47 

                          has been the development of a sector taxonomy to support the
                          classification of National Asset Database assets. This taxonomy was
                          designed to categorize infrastructure elements and facilitate
                          communication about them by forging common terms of reference.63

                          The Office of Infrastructure Protection staff we spoke with touted this
                          taxonomy development effort as a noteworthy success and indicated that
                          its development had been a point of coordination with USDA and FDA.
                          Industry and federal partners we spoke with, however, did not regard
                          consultation on the development of the sector taxonomy to be a major
                          point of success in defining food industry systems. Instead, they held that
                          DHS had focused too intently on assets, and devoted too little thought and
                          energy to understanding the food sector as a system. Additionally, they
                          considered DHS’ perceived asset-orientation to place the food sector at an
                          unfair disadvantage in relation to other sectors.

                          The view that DHS had taken an asset-driven approach to infrastructure
                          protection was advanced by the Draft NIPP’s emphasis on assets and the
                          National Asset Database in its proposals for prioritizing critical
                          infrastructure protection. The Draft NIPP stressed that “identifying and
                          prioritizing nationally critical assets” were at the core of DHS’
                          infrastructure protection budgeting process.64 It also indicated that the
                          National Asset Database was to “support the implementation of NIPP risk
                          management framework activities,” while serving as “the foundation for
                          the NIPP risk assessment process.”65

                          Food sector representatives said that DHS’ asset-orientation would result
                          in an understatement of food sector risk for three reasons. First, they
                          perceived that the DHS’ focus on assets led the department to emphasize
                          the effects of asset destruction over asset exploitation. As discussed
                          earlier, the greatest concern to many in the food sector relates to the
                          exploitation of the sector to distribute intentionally adulterated foods.
                          Thus, an emphasis on the effect of asset destruction would miss the most
                          consequential possible effects of an attack on the food sector.
                          Furthermore, the consequences of losing a single food industry asset are
                          considered relatively small because the food industry has few monolithic
                          components and because it has many infrastructural redundancies. This
                          redundancy contributes to the likely resiliency of the food sector such that,
                          if, for example, a single food processing plant were destroyed, agricultural
                          products could be shipped to other food processing plants.

63
   DHS, Infrastructure Taxonomy (Draft), May 20, 2005, p. 1. 

64
   DHS, Draft NIPP, November 2, 2005, p. 92.

65
   Ibid., p. 82.


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 48 

Second, food sector representatives pointed out that important links in the
food supply chain are not easily captured in an asset-based model. The
food industry is, for example, heavily dependent on transportation, yet
mobile transportation links cannot be mapped in an asset database the
same way as fixed physical assets. Unlike buildings, refrigerated trucks
do not have set geographic coordinates. Moreover, the transit routes they
frequent are subject to change. Because of these traits, food industry
transportation assets of this kind are not reflected in the National Asset
Database.

Finally, food sector representatives expressed concern that DHS’ asset-
orientation would lead it away from an understanding of the second- and
third-order effects of a food contamination incident. In focusing on a
particular food industry asset, they believed DHS would lose perspective
on upstream and downstream consequences of an incident affecting that
asset. For example, contamination at a processing facility might not just
affect that facility. Upstream producers of the contaminated commodity
might suffer if consumer demand for the resulting products declines. In
addition, downstream distributors, retailers, and food service
establishments serving the contaminated product might also experience a
downturn in their business as a result of such an incident. In addition,
other parts of the economy, like the public health system, might be
stressed as a result of a contamination incident. Accordingly, to grasp the
second- and third-order effects of an adverse food event at a single
facility, DHS must first understand that facility’s place within the food
supply chain and larger economic system.

Food and agriculture sector representatives said that their frustration with
DHS’ apparent asset-orientation peaked in 2005. During the summer of
that year, DHS asked the sector to prepare a list of the “Top 100 Assets” in
food and agriculture. With only a short time to assemble a list, the sector
responded with an apparently unprioritized, alphabetical list of 47 food
commodities and systems. Public and private sector representatives
complained that DHS had set up a “box-checking exercise” that simply
did not work from a food supply standpoint. They argued that the creation
of a top 100 list of physical assets in the sector was not possible at the
time, and that DHS’ imperative that one be developed showed that the
department did not understand the sector.

The same redundancies that contribute to the resiliency of the sector in the
event that one infrastructure unit is destroyed, also make it extremely
difficult to define a limited set of highly critical assets. The food sector is
replete with accessible “critical nodes” at which food products could be

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 49 

                         contaminated intentionally. The consequence of contaminating food
                         products at many different “critical nodes” in the supply chain of several
                         different food products may be similar. And, in many cases, particular
                         “critical nodes” exist in the thousands, even for a single food product.

                         This calculus combined with the sheer size of the food sector have led
                         USDA and FDA to focus their vulnerability and consequence assessments
                         on particular industry subsystems and food products, rather than on
                         particular assets. Despite this, DHS maintained an interest in the
                         identification of priority assets. The Draft NIPP set out a requirement for
                         Sector Specific Agencies to submit priority assets to DHS by May 1,
                         2006.66 According to USDA representatives, however, the Sector Specific
                         Agencies did not accommodate this request.

                         In response to food and agriculture sector concerns that DHS’ approach to
                         critical infrastructure protection had not properly addressed the underlying
                         systems, the federally funded research center known as the Homeland
                         Security Institute is studying ways to integrate a systems-based approach
                         into infrastructure protection in a way that is applicable to all sectors.67 As
                         part of its related research effort, the Homeland Security Institute is tasked
                         with defining criticality criteria that can be used to frame sector risk
                         analysis and risk management activities. Food sector representatives
                         expressed optimism that this analysis would yield major dividends in their
                         dealings with DHS.

                         A more effective dialogue between DHS and its partners is needed to
                         address concerns about asset exploitation, assets that do not have fixed
                         coordinates, and system-wide impacts that the malevolent exploitation of
                         food sector assets might have. Recent revisions to the NIPP may help
                         foster this dialogue. Whereas the November 2005 edition of the NIPP
                         stressed the need to identify assets in its approach to risk management, the
                         final NIPP expands the risk management framework to include the
                         identification of systems, networks, and functions.68 Indeed, according to
                         the department, “DHS has evolved to the realization that an asset-based
                         focus is not representative of all sectors.”

                         Targeting and Prior Notice Support

                         Other DHS efforts to work with the Sector Specific Agencies to protect
                         the food sector offer a better example of external coordination. The

66
   DHS, Draft NIPP, November 2, 2005, p. 88.

67
   See Section 312 of the Homeland Security Act, 6 U.S.C. § 192. 

68
   DHS, NIPP, June 30, 2006, p. 4, and DHS, Draft NIPP, November 2, 2005, p. 26. 


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 50 

                        ongoing operations of CBP’s National Targeting Center and the FDA’s
                        Prior Notice Center are designed to augment the nation’s oversight of
                        imported goods, including food products. The Bioterrorism Act invested
                        FDA with several new authorities to protect the food supply. Section 307
                        of the Act requires all food importers to notify the FDA if any of the
                        agency’s regulated products are scheduled for import into the United
                        States. This prior notice requirement is designed to allow the government
                        to target high-risk food imports for additional scrutiny.69

                        Collaboration between CBP and FDA on import protection began shortly
                        after the passage of the Bioterrorism Act. Initial coordination between the
                        two agencies concentrated on the development of prior notice rules, but
                        quickly expanded to include technical exchanges on how to operationalize
                        these rules. To ease importers’ reporting burden, CBP designed and built
                        a food prior notice interface with the Automated Commercial System, the
                        import tracking and control system used by CBP. The National Targeting
                        Center also worked with FDA staff to create targeting criteria for high-risk
                        foods. FDA’s Prior Notice Center, which is the entity administering the
                        prior notice requirement, is now co-located with the National Targeting
                        Center. Both CBP and FDA representatives commended the interagency
                        cooperation exhibited by the National Targeting Center and Prior Notice
                        Center. CBP and FDA staff we interviewed viewed the immediate
                        personal contact and exchange that has grown out of this co-location as
                        vital.

                        Overall, representatives of both CBP and FDA described the two
                        agencies’ working relationship favorably. It has formed the basis for other
                        noteworthy collaborations. They have, for example, worked to develop
                        joint contingency plans for their information systems. CBP has also
                        trained many of its inspectors on FDA regulations and requirements, such
                        that now about 10,000 inspectors are cross-designated.

                        CBP’s relationship with the Food Safety and Inspections Service is not as
                        well-developed, but has evolved quickly. CBP officials meet with Food
                        Safety and Inspections Service staff weekly to discuss food shipment
                        tracebacks and means of improving customs data linkages to Food Safety
                        and Inspections Service’s food re-inspection facilities outside ports of
                        entry. CBP is also working with Food Safety and Inspections Service staff
                        to develop import targeting criteria for Food Safety and Inspections
                        Service -regulated commodities. CBP planned to test these targeting
                        criteria at select ports during the Summer of 2006. Finally, the two
                        agencies are pursuing the signature of a Memorandum of Understanding

69
     21 U.S.C. § 381.

                          DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                     Page 51 

                           that would, among other things, formally grant Food Safety and
                           Inspections Service access to CBP’s targeting system.


                  Coordination of Research and Development, and Education and
                  Training Initiatives

                           Critical Infrastructure Protection Research and Development
                           Planning

                           DHS is responsible for planning critical infrastructure protection research
                           and development activities across the federal government. Homeland
                           Security Presidential Directive 7 charges DHS to prepare annual federal
                           research and development plans to enhance the protection of critical
                           infrastructures in collaboration with the White House’s Office of Science
                           and Technology Policy.70

                           To fulfill these responsibilities, DHS has developed a National Plan for
                           Research and Development In Support of Critical Infrastructure in
                           consultation with other departments. This plan serves as the research and
                           development roadmap for critical infrastructure protection. It outlines
                           priorities, goals, and objectives for research and development projects
                           across various departments and agencies. The first plan, for 2004, was
                           released in April 2005. A 2005 plan was never released, and has
                           reportedly been consolidated with the 2006 plan. As of early December
                           2006, this plan had not yet been published.

                           In the development of the 2004 plan, DHS solicited suggestions and
                           recommendations from all federal departments charged with protecting
                           critical infrastructures, including the Sector Specific Agencies for the food
                           sector. According to S&T, USDA and HHS participated in sessions on the
                           content of the 2004 plan, and provided information on the food and
                           agriculture sector. The two departments have also been active participants
                           and reviewers for the draft 2005 effort.

                           Perhaps because the 2004 plan emphasized overarching critical
                           infrastructure protection research themes, it did not highlight any work
                           with a clear, direct connection to the food sector. Rather than selecting
                           priority research and development efforts from among the needs identified
                           for the protection of particular infrastructure sectors, the 2004 plan
                           focused on nine research themes to support the protection of all critical

70
 Homeland Security Presidential Directive 7: Critical Infrastructure Identification, Prioritization, and Protection,
December 17, 2003, paragraph 30.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 52 

                          infrastructure sectors. In particular, the plan identifies the following
                          research and development themes as critical infrastructure protection
                          priorities: detection and sensor systems; prevention and protection
                          systems; entry and access portals; insider threats; analysis and decision
                          support systems; response, recovery, and reconstitution tools; new and
                          emerging threats and vulnerabilities; advanced infrastructure architectures
                          and systems design; and human and social issues.71 Although the plan
                          asserts that progress in each of these areas will benefit all infrastructure
                          sectors, in several cases related research initiatives did not appear to have
                          been developed in consideration of the food sector. For example, the
                          plan’s discussion on detection and sensor systems mainly addresses cyber
                          security and the protection of critical infrastructure facilities against
                          attacks with small arms and explosives, rather than product contamination.
                          The plan’s discussion of research area with possibly the greatest bearing
                          on the protection of the food supply – protection and prevention – also
                          focuses on assaults and intrusions targeted at physical and cyber critical
                          infrastructure.72 Moreover, while the plan repeatedly singles out other
                          infrastructure sectors, it never mentions food. By contrast, the plan
                          discusses the protection of the nation’s water supply seven times.73

                          More meaningful integration of food sector research and development
                          initiatives into the plan could be achieved though greater harmonization
                          with the research and development requirements identified in Food and
                          Agriculture Sector-Specific Plans. In their September 2004 draft Sector-
                          Specific Plans, USDA and FDA identified post-harvest food sector
                          research and development needs that do not clearly correspond with the
                          research themes highlighted in the plan. It is not evident, for example,
                          where threat agent characterization, studies of the human health impact of
                          oral doses of threat agents, and medical diagnostics and countermeasures –
                          areas FDA and USDA singled out as in need of research and development
                          support – fall within plan’s nine research themes, if at all.74

                          Closer coordination of critical infrastructure protection research and
                          development plans may develop under a rubric recently outlined in the
                          National Infrastructure Protection Plan. The NIPP requires, for example,
                          that future Sector-Specific Plans represent sector-specific research and
                          development needs within the context of the nine research and
                          development “themes” presented in the plan. In addition, the NIPP


71
   NPRD, April 2005, pp. vii-viii. 

72
   Ibid., p. 29.

73
   Ibid., pp. 20, 30, 32, 35, 36, 52, and 61. 

74
   USDA, Agriculture and Food (meat, poultry, and egg products) Draft Sector-Specific Plan, September 3, 2004,

pp. 174-75. FDA, Food Sector Draft Sector-Specific Plan, September 3, 2004, pp. 96-100. 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 53 

                            creates an annual reporting process for Sector Specific Agencies to submit
                            sector-specific research and development requirements to DHS.75


                            Coordination of Education, Training, and Research and Development
                            Efforts

                            In the past, DHS has not fully engaged its federal food sector and industry
                            partners in the initial stages of grant development or in the proposal
                            selection process for the Office of Grants and Training and S&T
                            education, training, and research and development projects. As a result,
                            federal partners said they were sometimes caught off guard when grant
                            solicitations for food defense training, and research and development
                            projects were issued. Because FDA, USDA, and other federal partners
                            support similar food-related programs, it is important for DHS to improve
                            coordination in this area.

                                S&T External Coordination

                            S&T’s success in bringing public and private sector partners together in
                            selecting and managing food-related programs has been mixed.

                            This mixed performance is evident in the case of S&T’s grant to the
                            University of Kentucky to develop a wireless electronic monitoring
                            system to secure milk. S&T did not involve USDA, FDA, or industry
                            participants in the selection of the proposal for this program. In fact,
                            because the University of Kentucky submitted the proposal in response to
                            a broad solicitation for critical infrastructure protection projects of all
                            kinds, the S&T proposal review team did not have any food-specific
                            expertise. Notwithstanding the early absence of public and private sector
                            partners from the proposal selection process for this program, University
                            of Kentucky project staff reportedly have collaborated with other
                            academic institutions and representatives of the milk industry following
                            the grant award.

                            A similar dynamic appears to have prevailed with S&T’s food defense
                            center of excellence. We were unable to reconstruct fully the solicitation,
                            selection, and award process for the National Center for Food Protection
                            and Defense because S&T did not maintain complete records on these
                            steps.



75
     DHS, NIPP, June 30, 2006, pp. 84-85, and 147.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 54 

                            USDA officials reported that they were not included in the initial planning
                            and development of program requirements or content for the NCFPD,
                            while FDA representatives indicated that they participated in these efforts.
                            USDA staff members became involved later in the grant process.

                            S&T provided documentation for the first round of the proposal review
                            and selection process, during which external reviewers, including
                            representatives from USDA and FDA, evaluated proposals. S&T also
                            provided memoranda that summarize the conclusions of the second and
                            third phases of the Center of Excellence review and selection process, and
                            state an affirmative case for the selection of the University of Minnesota-
                            based consortium. S&T could not, however, produce detailed information
                            on the deliberations involved in these two phases of the review and
                            selection process. Nor did it provide a summary appraisal of the thirteen
                            other proposals it received or the three other site visits it conducted for the
                            second and third phases of the process.

                            Despite these limitations in the documentation of the Center of Excellence
                            review and selection process, no one we spoke with held that the
                            University of Minnesota-based consortium was a poor choice for a DHS
                            Center of Excellence. Indeed, in their narrative assessments of the
                            University of Minnesota proposal, reviewers from the first round of the
                            proposal review process noted the consortium's potential for adding much
                            benefit to the food sector. One reviewer applauded the proposal for
                            including processes to ensure “research findings get translated into use,”
                            and others commended the consortium's flexibility, partnerships with
                            industry and academic institutions, and management plan.

                            Now that the Center is operational, both the Food Safety and Inspections
                            Service and FDA communicate with it regularly. To support a close
                            working relationship, the National Center for Food Protection and Defense
                            holds bi-weekly teleconferences and periodic meetings with
                            representatives from the two agencies.

                            The NCFPD continues to engage and consult federal, state, and local
                            government, as well as private-sector stakeholders, in pursuing its research
                            agenda. NCFPD programs are reviewed, for example, by a seven-person
                            External Board of Advisors consisting of academic, private industry, and
                            federal government representatives. This group is to provide strategic
                            oversight of NCFPD’s overall research program, and evaluate risks and
                            opportunities in the area of food protection and defense.76


76
     NCFPD, National Center for Food Protection and Defense 2005 Annual Report, January 25, 2006. p. 12.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 55 

The NCFPD enlists the support and counsel of key food industry
representatives by other means, as well. The NCFPD regularly
communicates with Sector Coordinating Council leadership, and has
created an Industry Working Group. The NCFPD consults the Industry
Working Group on ongoing research and has made responsive adjustments
to its research plans as appropriate. In one instance, the NCFPD used the
Industry Working Group as a “sounding board” for its supply chain
questionnaire intended for an industry audience. The Industry Working
Group reviewed the questionnaire, provided feedback to Center
researchers on the survey's strengths and weaknesses, and helped
researchers develop more probing questions to identify security gaps
previously omitted from the survey.

Industry Working Group members regard the working group as one of the
Center’s strengths, and said that it links research proposals to real-world
food defense challenges and consequences. One Industry Working Group
member commended the Center for creating a neutral forum for private
sector competitors and government regulators to collaborate on food
defense issues. Generally, Industry Working Group members expressed
their satisfaction with the NCFPD and said that their association with the
NCFPD had resulted in valuable industry contacts, a sounding board for
food defense requirements, and a partner for spreading awareness in the
food sector on terrorism and intentional contamination. Further, they
noted that the Center’s research projects will assist them in better securing
industry processes and supply chains as well as fostering a collaborative
environment with their competitors in the defense of the nation’s food
supply.

Industry consultation has also been a hallmark of another S&T program,
the Food Biological Agent Detection Sensor. In developing program
requirements, S&T staff responsible for the Food Biological Agent
Detection Sensor program collaborated with federal partners and industry
representatives. Program staff worked directly with FDA in the
development of the Food Biological Agent Detection Sensor program.
They collaborated in the development of detection thresholds, definition of
agent and matrix characteristics, cycle times, and other detection platform
requirements. In addition, S&T staff consulted with food industry
officials and visited several facilities to ensure that the program
requirements they established were compatible with food industry needs in
areas like cost and performance.

Despite these two favorable engagements with S&T, an FDA
representative communicated his concern that S&T may be funding
duplicative programs in other areas. In 2004, FDA requested an all-

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 56 

inclusive list of S&T food and agricultural-related research projects in
order to coordinate and prevent duplicative research, but S&T never
provided such a listing. FDA staff maintain that their request is crucial in
preventing the emergence of duplicative research and development
projects. In particular, FDA staff were concerned that the National
BioDefense Analysis and Countermeasures Center was proceeding with
research in this vein. Indeed, the Countermeasures Center has apparently
not consulted with FDA in structuring its food-related research initiatives.
To its credit, though, it is working closely with the Food Safety and
Inspections Service, and is currently funding two Food Safety and
Inspections Service vulnerability assessments.

In the context of greater overall sharing of information on research
initiatives among USDA, FDA, and DHS, we recommend that the Under
Secretary for Science and Technology:

Recommendation #6: Develop and maintain, in collaboration with the
Offices of Grants and Training and Infrastructure Protection, a
comprehensive report on DHS food sector research and education
initiatives to be shared with FDA and USDA on a regular basis.


   Office of Grants and Training External Coordination

Until late 2004, Office of Grants and Training did not seek Food Safety
and Inspections Service, FDA, or food industry participation in the
development or selection of Grants and Training education and training
programs. These groups were not involved in the development of program
requirements or in the Grants and Training grant solicitation or selection
process.

Government Coordinating Council members conveyed their concerns that
Grants and Training did not solicit input for the development of grant
requirements, solicitation, and the grant selection process for the
UC Davis Agroterrorism Preparedness Training Curriculum. While an
educational technology expert from USDA’s Animal and Plant Health
Inspection Service participated in the selection of the UC Davis effort,
neither Food Safety and Inspections Service nor FDA did. Perhaps as a
result, Government Coordinating Council members said that they were
caught off guard when the grant was awarded. Indeed, USDA had
awarded funds to another university for similar work just days earlier.
Seven days prior to the DHS announcement of its $4.7 million award to
UC Davis to provide training and education on the protection of the food
supply, USDA announced a $750,000 award to St. Joseph’s University to

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 57 

develop online courses aimed at protecting the nation's food supply from
contamination.

Following the UC Davis selection and resulting complaints from the
Government Coordinating Council, Grants and Training sought to
integrate other sector partners. Although Grants and Training successfully
reached out to USDA and received participation from the Animal and
Plant Health Inspection Service, it did not immediately involve the Food
Safety and Inspections Service. Nor did it reach out to the FDA for some
time. Without Food Safety and Inspections Service and FDA engagement,
Grants and Training lost out on potentially valuable assessments of the
impact of its programming on the post-harvest portion of the farm-to-table
continuum.

After awarding several training, education, and preparedness grants,
Grants and Training developed a method for gathering the perspectives of
food sector experts on its work. Grants and Training engaged federal and
state partners through its Agro-Terrorism Training Initiative Working
Group. The group has gathered statistics on agro-security programs,
monitored their progress, exchanged related information, and assisted with
course development efforts. At the outset, the only federal participants in
the working group outside of DHS were from the Animal and Plant Health
Inspection Service. Later, as the working group continued to facilitate
information exchange and integrate subject matter expertise, Grants and
Training enlisted and received the participation of the FBI, CDC, and state
and academic partners.

Initially, Grants and Training did not appreciate the need for FDA and
Food Safety and Inspections Service participation in this forum. Grants
and Training did not recognize that the federal agencies involved in the
regulation of post-harvest food were absent from the working group until
March 2005. That month, Grants and Training organized a summit to
“develop a seamless emergency response to agro-terrorism training plan
that reflected the coordination efforts between DHS and USDA.”
Working group participants at the summit noted that the FDA and Food
Safety and Inspections Service were not represented and expressed the
view that they should be included in future sessions. After soliciting
participants for contact information, Grants and Training extended
invitations to FDA and Food Safety and Inspections Service, and both
attended 2005 and 2006 working group sessions.

While they did not participate in initial grantee selection processes, federal
partners and private sector representatives have been involved in the
course review process for Grants and Training’s food-related training and

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 58 

education initiatives. To ensure that Grants and Training-sponsored
courses provide accurate information and effectively reach target
audiences, Grants and Training now requires that the FDA, Food Safety
and Inspections Service, and the Animal and Plant Health Inspection
Service formally endorse its food-related courses, and also involves
private sector subject matter experts in its course review process. Grants
and Training reports that all six of UC Davis’ food-related courses have
been vetted and approved by USDA and FDA.

Moreover, several of Grants and Training’s grant recipients have sought
out key entities involved in post-harvest preparedness. UC Davis worked
with more than 15 collaborators in developing its agroterrorism
preparedness curriculum, including representatives of the State of
California’s food and public health agencies, food and health associations,
academic institutions, and private industry. Similarly, the University of
Tennessee has collaborated with FDA, the Animal and Plant Health
Inspection Service, the Food Safety and Inspections Service, other
academic institutions (including two with DHS agroterrorism programs),
and State of Tennessee agencies in developing its plans for a vulnerability
assessment training course. The Multi-State Partnership for Security in
Agriculture also drew on input from various state departments of food and
agriculture, public safety, and state homeland security advisors in
designing its proposal.

Expanded regional collaboration is one of the national priorities identified
in the National Preparedness Goal. This priority stems from recognition
of the importance of establishing partnerships across jurisdictions and in
cooperatively building capabilities. Regional collaboration is also valued
because it allows for related costs and risks to be spread out over multiple
jurisdictions.

The vision for the State Homeland Security Program calls for regional
collaboration of this nature, but it does not have a funding vehicle to
support non-urban, multi-state efforts. Unlike the Urban Areas Security
Initiative, which provides a means for suburban and urban areas to jointly
apply for DHS grants to address risks across jurisdictions, the State
Homeland Security Program has no provision for states to submit joint
applications. This arrangement has reportedly worked to the detriment of
an important multi-state food-sector program.

The Multi-State Partnership for Security in Agriculture currently receives
funding through an Urban Areas Security Initiative discretionary grant
award channeled through the State of Iowa. Unless it is able to effectively
petition for urban area funds once again, the only way the Multi-State

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 59 

                           Partnership can access DHS financial support is through the State
                           Homeland Security Program. As currently configured, though, the
                           application process does not enable the Multi-State Partnership to
                           effectively compete for funds.

                           The Multi-State Partnership can apply for State Homeland Security
                           Program support in two ways, neither of which is satisfactory. One way
                           the Multi-State Partnership can apply for such funds is by having one state
                           apply for funding to support the whole multi-state partnership. At present,
                           however, State Homeland Security Program awards are given to states in
                           undifferentiated blocks, so there would be no straightforward way to
                           determine how much DHS intended to apportion to the multi-state effort
                           as opposed to other state-specific projects. Moreover, states are reportedly
                           anxious about applying for State Homeland Security Program funding for
                           the multi-state effort because they fear that the budget for the multi-state
                           effort will be withdrawn from other funds they would have received
                           without including the Multi-State Partnership.

                           In the alternative, the Multi-State Partnership could request that each of
                           the participating states apply for funding under the initiative individually.
                           However, this option is cumbersome and guarantees that the same issues
                           with differentiating multi-state initiative funds from state-specific funds
                           will be repeated across eleven states. Moreover, if it were to receive
                           funding from eleven different states, the Multi-State Partnership may have
                           to significantly alter its administrative and financial structure to account
                           for activities and expenditures in a more disaggregated, unduly complex
                           fashion.

                           While the current grant application process presents significant barriers to
                           non-urban, multi-state initiatives, Grants and Training’s ability to address
                           these barriers is subject to some noteworthy constraints. For one, the
                           Office of Grants and Training interprets its appropriation language to
                           mean that it can only consider applications for State Homeland Security
                           Program formula-based grant funds that are submitted by states.77 As a
                           result, non-profit consortia and regional organizations are precluded from
                           directly applying for funds under the program.

                           What is more, the Office of Grants and Training cannot easily fashion an
                           alternative grant program to support such multi-state enterprises. The
                           Office has no independent appropriations stream to support a new grant
                           program of this nature, and believes it is not independently authorized to
                           pursue one absent a congressional mandate.

77
     Public Law 109-295 (2006).

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 60 

                         Notwithstanding these constraints, Grants and Training can take steps to
                         remove grant application barriers to multi-state initiatives. It can do so by
                         fashioning a State Homeland Security Program grant application process
                         that is more receptive to multi-state initiatives. This could be
                         accomplished in a number of ways. One way would be for Grants and
                         Training to permit groups of states to submit applications for State
                         Homeland Security Program funds in support of multi-state initiatives.
                         These applications would be submitted separately from states’ individual
                         applications for funds, and could designate one state as the lead.

                         We recommend that the Assistant Secretary for the Office of Grants and
                         Training:

                         Recommendation #7: Develop a grant process to support non-urban,
                         multi-jurisdictional preparedness programs on a regional level.


        Prioritization Challenges
                         Congress and the President have conferred enormous responsibilities upon
                         DHS, requiring the department to embrace an ambitious mission. For
                         DHS to effectively address its vast overall mission and significant
                         responsibilities in food defense and critical infrastructure protection, it
                         must allocate its resources and efforts in line with clear and rational
                         priorities.

                         Secretary Chertoff has frequently stressed the use of risk management
                         techniques to prioritize the department’s activities. In his prepared
                         remarks for a March 2005 speech, the Secretary endorsed a “risk-based
                         approach” to guide DHS operations and target resources. He directed the
                         department to prioritize its undertakings on the basis of three variables –
                         threat, vulnerability, and consequence.78

                         Notwithstanding this guidance, the department’s approach to food-sector
                         related work has not always been guided by risk in a clear, consistent way.
                         Rather, multiple approaches to prioritizing efforts have been employed
                         across different units within DHS. Further, we encountered little
                         consensus on how the different elements of risk rate with respect to post
                         harvest food. Disparate views in these areas are likely to persist if the


78
  DHS Secretary Michael Chertoff, Prepared remarks delivered at George Washington University’s Homeland
Security Policy Institute on March 16, 2005. (http://www.dhs.gov/dhspublic/display?theme=42&content=4392)

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 61 

                         department continues to apply inconsistent approaches in evaluating the
                         elements of food sector risk.

                         Of the DHS components working with the food sector, Grants and
                         Training has perhaps the most anomalous and complex approach to risk.
                         Grants and Training’s approach to prioritization can be seen as consisting
                         of two parts. First, Grants and Training prioritizes support for activities
                         based on how and whether they advance preparedness goals. Second,
                         Grants and Training allocates funds to different applicants based on
                         assessments of their applications and the level of perceived risk associated
                         with their jurisdiction or geographical area. Neither of these approaches to
                         prioritization portray the level of risk to the food sector in a clear and
                         transparent way. Further, the second approach does not fully account for
                         food sector risk.

                         To determine which preparedness activities to support, Grants and
                         Training began by considering the nation’s response requirements. The
                         Office of Grants and Training’s mandate under Homeland Security
                         Presidential Directive 8 is to prepare the nation for hazards of all kinds –
                         natural and manmade, intentional and inadvertent. To determine how to
                         prioritize its preparedness efforts, Grants and Training developed a series
                         of scenarios intended to represent a broad range of catastrophic events that
                         could occur. Grants and Training used these fifteen scenarios – one of
                         which dealt with food contamination – to determine which tasks the nation
                         needed to be prepared to perform to address these threats.79 Grants and
                         Training, in turn, took these tasks and grouped them into three dozen
                         capability requirements. Finally, Grants and Training, in consultation
                         with homeland security stakeholders and in consideration of national,
                         state, and urban area homeland security strategies, identified a subset of
                         priority capabilities. Although “food and agriculture safety and defense”
                         is listed as a capability requirement, it was not selected as a priority
                         capability.80 Grants and Training thus notes the need for the development
                         of food defense capabilities, but does not place a high priority on that
                         effort.

                         In addition to priority capabilities, the National Preparedness Goal
                         identifies “overarching priorities,” that are not capability-specific. One of
                         these overarching priorities – implementation of the National
                         Infrastructure Protection Plan – addresses food critical infrastructure
                         protection in part.

79
   DHS, National Preparedness Guidance, Homeland Security Presidential Directive 8: National Preparedness, 

April 27, 2005, pp. iii, and 3. 

80
   DHS, Interim National Preparedness Goal, March 31, 2005, pp. 7, 10. 


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 62 

DHS’ judgments about priority capabilities and overarching priorities,
however, are not the only factor in determining what activities
preparedness funds support. States also have an important role in
determining how Grants and Training funds are ultimately spent. Much of
Grants and Training’s support of preparedness efforts is channeled
through state governments. Grants and Training requires states to develop
state-based homeland security strategies and set priorities within the scope
of those strategies. Some states place particular emphasis on post-harvest
food security in their homeland security strategies, and, in turn, support
related priorities with funding distributed through Grants and Training’s
State Homeland Security Program. Conversely, because DHS does not
require states to address all target capabilities in their strategies, or food
and agriculture safety and defense in particular, a number of states might
not use any State Homeland Security Program funding to sponsor efforts
in this area.

Grants and Training’s past analysis of Fiscal Year 2004 state homeland
security plans revealed that states planned initiatives in 14 different areas
to address agroterrorism threats. Such initiatives ranged from
vulnerability and risk assessments to exercises, and from information
sharing and surveillance to public outreach. While several states and
territories planned a broad complement of related activities, 13 states did
not present any initiatives to address agroterrorism in their Fiscal Year
2004 Homeland Security Strategies, according to Grants and Training.

We could not ascertain which states were or were not currently
performing Grants and Training-supported state food safety and defense
activities because Grants and Training does not regularly track states’
activities in each of the target capability areas. Nor does Grants and
Training track state and urban area support for food sector infrastructure
protection activities. Grants and Training does, however, monitor state
capability development priorities outlined in their homeland security
strategies. For their 2005 State Homeland Security Strategy submissions,
Grants and Training asked states to identify three to five additional
capabilities that are priorities for them beyond DHS’ priority capabilities.
In response, nearly one-third of states identified food and agriculture
safety and defense as a state priority.

Funds for Grants and Training’s largest grant programs are allocated in
line with appraisals of the quality of the grant applications, and the level of
perceived risk associated with a particular jurisdiction or geographical
area. Grants and Training derives these assessments of risk from
Infrastructure Protection’s Risk Management Division. In determining the

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 63 

                           level of risk associated with a particular state or urban area, Risk
                           Management Division considers the infrastructure assets in the area,
                           population factors, other area attributes, and related threat information.
                           The complex analysis underpinning these risk determinations specifically
                           accounts for the presence of and risks to assets in 14 of the 17 recognized
                           infrastructure sectors. It does not, however, include any specific reference
                           to or coverage of post-harvest food assets.

                           The risk analysis undergirding Grants and Training’s geographic
                           allocation of funds partially accounts for threat of food contamination in
                           other ways. It accounts for the possibility that the assets included in the
                           analysis might be subject to a food contamination incident as part of the
                           process of assessing their level of risk. So while the overall risk analysis
                           does not account for the risk of food contamination at a food processing
                           facility that could in turn affect people around the country, it does address
                           the possibility of food contamination at schools, stadiums, and other
                           assets. The risk analysis also considers some other factors, like a city’s
                           population, that could impact a food contamination incident’s effect. Still
                           other factors weighed in the analysis might, in part, reflect food-related
                           threats or incidents. Another factor applied to the risk formula for states –
                           state total agriculture sales – could serve as a proxy for the volume of
                           foods produced in a state, though it does not account for the volume of
                           foods processed, transported, stored, sold, or prepared. Even so, no
                           comparable factors are considered in the risk analysis for urban areas.

                           Although Grants and Training’s support of food defense and critical
                           infrastructure protection activities cannot be easily understood in terms of
                           risks to the food sector in particular, the prioritization efforts of other DHS
                           units can. The prioritization conclusions staff in these units reached were
                           not, however, consistent with one another. DHS staff, contractors, and
                           grantees we interviewed had sharply discrepant views on the level of risk
                           associated with an attack on the food sector. Some DHS perspectives on
                           food sector risk, including those of senior managers, did not appear to be
                           fully informed by information available to other parts of the department.

                           In 2003, after conducting a risk assessment on the subject, FDA reported
                           to Congress that there was a “high likelihood, over the course of a year,
                           that a significant number of people will be affected by an act of food
                           terrorism or by an incident of unintentional food contamination that results
                           in serious foodborne illness.”81 While some DHS representatives have
                           embraced this perspective on food sector risk, it is a view that was not
                           supported by a number of key DHS managers.

81
     FDA, Risk Assessment for Food Terrorism and Other Food Safety Concerns, October 13, 2003.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 64 

Differences in DHS perceptions about food sector risk extended to all of
the elements of risk. DHS staff perspectives on food sector threats,
vulnerabilities, and consequences ranged from low to high. The
distribution of views on food sector vulnerabilities provides a useful
illustration.

Most experts we spoke with regarded the food sector as highly vulnerable
to attack. They considered food sector security to be less intensive than
the security for other critical infrastructures. In addition, they noted the
openness and international dimensions of the food supply chain as other
factors contributing to its vulnerability. By contrast, one senior Office of
Infrastructure Protection manager maintained that the food sector’s
vulnerability was not very high because “food contamination is naturally
tested for in food safety systems.” While this statement is not wholly
inaccurate, it reveals an important misconception. Existing food safety
operations to a very large extent have been structured to address naturally
occurring food contaminants and contaminants that may be inadvertently
introduced into food products. Until recently, these operations have not
focused on detecting the kinds of agents that experts expect someone
might use in the intentional contamination of food. As a result, their
capacity to mitigate such threats is still limited.

In another noteworthy case, a CBP manager expressed the view that the
loss of life associated with a food contamination event was likely to be
restricted to a hundred or so persons. This perspective is at odds with a
food contamination event model at the NCFPD, which projects losses of
life in the tens of thousands for a particular type of contamination incident.

Misconceptions like this should not persist in a unit that has experts who
are aware that food safety operations are not structured in a way to
effectively address a number of food contamination scenarios. Yet we
encountered other similarly misinformed perspectives among DHS
managers on other occasions when better information was available
elsewhere in the department.

In some cases, DHS thinking about the vulnerabilities of food sector assets
and the consequences of an attack on them did not account for the most
serious threats to these assets. DHS has funded the production of several
Buffer Zone Plans on food industry assets that do not discuss the
possibility of contaminating food at these facilities. Whereas the
intentional contamination of food would perhaps most likely result from
an insider threat, Buffer Zone Plans concentrate on threats “outside the
fence,” and seek to create a buffer zone around facilities. Accordingly,

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 65 

Buffer Zone Plans that do not account for the threat of food contamination
are not necessarily deficient. Rather, they may simply add less value to
the protective environment of food facilities than more comprehensive
analyses.

DHS has also funded the development of an automated tool to evaluate the
consequences of terrorist attacks on different assets, but did not include
food contamination among the possible modes of attack. The Gross
Consequence of Attack tool provides high-level assessments of the
consequences of 20 different modes of attack, many of which may be
regarded as more technically challenging or less consequential than food
contamination. The tool examines, for example, the consequence of aerial
releases of chemical and biological agents at particular facilities, though
the aerisolization and delivery of many chemical and biological agents
presents major technical hurdles that contaminating food with the same
agents does not. Despite this omission, the department planned to run the
tool on all assets in the National Asset Database to help determine which
were more consequential. Because the tool does not account for the most
serious mode of attack on food assets, the maximum potential
consequence of an incident affecting these assets will be greatly
underrepresented in any resulting analysis.

DHS is not likely to achieve internal consensus on food sector
vulnerability until there is agreement on what tool or tools to use to
measure it. Disagreement among DHS and its federal partners on the tool
to use for food sector vulnerability assessments might have contributed to
uneven vulnerability assessment practices across DHS units.

DHS’ Office of Infrastructure Protection and S&T have funded CARVER
and CARVER+Shock assessments of food systems and assets.
CARVER+Shock is a prioritization tool originally developed by the
Department of Defense that has been adapted to assess food sector
vulnerabilities. CARVER+Shock examines the criticality, accessibility,
recuperability, vulnerability, effect, recognizability, and shock from the
disruption or loss of a particular asset or system to help develop protective
measures.

In the past, the Office of Infrastructure Protection funded such
assessments through its support of Site Assistance Visits and Buffer Zone
Plans in the food sector. The Office of Infrastructure Protection’s Risk
Management Division’s support of the CARVER tool in the food sector
has, however, ceased. S&T’s National BioDefense Analysis and
Countermeasures Center is funding the conduct of two CARVER+Shock
assessments by the Food Safety and Inspections Service. Meanwhile, the

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 66 

                           Office of Infrastructure Protection’s Infrastructure Partnerships Division is
                           providing support for the FBI-led Strategic Partnership Program
                           Agroterrorism Initiative, which employs CARVER+Shock. This support
                           continues despite DHS’ past endorsement of the competing Risk Analysis
                           and Management for Critical Asset Protection methodology for all critical
                           infrastructure protection efforts.82

                           As S&T and the Office of Infrastructure Protection’s Infrastructure
                           Partnerships Division support large scale plans to move forward with
                           CARVER+Shock assessments of food sector subsystems, another DHS
                           component is supporting an effort to employ a different assessment
                           methodology. As noted earlier, the Office of Grants and Training has
                           provided a $2 million grant to the University of Tennessee to develop an
                           agroterrorism assessment training program. Under current plans, the
                           program will encourage program participants to focus on an Operational
                           Risk Management approach to assessment, as well as CARVER+Shock.

                           For DHS to resolve differences in the appraisal of food sector risk, the
                           department must take several steps. In particular, DHS must embrace a
                           common approach to food sector vulnerability assessment, develop more
                           internal expertise on food defense matters, improve coordination among
                           affected staff in the department, and strengthen communication with
                           experts outside DHS. In addition, DHS must ensure that formal
                           assessment tools used in the food sector are similar to or compatible with
                           those applied in other infrastructure sectors.

                           Without departmental consensus on the level of overall food sector risk or
                           any of its elements, DHS cannot be expected to rationally apportion its
                           resources and efforts across the full range of infrastructure sectors. As the
                           basis for their decisions on how to allocate resources and efforts across
                           infrastructure sectors, DHS managers could point to no document that
                           rated risk across all sectors and ranked them accordingly. What is more,
                           DHS managers cannot, at present, refer to a standardized consequence and
                           vulnerability assessment instrument to measure these elements of risk
                           across sectors.

                           DHS managers have had to make difficult choices about apportioning
                           resources and efforts across different infrastructure sectors without the
                           benefit of a clear consensus on cross-sector priorities. In more than one
                           case, DHS managers reportedly assigned risk and priority across
                           infrastructure sectors using rather informal approaches. Protected Critical
                           Infrastructure Information program staff advised us that they determined

82
     DHS, Draft NIPP, November 2, 2005, p. 125.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 67 

which sectors to target for outreach activities by discussing among
themselves what sectors, “as a public citizen, they would be most
concerned about.” For Protected Critical Infrastructure Information
program staff, food was chosen as one of the sectors of highest concern.
Homeland Security Information Network staff reportedly applied a similar
approach and arrived at a similar conclusion – the food sector was among
their priorities, as well.

Despite these informal conclusions that the food sector should be a high
priority, the department devotes fewer resources to it than at least one
other sector. The transportation sector receives dedicated funding for
mass transit, port, and aviation security, each of which exceeds DHS’
funding for food and agriculture security. Other sectors, like the chemical
and nuclear sectors, are also the focus of intensive programs and funding.
In considering the level of support received by the food sector relative to
other infrastructure sectors, some food and agriculture security experts
questioned whether the department has directed sufficient resources to
improve the sector’s protective posture. Until a thoughtful consensus on
cross-sector risk emerges, however, it is difficult to assess the merits of
this critique.

While a fully comprehensive and well-founded solution to cross-sector
prioritization may be some time off, less ambitious efforts to prioritize
efforts are in order at this time. There is an immediate need for
prioritization across the food and agriculture sectors.

DHS’ current patchwork of programs, initiatives, and staff supporting
food sector defense and critical infrastructure protection more often than
not also support agricultural defense. This bundling of pre- and post
harvest food responsibilities is evident, for example, in the Government
Coordinating Council and Sector Coordinating Council, as well as a
number of Grants and Training-funded initiatives. The institutional habit
of addressing these threats with shared resources is, to a large extent, an
outgrowth of the fact that the two share a common “farm-to-table”
continuum. Allocating common resources across food and agriculture is
often sensible, as adverse events affecting one part of the continuum tend
to have negative consequences elsewhere along the supply chain.

It may not be necessary or wise to completely separate activities
supporting food defense from agricultural defense, but it is important to
monitor the balance of efforts devoted to one or the other and determine
which of the two should receive greater attention. At present, little
attention has been spent on tracking the balance of DHS effort devoted to
the post-harvest food sector as compared to agricultural defense. Due to

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 68 

the intense bundling of the food- and agriculture-related efforts, it is
difficult to discern the effective level of prioritization attached to post
harvest food defense.

Though we were unable to separate expenditures between the two
subsectors, it appeared to us that pre-harvest agricultural defense was
receiving more support than post-harvest food defense. This seemed to be
the case both from an overall program perspective and within bundled
programs and activities.

Pre-harvest activities receive considerable direct attention in the
department’s efforts, while post-harvest food rarely received comparable
attention. On the pre-harvest side, for example, S&T manages the Plum
Island Animal Disease Center ($60.0 M) in addition to a Center of
Excellence on Foreign Animal and Zoonotic Disease ($6 M). Meanwhile,
Grants and Training supports what appear to be exclusively pre-harvest
course development and training initiatives at Kirkwood Community
College ($3.2 M) and the Center for Domestic Preparedness ($0.8 M). By
contrast, DHS only sponsors two programs with a primarily post-harvest
orientation, the National Center for Food Protection and Defense ($5 M)
and Food Biological Agent Detection Sensor ($3.6 M). Overall, DHS
spends eight times more on pre-harvest programs than programs with a
post-harvest focus.

Within bundled DHS programs and activities, more often than not pre-
harvest efforts appeared to be ascendant. A pre-harvest orientation is, for
example, evident with respect to some of Grants and Training’s related
programming. Louisiana State University’s agroterrorism preparedness
and response course, for example, is focused primarily on the pre-harvest
parts of the supply chain; only about one twentieth engages post-harvest
food defense.

DHS personnel working on food and agricultural issues also tend to have a
pre-harvest orientation. Almost all of these staff have backgrounds in
animal health, while only a few have direct experience related to post
harvest food. This is an important distinction because, as one government
representative noted, there is a “huge difference between being a vet and
being a food safety expert.”

The agriculture sector’s comparative ascendance with respect to post
harvest efforts occurs despite the absence of an apparent management
decision to prioritize agriculture over food. While we found no evidence
of a clear, consistent management decision to prioritize pre-harvest
activities over post-harvest activities, the recent attention to avian

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 69 

            influenza has driven many of the department’s bundled internal resources
            to focus more intensively on the agricultural sector.

            DHS and its federal partners need flexibility in apportioning resources to
            support pre- and post-harvest defense, as related levels of risk are subject
            to change over time. Nevertheless, it is important to develop shared
            perspectives on the relative risk of threats in the pre- and post-harvest
            portions of the farm-to-table continuum. Further, it is important for DHS
            to monitor the relative allocation of resources across food and agriculture
            to ensure that these are balanced in line with risk determinations.


DHS Fulfillment of its Responsibilities
            In most areas of DHS food sector responsibility, the department has taken
            action to meet its obligations. It has done so despite the fact that a number
            of its related responsibilities were set out recently. Many of DHS’ food-
            related responsibilities originated with the issuance of Homeland Security
            Presidential Directive 9 less than three years ago.

            Despite this challenge, DHS has satisfied basic requirements in most areas
            of food defense and critical infrastructure protection responsibility.
            Nonetheless, to date, DHS has not fully met all of its food-related
            responsibilities. In two areas, we were unable to identify fully responsive
            DHS activities. First, DHS has not collaborated with USDA and FDA to
            prepare and submit an integrated food defense budget plan to the White
            House. Second, DHS has yet to develop adequate standards or processes
            for integrating food sector vulnerability assessments through the
            development of common consequence and vulnerability standards and
            guidance.


          Table 3.    DHS Execution of Food-Related Responsibilities




              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                         Page 70 

                            DHS Execution of Food Related Responsibilities

         Critical Infrastructure Protection Management and Coordination
         Asset Identification and Mapping                                                             3
         Information Sharing, Threat Awareness, and Warning                                           3
         Vulnerability Assessment
         Consequence Assessment and Modeling                                                          3
         Protective Measures and Prioritization                                                       3
         Research & Development                                                                       3
         Education, Outreach, Training, and Preparedness                                              3


                          Budget Coordination

                          Homeland Security Presidential Directive 9 established that, “for all future
                          budgets, the Secretaries of Agriculture, Health and Human Services, and
                          Homeland Security shall submit … an integrated budget plan for defense
                          of the United States food system.”83 According to the department, the
                          Homeland Security Council initially directed DHS to delay
                          implementation of this requirement.

                          As DHS food defense spending has increased and its related programs
                          have grown, so have the benefits of coordinating food defense budgets
                          with USDA and HHS. Yet almost three years after Homeland Security
                          Presidential Directive 9 issued, we did not see any evidence that DHS was
                          complying with this requirement.

                          When we queried about DHS’ plans to satisfy its budget coordination
                          obligations under Homeland Security Presidential Directive 9, one Office
                          of Infrastructure Protection manager advised that the resource
                          prioritization process in the NIPP would fulfill the department’s budget
                          coordination requirement. There is, however, an important difference
                          between the Homeland Security Presidential Directive 9 requirement and
                          the resource prioritization process in the NIPP.

                          The process outlined in the NIPP relates to overall national protective
                          prioritization, not the formulation of integrated budget plans for each
                          sector. The requirement in Homeland Security Presidential Directive 9

83
  Homeland Security Presidential Directive 9: Defense of United States Agriculture and Food, January 30, 2004,
paragraph 26.

                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 71 

                           focuses on maximizing efficiency among the federal departments
                           responsible for food defense, whereas the process outlined in the NIPP is
                           not specific to any infrastructure sector.

                           To meet its responsibilities under Homeland Security Presidential
                           Directive 9, we recommend that the Under Secretary for Preparedness, in
                           conjunction with the Under Secretary for Science and Technology:

                           Recommendation #8: Work with HHS and USDA to prepare an
                           integrated food defense budget plan for Fiscal Year 2009 using a process
                           that satisfies Homeland Security Presidential Directive 9 requirements.


                           Vulnerability Assessment Standards

                           Homeland Security Presidential Directive 7 mandates that DHS “establish
                           uniform policies, approaches, guidelines, and methodologies for
                           integrating [f]ederal infrastructure protection and risk management
                           activities within and across sectors.”84 To satisfy this mandate, DHS must
                           establish uniform approaches to the assessment of vulnerability – a key
                           ingredient of risk.

                           To date, DHS actions have contradicted its responsibility in this regard.
                           Rather than pursuing a uniform approach to food sector vulnerability
                           assessment, DHS is supporting a number of approaches and has not set
                           clear standards to ensure compatible assessment results.

                           After September 11, 2001, FDA and Food Safety and Inspections Service
                           conducted initial vulnerability assessments of the food industries they
                           regulate. While each of these assessments rated the vulnerability and
                           criticality of particular steps in the production, processing, distribution,
                           and retail of the products they regulated, the two efforts employed
                           different methodologies. A White House-based subcommittee later
                           directed the two agencies to apply a common approach to vulnerability
                           assessment. FDA and Food Safety and Inspections Service thus came to
                           use the CARVER+Shock assessment methodology.

                           FDA and Food Safety and Inspections Service have subsequently used
                           CARVER+Shock to conduct numerous vulnerability assessments. Staff
                           from these organizations reported that experts from the two agencies have
                           scored steps in the supply chain of similar food products similarly using

84
 Homeland Security Presidential Directive 7: Critical Infrastructure Identification, Prioritization, and Protection,
December 17, 2003, paragraph 14.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 72 

                           CARVER+Shock. Although use of CARVER+Shock may lead to parallel
                           conclusions for the same or similar products, the difference in the
                           agencies’ regulatory cultures and areas of statutory emphasis could
                           contribute to important differences of opinion in certain areas.

                           Perhaps for these reasons, some Office of Infrastructure Protection staff
                           regard CARVER+Shock as unscientific and inexact. One senior Office of
                           Infrastructure Protection manager expressed the view that CARVER is
                           “totally subjective,” leading to vulnerability determinations that are the
                           “best guess” of those completing the assessment. Our review of CARVER
                           assessments in Buffer Zone Protection Program and Site Assistance Visit
                           reports tended to support this assessment. CARVER assessments for the
                           same facility type conducted during the same month, for example,
                           produced very different scores from one report to the next. A CARVER
                           assessment of one dairy plant rated the vulnerability and criticality of a
                           particular production node to be three times greater than another
                           assessment on the same node of a different plant. Because the
                           accompanying narratives do not provide comparable information on
                           facility production or security features it is not possible to determine
                           whether these scoring discrepancies can be justified.

                           Office of Infrastructure Protection staff in the Risk Management Division
                           regard the Risk Analysis and Management for Critical Asset Protection as
                           a more objective, precise process that can be tailored to the food sector.
                           This view was reinforced by the Draft NIPP, which stated that, “ideally,
                           all asset owners and operators will use the Risk Analysis and Management
                           for Critical Asset Protection methodology to assess their assets once the
                           methodology is finalized.”85

                           The tension between advocates for one assessment methodology or the
                           other was palpable during our interviews. Food industry and government
                           representatives in other departments have not embraced DHS’ support of
                           the Risk Analysis and Management for Critical Asset Protection
                           assessment methodology over CARVER+Shock. A Food Safety and
                           Inspections Service representative underscored the fact that the White
                           House had instructed the food sector to use CARVER+Shock as its
                           standard vulnerability assessment tool, and expressed dismay that DHS
                           sought to shift to another tool. FDA and USDA had collaborated to apply
                           CARVER+Shock to the food and agriculture sectors. They were not keen
                           on shifting to another tool. Some industry representatives are also
                           reluctant to embrace a new vulnerability assessment tool, as they
                           considered the familiar CARVER+Shock to suit their needs.

85
     DHS, Draft NIPP, November 2, 2005, p. 125.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 73 

                          Despite DHS’ early stand in favor of Risk Analysis and Management for
                          Critical Asset Protection, the food sector’s support for CARVER+Shock
                          remains unabated. Perhaps the best expression of this is the tool’s use in
                          the largest current food sector vulnerability assessment initiative.
                          Announced in July 2005, the Strategic Partnership Program for
                          Agroterrorism Initiative is an FBI-funded effort to develop a
                          comprehensive perspective on food and agricultural vulnerabilities by
                          performing new assessments and validating old ones. FDA or USDA
                          representatives serve as Strategic Partnership Program Agroterrorism
                          assessment facilitators, while DHS, FBI, and state and local departments
                          of health and agriculture, as well as volunteer private sector
                          representatives, participate in these assessments.86 Participants plan to
                          complete 52 vulnerability assessments for food and agriculture subsectors
                          by 2007.

                          Further confounding matters is the fact that different DHS components
                          support different assessment methodologies. In practice, DHS is
                          supporting three different approaches. As noted earlier, the National
                          BioDefense Analysis and Countermeasures Center and the Infrastructure
                          Partnerships Division currently support CARVER+Shock assessment
                          initiatives, while Grants and Training sponsors a course development
                          effort at the University of Tennessee based, in part, on Operational Risk
                          Management. Meanwhile, Risk Management Division staff maintain that
                          the only suitable approach is Risk Analysis and Management for Critical
                          Asset Protection.

                          Although DHS has officially advocated the universal adoption of the Risk
                          Analysis and Management for Critical Asset Protection assessment, the
                          department has yet to develop final guidance and tools to support its use in
                          the food sector. The Office of Infrastructure Protection reports that
                          technical specifications for Risk Analysis and Management for Critical
                          Asset Protection modules have been written for five infrastructure sectors,
                          and that modules are in use in the nuclear power and chemical
                          manufacturing industries. Despite progress in other sectors, DHS has not
                          completed overarching guidance and sector-specific modules for the food
                          and agriculture sector. Furthermore, an Office of Infrastructure Protection
                          manager advised us that DHS has no short or medium term plans to
                          proceed with the costly process of developing a Risk Analysis and
                          Management for Critical Asset Protection module for the food sector.

86
  Center for Food Safety and Applied Nutrition, “Strategic Partnership Program Agroterrorism (SPPA) Initiative:
A Joint Effort of the FBI, DHS, USDA, and FDA to Help Secure the Nation's Food Supply,” August 2005; and
Center for Food Safety and Applied Nutrition, “SPPA Initiative Questions and Answers,” September 23, 2005.

                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 74 

                            Discord on the choice for an assessment tool is a point of major concern.
                            If DHS ultimately determines that past USDA, FDA, and private sector
                            CARVER+Shock assessments are not compatible with its baseline criteria
                            for use in comparative risk analysis, then this large body of work will be
                            rendered moot in cross-sector considerations. This concern becomes more
                            pressing as the volume of CARVER+Shock assessments grows.

                            S&T reports that it has plans to engage its Centers of Excellence and the
                            national labs to research “all available [assessment] tools and
                            methodologies and then to develop, test, and field” a new sector specific
                            tool to replace CARVER+Shock, in consultation with the sector. The
                            need for action in this area is urgent. Those conducting food sector
                            assessments should be able to proceed with the confidence that their
                            efforts will be considered in DHS’ comparative risk analysis. DHS must
                            do as it has committed in the NIPP, and make a determination about the
                            suitability of existing food assessment methodologies for inclusion in
                            comparative risk analysis.87 Further, DHS must establish how these
                            assessments will be applied in a broader sector-specific risk methodology
                            in collaboration with USDA and FDA. These reviews should proceed
                            without delay. Accordingly, we recommend that the Assistant Secretary
                            for Infrastructure Protection:

                            Recommendation #9: Expedite the review of existing food sector
                            assessments to determine their suitability for use in comparative risk
                            analysis, and collaboratively identify the role of these assessments in the
                            sector-specific risk methodology.


                            Additional Staff Support Needed

                            Although DHS has addressed the remainder of its basic food sector
                            responsibilities, public and private sector partners did not characterize the
                            department’s activities in many of these areas as particularly effective.

                            DHS would be better equipped to acquit its responsibilities if it devoted
                            more staff resources to the post-harvest food sector. As noted earlier, the
                            public and private sector viewed DHS staff currently working on post
                            harvest issues as professional and dedicated. DHS simply needs
                            additional expertise to address its responsibilities in the sector. In all of
                            DHS, we encountered only nine staff who attend to post-harvest food
                            defense issues as a significant portion of their duties. Two left the

87
     DHS, NIPP, June 30, 2006, p. 146.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 75 

           department during the course of our review. The remaining seven have
           more expertise in pre-harvest than post-harvest food issues, and almost all
           of them devote the bulk of their time to pre-harvest matters.

           Without an internal audience that is receptive to post-harvest food issues
           and is knowledgeable in the field, much of the related work being done on
           the department’s behalf will not be developed or leveraged to its full
           potential. In our view, the paucity of qualified and engaged DHS staff has
           contributed to the internal and external coordination and prioritization
           challenges discussed in this report.

           Several individuals we interviewed saw the large contractor contingent
           within DHS’ food sector staff as a detriment. They expressed frustration
           that contractors who were not able to speak on DHS’ behalf were their
           principal points of contact for the department. Because DHS contractors
           did not have the authority to command the department’s resources, they
           were perceived to have little to offer in interagency forums. Some
           representatives of other departments added that they had concerns about
           the potential for high turnover among DHS’ contractor base. Finally, one
           government representative outside DHS said that he thought some of
           DHS’ contractors were overstating threats to food and agriculture in order
           to ensure the renewal of their contracts. These perceptions have damaged
           DHS’ relationship with its food sector partners.

           We recommend that the Assistant Secretary for Infrastructure Protection,
           Under Secretary for Science and Technology, and Chief Medical Officer:

           Recommendation #10: Pursue the recruitment, hiring, and retention of
           several additional staff with expertise in matters of post-harvest food
           defense.


Opportunities for Additional Work
           While DHS must position itself better to address its full range of food
           defense responsibilities, it also could take steps to support food defense in
           areas in which the department has established core competencies and skill
           sets. If DHS takes action in these areas it could contribute usefully where
           other federal partners may have less developed programs. These areas
           include food imports, food in transit, consequence modeling and
           simulation, exercise support, situational awareness, and protective
           measure initiatives.



             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                        Page 76 

                           Food Imports

                           USDA trade data suggest that the United States imported $76.7 billion in
                           food for human consumption 2005. That year, more than 4.5 million
                           shipments of food entered the United States from abroad. These imported
                           foods account for approximately 11% of food consumed in the United
                           States according to USDA Economic Research Service estimates.88

                           Imported foods have been linked to a number of significant foodborne
                           illness outbreaks in the United States. In 2003, hundreds of restaurant
                           patrons in four states became ill with hepatitis A after consuming
                           contaminated green onions from Mexico.89 In 1996 and 1997,
                           Guatemalan raspberries were linked to more than 2,500 Cyclospora
                           infections throughout the United States and Canada. Salmonella from
                           Mexican cantaloupes afflicted about 25,000 Americans in 1989.90

                           Beyond their public health effects, foodborne illness outbreaks have
                           economic repercussions. And the adverse economic effects of foodborne
                           illness outbreaks from imported foods are frequently distributed across all
                           producers of the food product and its agricultural inputs, both domestic
                           and foreign. A USDA examination of three cases of foodborne illness
                           from imported foods found that: "In each case, damage was not limited to
                           the producers of the contaminated product. Anyone producing a product
                           for the U.S. market, including U.S. growers, may be caught in the
                           consumer backlash against a product ...”91

                           The risk of contamination of imported foods is increased by the potential
                           for product tampering and adulteration. Terrorists could adulterate foods
                           for U.S. consumption without entering the country. Indeed, many food
                           imports originate or transship through countries with well-articulated
                           terrorist organizations. CBP reports that there were 203,403 commercial
                           entries92 of food products from “special interest countries” – countries that
                           present a potential terrorist threat to national security – into the United



88
   Jerardo, Andy. Import Share Of U.S. Food Consumption Stable At 11 Percent, FAU-79-01, July 2003, p. 1.

89
   CDC, “Hepatitis A Outbreak Associated with Green Onions at a Restaurant --- Monaca, Pennsylvania, 2003,” 

MMWR Weekly 52(47), November 28, 2003. pp. 1155-1157. 

90
   FDA, “Risk Assessment for Food Terrorism and Other Food Safety Concerns,” October 13, 2003. 

(http://www.cfsan.fda.gov/~dms/rabtact.html).

91
   USDA, Economic Research Service. International Trade and Food Safety: Economic Theory and Case Studies. 

November 2003. p. 93. 

92
   In this context, a “commercial entry” refers to an “entry line,” or single shipment of merchandise that importers

submit to CBP for release into U.S. commerce. These entries may take the form, for example, of a cargo container 

off a ship or lesser quantities of goods filling a portion of a container or a mailed parcel. 


                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 77 

                           States in 2005.93 According to CBP statistics, the volume of food products
                           imported from these nations has increased 77% since 2000.

                           While threat of contaminated food products entering the United States
                           from abroad is worth noting, it can be overstated. Limitations on the
                           survivability of some possible threat agents, security measures to prevent
                           product theft abroad, and careful quality controls for many imported
                           goods, combine to reduce vulnerabilities. In addition, imported food items
                           are often subject to extensive processing before they reach American
                           consumers.

                           CBP addresses the risks posed by imported foods through activities in at
                           least four areas. First, as discussed earlier, CBP has taken an active role in
                           supporting FDA and USDA in targeting imported foods for additional
                           scrutiny and inspection. CBP assisted in the creation of targeting rules for
                           FDA’s prior notice requirement, and for USDA’s Animal and Plant Health
                           Inspection Service. In addition, CBP is moving forward with the
                           development of another rule set for the Food Safety and Inspections
                           Service, which was to have been piloted recently.

                           CBP has also supported federal food partners with trade data and systems
                           access. CBP worked closely with FDA to establish its Prior Notice
                           Center, which is co-located with CBP’s National Targeting Center. CBP
                           also has been active in an interdepartmental Food Safety Working Group
                           to develop an integrated food import process and information systems to
                           address related hazards, including those presented by intentional
                           contamination.

                           Additional food defense activities may develop under CBP’s Director of
                           Agricultural Bioterrorism Countermeasures within its Office of Field
                           Operations. Preliminary plans reportedly call for CBP’s Agricultural
                           Bioterrorism Countermeasures program to speed the development of
                           additional food targeting criteria, and help train inspectors to enhance their
                           ability to recognize and interdict bioterrorism threats.

                           Other CBP opportunities to improve food defense rest with a major private
                           sector trade partnership initiative. Through the Customs-Trade

93
  This figure reflects the number of commercial entries of food products for human consumption. Food products
for human consumption were identified using Harmonized Tariff Schedule codes associated with imported
merchandise. The OIG, in consultation with a CBP agriculture trade specialist, developed a list of Harmonized
Tariff Schedule codes representing products for human consumption by adjusting an FDA listing of import codes
subject to prior notification requirements. The OIG modified this listing to ensure the inclusion of all products for
human consumption, including those regulated by USDA, and the exclusion of products that principally serve as
animal feed. A listing of the tariff codes used in this analysis is available from the OIG upon request.

                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 78 

                         Partnership Against Terrorism, CBP is attempting to improve supply chain
                         security and reduce the chance that dangerous cargo enters the United
                         States. In exchange for expedited processing and more limited inspection,
                         private sector participants provide CBP with supply chain security profiles
                         and commit to implement agreed to security measures. Launched in
                         November 2001, the Customs-Trade Partnership Against Terrorism now
                         has more than 5,700 certified members, including importers, customs
                         brokers, terminal operators, carriers and foreign manufacturers.94

                         Customs-Trade Partnership Against Terrorism members account for a
                         significant share of total food imports. In 2005, members were associated
                         with 18% of imported foods. That year, Customs-Trade Partnership
                         Against Terrorism members also accounted for 23% of food imports from
                         special interest countries.

                         While the Customs-Trade Partnership Against Terrorism provides generic
                         guidance and specifications for supply chain security, the program could
                         do more to help secure the food industry’s supply chain. At present,
                         Customs-Trade Partnership Against Terrorism security guidelines are less
                         detailed and targeted than optimal from a food defense perspective.
                         Available FDA and Food Safety and Inspections Service guidelines are
                         more detailed than the Customs-Trade Partnership Against Terrorism
                         guidance on the actions importers can take to improve security of the food
                         supply. FDA, for example, lists 11 different management actions that can
                         be taken to prepare for possible tampering events. These include various
                         strategies for dealing with a food contamination event, such as internal and
                         external communication plans and maintenance of floor and food flow
                         plans in a secure location.95 The Customs-Trade Partnership Against
                         Terrorism could use these or other similar guidelines as the basis for a
                         separate program guideline for food importers. To ensure consistency
                         with the Customs-Trade Partnership Against Terrorism mission of
                         countering terrorist threats, rather than improving food safety, such
                         guidance should focus on preventing and addressing food adulteration or
                         the intentional introduction of animal or zoonotic disease.

                         Short of the elaboration of separate security guidelines for food importers,
                         the Customs-Trade Partnership Against Terrorism program could include
                         references to existing food security guidelines in its security profile
                         guidance. Program materials currently recommend training programs on

94
   CBP, “Remarks of Acting Commissioner Deborah J. Spero,” Customs-Trade Partnership Against Terrorism
Conference, March 1, 2006.
(http://www.cbp.gov/xp/cgov/newsroom/commissioner/speeches_statements/03012006_ctpat_conf.xml)
95
   FDA, “Guidance for Industry - Importers and Filers: Food Security Preventive Measures Guidance,” March 21,
2003. (http://www.cfsan.fda.gov/~dms/secguid7.html)

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 79 

                          security, but do not list USDA and FDA food importer guidelines as a
                          training resource. At minimum, Customs-Trade Partnership Against
                          Terrorism should expand awareness of these products.

                          We recommend that the Commissioner of Customs and Border Protection:

                          Recommendation #11: Consider the elaboration of food-specific criteria
                          and guidelines for Customs-Trade Partnership Against Terrorism food
                          industry firms in collaboration with FDA and USDA.


                          Food in Transit

                          Homeland security officials appreciated early that the transportation of
                          food products represented a point of particular vulnerability in the food
                          supply chain. In February 2003, the White House Office of Homeland
                          Security noted that the food sector depends on “transportation system
                          owners and operators … to meet the safety and security standards
                          necessary to protect food products in transit.”96 A security failure in this
                          area could have significant consequences, as food products in transit are
                          sometimes distributed to a number of locations.

                          Findings from a recent report by the American Transportation Research
                          Institute highlight the need for additional work in this area. In January
                          2005, the Research Institute released a USDA-funded report on food
                          transit security and the perspectives of food carriers, including a survey of
                          motor carrier firms. The American Transportation Research Institute
                          reported that a leading concern among survey respondents was security at
                          rest stops and parking areas. Some carriers, especially those using a
                          higher percentage of contracted drivers, also labeled personnel issues as a
                          major concern. Indeed, the Research Institute noted that some trucking
                          companies have 100% annual staff turnover.97 Weaknesses in rest stop
                          and personnel security provide openings for the deliberate contamination
                          of food products. Further, contamination at these points in the supply
                          chain could be difficult to trace or attribute.

                          DHS seeks to improve personnel security in the transportation arena
                          through its Transportation Worker Identification Card program. The
                          Transportation Worker Identification Card program aims to create a secure
                          credential for transportation workers to use in accessing key transportation
96
   The White House, Office of Homeland Security. The National Strategy for the Physical Protection of Critical

Infrastructure and Key Assets, February 2003, p. 39. 

97
   American Transportation Research Institute, Identifying Vulnerabilities and Security Management Practices in

Agricultural and Food Commodity Transportation, January 2005, pp. 4, 6, 8, and 9. 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 80 

facilities, including seaports, airports, trucking, and rail facilities. In
exchange for the Transportation Worker Identification Card credential,
transportation workers who enroll in the program provide documentation
to verify their identity and submit to a security threat assessment. By
providing a more secure credential and performing threat assessments on
transportation workers through the Transportation Worker Identification
Card program, DHS expects to reduce unapproved individuals’ access to
key facilities. The Transportation Worker Identification Card program is
currently in its initial roll out phase targeting workers who access
maritime facilities.

DHS has another program with the potential to improve rest stop and
parking area security for food transporters. A current DHS program
targeting motor carrier operators and other highway professionals,
Highway Watch, provides a possible means for increasing awareness and
reporting in this area. Highway Watch is a national transit security
program funded though a cooperative agreement with TSA. Outreach and
training about security risks are key features of the program. Another
central feature of the program is its National Call Center, which handles
calls from highway professionals who report suspicious activity or safety
concerns.

Although Highway Watch currently devotes no specific attention to
threats to food in transit, it has potential to improve the protective status of
food in transit. By using current training and outreach activities to raise
awareness of the potential for food adulteration, for example, Highway
Watch could improve transporter reporting of suspicious activities in the
vicinity of tankers and freighters carrying food items. If increased
sensitivity in this area were coupled with commodity-specific call center
statistics, DHS could develop valuable leads about efforts to infiltrate food
shipments and potentially prevent the theft or adulteration of food
products in transit.

DHS also can do more to study and disseminate information on the
application of tracking and seals technologies to the transportation of food.
DHS is currently sponsoring a related effort at the University of Kentucky.
Funded by S&T, this project explores means of tracking milk product
through the early stages of the supply chain for the purpose of increasing
security. Additional research into the ways that other technologies can be
applied to the security of food in transit may help increase the adoption of
these technologies by food industry transporters and reduce vulnerability
to food adulteration at a number of points in the supply chain.

We recommend that the Under Secretary for Preparedness:

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 81 

Recommendation #12: Study ways to integrate food defense awareness
into existing transportation security programs fully and consider additional
research to improve the security of food in transit.


Exercise Support

Food contamination exercises provide key learning opportunities for food
sector representatives, and generate valuable lessons about how the
response to a food-related incident is likely to proceed. Sector
Coordinating Council and Government Coordinating Council
representatives said that they found food contamination exercises to be
very instructive. Meanwhile, experts in infrastructure modeling reported
that exercises provide them with important information about how
different groups are likely to respond in an event, and that this information
critically informs their modeling and simulation efforts.

DHS has extensive experience in the conduct, facilitation, and support of
homeland security exercises. As of June 2006, Grants and Training had
provided direct support for 1,149 exercises through its Exercise and
Training Division, and provided financial support for an additional 299
exercises through its Urban Areas Security Initiative and State Homeland
Security Program grants. In addition, Grants and Training sponsors and
coordinates a major biennial top officials (TOPOFF) exercise drawing in
representatives from a broad sweep of federal, state, and local agencies
and the private sector. In total, Grants and Training has expended more
than $317 million on Urban Areas Security Initiative, State Homeland
Security Program, and TOPOFF exercises since DHS’ formation. It also
provides technical support and sets standards for exercises through its
Homeland Security Exercise and Evaluation Program.

In the context of its extensive overall exercise support program, DHS has
provided little direct support for or attention to exercises relating to food
contamination. Since 2003, DHS has provided direct support for only four
post-harvest food-related exercises through Grants and Training’s
Exercise and Training Division. DHS has sponsored six additional post
harvest food contamination table-top exercises through the Multi-State
Partnership for Security in Agriculture. And while the June 1, 2006
National Exercise Schedule listed a total of 226 exercises over the
following year, it did not register a single post-harvest food-related
exercise.



  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 82 

                         By devoting more attention to post-harvest food exercises, DHS can
                         capitalize on valuable opportunities to gather information and improve
                         preparedness. Participants in the exercises DHS has sponsored reported
                         that their participation paid dividends in a number of areas. Exercise
                         participants develop a richer understanding of the consequences of an
                         event and their related decisions, identify preparedness needs, and learn
                         about alternative responses.

                         In pursuing additional food contamination exercises, DHS should present
                         scenarios that test the quality and extent of coordination that occurs when
                         contamination events cross jurisdictional lines. Contaminated foods are
                         frequently distributed across a broad geographic range before they are
                         consumed. Food contamination incidents like this trigger mobilization
                         and response from widely scattered local and state authorities in agencies
                         with public health, food inspection, and agricultural missions. Research
                         on foodborne illness outbreaks has demonstrated that outbreak
                         investigations involving multiple jurisdictions result in slower responses
                         than those conducted by a single jurisdiction. Food contamination
                         exercises that involve a range of local, state, and federal authorities can
                         help isolate factors that slow multi-jurisdictional response and identify
                         solutions.

                         We recommend that the Under Secretary for Preparedness:

                         Recommendation #13: Expand efforts to sponsor food contamination
                         event exercises with an emphasis on exercises spanning multiple state and
                         local jurisdictions.


                         Consequence Modeling and Simulation

                         Effective modeling and simulation of homeland security incidents can
                         improve our understanding of their consequences, and provide key
                         information support to decision-makers during a related event. Modeling
                         and simulation of food contamination incidents, however, has not
                         developed to the extent desirable. In a 2002 report that advocated
                         additional modeling and simulation of bioterrorism events, the Institute of
                         Medicine reported that major uncertainties in our understanding of the
                         impacts of a biological attack on food remained.98



98
  Institute of Medicine, National Research Council of the National Academies. Countering Bioterrorism: The Role
of Science and Technology. Washington, DC: The National Academies Press, 2002. p. 29.

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 83 

DHS has access to modeling tools and expertise that can be applied to
understand food sector consequences better. DHS currently funds
modeling and simulation efforts of the Critical Infrastructure Protection
Decision Support System, the National Infrastructure Simulation and
Analysis Center, and the National Center for Food Protection and Defense.
These programs have developed promising models in several areas of the
food supply chain. One of the National Labs, for example, has developed
advanced models for the beef and corn production, processing, and
distribution chains, including a wide array of corn-based products.
Meanwhile, the NCFPD has developed food contamination models that
predicted clinical illness within six hours of actual clinical data from a
recent E. coli outbreak.

Collectively, related modeling initiatives have charted a fraction of the
food industry. At the time of our fieldwork, these DHS-sponsored
programs had developed detailed models or contamination scenarios for
only the beef, dairy, corn, and fresh vegetable supply chains. Further,
experts in all three of the programs acknowledged that their models for
these supply chains needed further refinement, and could not account for
the second- and third-order impacts of a major food contamination
incident.

Because DHS models of food supply chains and simulations of food
contamination events are not fully developed, the department cannot fully
appreciate the consequences of an incident of this type. Indeed, even
preliminary simulations of food contamination events affecting most food
products have not been developed. As a result, the department’s ability to
assist decision-makers in many types of food contamination events is
limited.

To understand sector dynamics more fully and provide better decision
support tools for government officials and private sector leaders, existing
food sector models should be expanded to additional product lines and
different logistical pathways, to include the import and export processes.
According to food system modelers we interviewed, existing modeling
efforts could also benefit by a more in-depth understanding of the likely
public health response to a large-scale food contamination event, as well
as variations in this response across jurisdictions.

Consequence modelers should tap into ongoing food-related efforts in
other areas to advance their food sector models and simulations. Modelers
should participate, for instance, in the continuing Strategic Partnership
Program Agroterrorism vulnerability assessments and exercises, in
addition to working closely with biosurveillance programs.

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 84 

                          Modeling efforts undertaken by the Critical Infrastructure Protection
                          Decision Support System, the National Infrastructure Simulation and
                          Analysis Center, and the NCFPD should complement one another. To this
                          end, modelers at the NCFPD and the National Labs should collaborate
                          formally, share information on modeling and simulation techniques, and
                          exchange data on food product distribution, product consumption, and
                          possible public health effects and responses.

                          We recommend that the Under Secretary for Science and Technology, and
                          the Assistant Secretary for Infrastructure Protection:

                          Recommendation #14: Expand food sector modeling to other portions of
                          the food supply chain for the purpose of improving food contamination
                          event consequence assessment and decision support.


                          Situational Awareness

                          A recent end-to-end biodefense assessment conducted by the Homeland
                          Security Council identified early warning and surveillance system
                          development as a top priority for the nation.99 Early warning could
                          significantly reduce morbidity and mortality from a food contamination
                          incident if the public is immediately notified about contaminated food
                          products and less contaminated product is consumed.

                          DHS has the potential to increase situational awareness and early warning
                          capabilities in this area through the National BioSurveillance Information
                          System. A core component of the President’s National Biosurveillance
                          Initiative, the National Biosurveillance Integration System is designed to
                          improve national biosurveillance capabilities by drawing in information
                          from various existing federal information systems. In particular, the
                          National Biosurveillance Integration System is “to combine and analyze
                          information collected from human, animal and plant health, food and
                          environmental monitoring systems.”100 Plans for the National
                          Biosurveillance Integration System call for this information, in turn, to be
                          interpreted by subject matter experts from several agencies, and ultimately
                          melded with intelligence data.

99
   Elsa A. Murano, Under Secretary for Food Safety, USDA, Testimony before the Agriculture, Rural Development,

and Related Agencies Subcommittee on the FY05 Appropriations for Programs Under its Jurisdiction, April 1, 2004. 

and DHS, Budget in Brief, Fiscal Year 2005, p. 51. 

(http://www.dhs.gov/interweb/assetlibrary/FY_2005_BIB_4.pdf)

100
    Office of Management and Budget, The Budget of the United States Government, Fiscal Year 2006, February 7, 

2005, p. 37. 


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 85 

If properly implemented, the National Biosurveillance Integration System
could help speed the characterization of foodborne illness outbreaks,
reduce the detection time following an incident, and aid with agent
identification. CDC officials report that, at present, “unusual but naturally
occurring” food contamination events may not be seen by public health
experts as intentional attacks for some time. When foodborne illness
reports are coupled with intelligence information available to the National
Biosurveillance Integration System, deliberate food contamination events
may be recognized sooner.

The National Biosurveillance Integration System also has singular
potential to identify contamination events affecting both animal and
human health – a capability that could be especially valuable under certain
contamination scenarios. In the case of contamination of foods that are
used in both animal feed and fare for human consumption, for example,
the National Biosurveillance Integration System may be able to accelerate
the process of linking resulting animal and human illnesses and identifying
the point of contamination.

While the National Biosurveillance Integration System has the potential to
improve federal efforts to reduce the effect of adverse food-related events,
at the time of our fieldwork it was not well-positioned to realize this
promise due to its early stage of development. To fulfill its potential in
this area, the National Biosurveillance Integration System must secure the
active participation of experts from other federal agencies in monitoring
incoming information. As of June 2006, however, the National
Biosurveillance Integration System had secured the participation of only
one detailee from a federal agency outside of DHS. Effective surveillance
of food-related information will be aided by the engagement of FDA,
CDC, and Food Safety and Inspections Service staff, none of which have
committed representatives. DHS staff knowledgeable about the program
reported that related negotiations with USDA were nearing completion,
but that discussions with CDC and FDA about sharing information and
providing staff support were still in their early stages.

In addition to securing qualified staff support from other agencies, the
National Biosurveillance Integration System must integrate information
from the full range of federal systems that monitor foodborne illness.
Early plans for the National Biosurveillance Integration System only
reflected the inclusion of information from two food-related health
monitoring systems – a Food Safety and Inspections Service consumer
complaint monitoring system and a system with data from food
laboratories. Without information from other federal foodborne illness

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 86 

                          monitoring systems, the National Biosurveillance Integration System may
                          miss opportunities to identify and link related illness patterns. Other
                          federal foodborne illness monitoring systems like the CDC’s FoodNet,
                          PulseNet, the Electronic Foodborne Outbreak Reporting System, and the
                          USDA’s Food and Agriculture Biosurveillance Integration System may be
                          appropriate for inclusion in the National Biosurveillance Integration
                          System. These systems support the reporting and surveillance of
                          foodborne illnesses, tracking of and information sharing on illness-causing
                          organisms, and health department advisories.101

                          We recommend that the Chief Medical Officer:

                          Recommendation #15: Evaluate the advisability and feasibility of
                          integrating additional federal foodborne illness reporting, surveillance, and
                          detection systems into the National Biosurveillance Integration System.


                          Protective Measure Initiatives

                          Food industry and government representatives reported that there is a need
                          for additional guidance on specific food-related protective measures. One
                          representative of a major food company said that she sought more
                          detailed, specific information on possible protective measures. Other
                          industry representatives said that they wanted guidance on what protective
                          measures to put in place to address their greatest vulnerabilities and sought
                          protective measures guidance they could provide smaller producers and
                          suppliers.

                          DHS has issued food industry protective measure guidance at both the
                          asset and subsystem levels. This guidance could be modified to satisfy the
                          informational needs of food industry representatives more completely.

                          DHS has issued two types of asset-level protective measure guidance
                          products – Buffer Zone Plans and Site Assistance Visits. Buffer Zone
                          Plans are products of the Buffer Zone Protection Program, a joint effort
                          between Grants and Training and the Office of Infrastructure Protection.
                          Public and private infrastructure owners and state and local authorities
                          develop Buffer Zone Plans with the assistance of Office of Infrastructure
                          Protection field staff. The resulting plans identify vulnerabilities
                          associated with facility buffer zones, and analyze and categorize the level
                          of risk linked to these vulnerabilities. Seven Buffer Zone Plans have been

101
   For more information on these systems, see: http://www.cdc.gov/foodnet/, http://www.cdc.gov/pulsenet/, and
http://www.cdc.gov/foodsafety/fsactivities.htm

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 87 

completed on food sector assets. Perhaps because they focus on threats
“outside the fence,” in the areas surrounding facilities, Buffer Zone
Protection Program reports on food sector assets do not always account for
the threat of contaminating food within the facilities. As a result, the
program’s potential for mitigating threats to the food supply is greatly
constrained. In any case, food sector assets represent less than one percent
of the Buffer Zone Protection Program sites DHS had funded as of
January 2006.

Site Assistance Visits combine vulnerability assessment and protective
measure guidance. Between October 2003 and May 2005, DHS
conducted six Site Assistance Visits of food sector assets. These reports
describe general vulnerabilities and mitigation strategies for covered
facilities. Possible biological contamination of food products is discussed
in more detail than in reports produced under the Buffer Zone Protection
Program. As a result, Site Assistance Visit reports are likely to be more
valuable to food industry firms from a protective measures standpoint.
Because they are facility-specific and usually classified, though, they offer
little to the food industry at large.

DHS has also prepared and distributed two types of subsystem-specific
reports relating to food sector protective measures. Potential Indicators of
Terrorist Activity reports offer information about detecting possible
terrorist activity, while Protective Measure reports identify suggested
actions and best practices to diminish potential threats. These reports are
distributed by DHS to state and territorial Homeland Security Offices, and
are to be shared, in turn, with asset owners and law enforcement
personnel.

Protective Measure and Potential Indicators of Terrorist Attack reports we
reviewed were not fully developed in the area in which they had the
potential to offer most to industry – in the recommendation of customized
protective measures. The protective measures guidance we reviewed often
proposed generic security measures and provided little or no information
about specific steps that could be taken by firms with facilities in a
particular subsector. In cases in which more specific guidance was
provided, it was largely derivative. A Protective Measures report on the
transportation of food and agricultural commodities, for example,
repeatedly referred to published FDA and USDA guidance for transporters
and added little new information. While these documents might provide
useful information to law enforcement on the basic elements of food
industry subsystems, information of this kind is not valuable to industry
representatives who already have an intimate understanding of their
operations. Perhaps as a result, even though these documents were

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 88 

distributed with instructions to share them widely, private sector experts
we spoke with reported very limited familiarity with them.

DHS should use its relationships with the Sector Specific Agencies, other
government agencies, and industry to develop vibrant informational and
analytical products that meet food industry interests and needs. To this
end, DHS could identify food industry protective measure models and best
practices and disseminate these more widely to improve the protective
environment across the food industry. These products could also highlight
useful technologies and methods to be applied to improve security at the
operational level.

DHS could develop written products that fit this mold by building on
asset-specific knowledge and tapping into ongoing assessment efforts.
Although a senior Office of Infrastructure Protection manager said that no
additional Site Assistance Visits are planned for the food sector in the
foreseeable future, improved protective measures guidance could also
glean from Site Assistance Visit reports covering new parts of the sector.
Additional supporting analysis could be derived from work under the
Strategic Partnership Program Agroterrorism program, the Homeland
Infrastructure Threat and Risk Analysis Center, the National Center for
Food Protection and Defense, and further engagement with the USDA,
FDA, and the private sector.

We recommend that the Assistant Secretary for Infrastructure Protection:

Recommendation #16: Continue to develop and disseminate information
about food subsystem-specific operational protective measures and
operational best practices in collaboration with FDA and USDA.




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 89 

Conclusion
             While there is no consolidated DHS leadership attention to food defense
             and critical infrastructure protection, one unit in the department monitors
             and rates the food sector’s progress in achieving some related objectives.
             The Office of Infrastructure Protection monitors the progress of critical
             infrastructure protection efforts in each of the federally recognized critical
             infrastructure sectors. The Office of Infrastructure Protection’s evaluation
             of sector progress is captured in part in a sector report card, that tracks
             basic progress in laying the foundation for future critical infrastructure
             protection success in the sector. In its December 2005 report card, the
             Office awarded the food and agriculture sectors the highest performance
             rating in all three of its major sector status categories, and a “green light”
             for 19 of 22 sector metrics. Office of Infrastructure Protection officials
             have added to this warm assessment with statements that the food and
             agriculture sectors have “created the blueprint” in the critical
             infrastructure protection arena. This positive assessment does not coincide
             with the difficulties we encountered.

             To improve overall U.S. food defense and critical infrastructure
             protection, DHS must execute its related responsibilities more effectively.
             Disjointed DHS work on defense of the food supply caused by the absence
             of a clear leader brought confusion in cases in which DHS made good
             faith efforts to work with partners. Confusion also prevailed when
             partners or potential partners made efforts to reach out to DHS on
             information sharing, consultation, and other coordination efforts. The
             recommendations in this report are designed to improve the department’s
             internal and external food sector activities. By taking the steps
             recommended, DHS will be able to more fully address the vulnerabilities
             of the nation’s food sector.




               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                          Page 90 

Management Comments and OIG Analysis
             In August 2006, we shared a draft of this report with the Offices of
             Infrastructure Protection, Grants and Training, Chief Medical Officer,
             S&T, and CBP, and subsequently met with staff in each of these units to
             gather their feedback. Each office provided general and technical
             comments on the draft report, and responses to the draft’s
             recommendations. The Preparedness Directorate consolidated these
             comments and responses and provided them to us in the last days of
             November. We considered each of these comments and responses, and
             additional documentation provided, and made responsive edits and
             additions to some sections of the report.

             Since we issued our draft report for the department’s review and comment,
             we have removed one recommendation (formerly recommendation #6). In
             it, we had recommended that the department publish a final rule on its
             Protected Critical Infrastructure Information program. Shortly after we
             issued our draft report, the department published its final rule.

             In its appraisal of our remaining recommendations to enhance DHS’
             performance and improve the security of the food supply, the department
             generally concurred. Of this report’s 16 recommendations, the department
             concurred with 12. Of the remaining 4 recommendations, one has been
             amended in line with the department’s comments, and we anticipate that
             DHS will concur with it in its final form. The department did not concur
             with the remaining 3 recommendations and we have not amended them.

             We will continue to monitor the department’s progress in implementing
             these recommendations, and will close them when the department has
             established that it has taken appropriate corrective actions.

             We have summarized the department’s responses to this report’s
             recommendations below, along with our analysis.

             Recommendation #1: Identify a single senior DHS official to be
             accountable for coordinated implementation of all DHS food sector
             responsibilities, and provide this official with clear authorities and
             adequate staffing to perform this function.

             DHS Response: The department expressed general agreement with this
             recommendation, and indicated that this senior manager would be “most
             appropriately located” within the Preparedness Directorate. In the
             department’s view, this senior manager should be at the Deputy Assistant
             Secretary level or higher so that he or she is at a level commensurate with

               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                          Page 91 

similar leaders at USDA and FDA. Further, the department acknowledged
the need for this official to have the authority to oversee the coordination
of efforts within several DHS components.

OIG Evaluation: We believe that the effective implementation of this
recommendation will help enhance DHS performance in the areas of food
defense and critical infrastructure protection. We look forward to the
designation of a senior DHS official to be accountable for coordinated
implementation of all DHS food sector responsibilities. Upon his or her
designation, we will assess the appropriateness of the authorities and staff
support he or she has been provided. This recommendation is resolved –
open.


Recommendation #2: Restore communication with the Food ISAC by
re-establishing a DHS point of contact and creating food-industry-specific
products for ISAC distribution.

DHS Response: The department did not agree to restore communication
with the ISAC. DHS responded that the ISAC had been subsumed into the
Sector Coordinating Council, and that the Sector Coordinating Council is
“responsible for the appropriate means or entity for information sharing.”
The department also wrote that the ISAC Council and Partnership for
Critical Infrastructure Security, which includes Food and Agriculture
Sector Coordinating Council representation, were currently working to
“determine the most appropriate information sharing framework for the
sector.”

While the department took issue with restoring communication with the
Food ISAC, it noted that it has created food and agriculture related
products in the past and said it will continue to do so. In particular, the
department highlighted three Homeland Infrastructure Threat and Risk
Analysis Center product types it will use in the future to address private
infrastructure stakeholders, including those in the food and agriculture
sectors.

OIG Evaluation: The organization that manages the Food ISAC
participates in the Sector Coordinating Council, but that should not
preclude it from having a productive role outside of participation on the
Council. Nor should its engagement with the Sector Coordinating Council
constitute a reason not to maintain a point of contact with it. That the
department has resisted a step as basic as maintaining a point of contact
with the Food ISAC is troubling.


  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 92 

Communication with the ISAC continues to be important because the
other information sharing mechanisms DHS has established are still in
early stages of development. Whereas the reach of other DHS information
sharing methods remains limited, the ISAC can potentially access a
significantly larger audience. At minimum, if DHS were to leverage this
greater informational reach, it could improve communication with the
sector in a crisis. This recommendation is unresolved.


Recommendation #3: Seek out improvement in DHS’ relationship with
food sector partners through:
   • 	 Better attention to the demands and information flow related to
       coordinating council comments on DHS initiatives;
   • 	 Higher level DHS official attendance at council meetings; and
   • 	 Increased responsiveness to council requests for information,
       briefings, and presentations by other DHS components.

DHS Response: DHS concurred with this recommendation and provided
two examples of its work in this area: discussions with the Sector
Coordinating Council about the content of the Homeland Security
Information Network, and the Assistant Secretary’s attendance at sector
council meetings.

OIG Evaluation: In reviewing the department’s progress in this area, we
will seek specific information about measures in each of the three areas for
improvement identified in the recommendation. This recommendation is
resolved – open.


Recommendation #4: Expand National Infrastructure Coordinating
Center outreach efforts to include outreach targeted to the food sector, and
actively seek to increase information flow related to the food sector.

DHS Response: The department concurred with this recommendation,
and highlighted recent National Infrastructure Coordinating Center
outreach and information sharing activities that touch on the food and
agriculture sector. According to the department, the National
Infrastructure Coordinating Center will work through the Homeland
Security Information Network Food and Agriculture portal to facilitate
information sharing in areas of interest to the Sector Coordinating
Council. According to the department, FDA and USDA are encouraged to
send representatives to the National Infrastructure Coordinating Center
during major incidents and events.


  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 93 

                            OIG Evaluation: The NIPP describes the National Infrastructure
                            Coordinating Center as “a centralized mechanism and process for
                            information sharing and coordination between the government, [Sector
                            Coordinating Councils], [Government Coordinating Councils], and other
                            industry partners.”102 In order for the Center to effectively serve in this
                            capacity, its interaction with the sector must be more proactive. In
                            reviewing the department’s corrective action plan, we look forward to
                            learning about National Infrastructure Coordinating Center outreach
                            activities that specifically target the food sector. In addition, we hope to
                            learn the details of new efforts to increase information flow to the food
                            sector. This recommendation is resolved-open.


                            Recommendation #5: Evaluate the feasibility of providing financial
                            support for and otherwise facilitate detailing state or local government and
                            private sector representatives to support Office of Infrastructure Protection
                            food sector efforts with an emphasis on Homeland Security Information
                            System’s Food and Agriculture Portal.

                            DHS Response: The department concurred with this recommendation,
                            and noted the Government Coordinating Council’s call for state assistance
                            and the Assistant Secretary for Infrastructure Protection’s support for this
                            action.

                            OIG Evaluation: The department concurs with this recommendation and
                            some responsive efforts have been undertaken. In evaluating the
                            department’s corrective action plan we will consider the Office of
                            Infrastructure Protection’s progress in enlisting the support of a state
                            representative in this area. We will also assess whether the Office of
                            Infrastructure Protection has studied the feasibility of detailing local
                            government and private sector representatives with ties to the food sector.


                            Recommendation #6: Develop and maintain, in collaboration with the
                            Office of Grants and Training and Office of Infrastructure Protection, a
                            comprehensive report on DHS food sector research and education
                            initiatives to be shared with FDA and USDA on a regular basis.

                            DHS Response: The department agreed with this recommendation. In its
                            response, the department wrote that S&T and the Offices of Grants and
                            Training and Infrastructure Protection will develop comprehensive annual
                            reports on food and agriculture sector research and education initiatives,

102
      DHS, NIPP, June 30, 2006, p. 64.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 94 

                         and that these reports will be shared with FDA and USDA. These reports
                         will build off an existing report on food and agriculture sector education
                         initiatives developed by Grants and Training’s Agriculture Working
                         Group.

                         OIG Evaluation: The department’s plan to develop a comprehensive
                         annual report on food and agriculture research and education initiatives
                         fits squarely with our vision in this area. We will close this
                         recommendation when we receive this report and can establish that it has
                         been provided to FDA and USDA. Until then, this recommendation is
                         resolved – open.


                         Recommendation #7: Develop a grant process to support non-urban,
                         multi-jurisdictional preparedness programs on a regional level.

                         DHS Response: DHS did not concur with this recommendation. The
                         department wrote that it could not comply with this recommendation
                         because it did not have congressional authorization to alter the current
                         Urban Areas Security Initiative program to support non-urban, multi-
                         jurisdictional preparedness programs on a regional basis.

                         OIG Evaluation: The department’s response appears to reflect a
                         misreading of our recommendation. We did not recommend any changes
                         to the Urban Areas Security Initiative, or the development of a new grant
                         program. Instead, we recommended that Grants and Training develop a
                         process for non-urban, regional preparedness programs to compete for
                         funds. We believe that improvements in this regard are consistent with the
                         stated priorities of the National Preparedness Goal, and congressional
                         interest in encouraging support for regional initiatives.103 In a future
                         response, Grants and Training can provide evidence that it has created a
                         grant process more accessible to regional, non-urban programs by making
                         adjustments in the State Homeland Security Program grant application
                         process.


                         Recommendation #8: Work with HHS and USDA to prepare an
                         integrated food defense budget plan for Fiscal Year 2009 using a process
                         that satisfies Homeland Security Presidential Directive 9 requirements.



103
  H.R. Conf. Rep. No. 109-241, at 69 (2005) for FY 2006; H.R. Conf. Rep. No. 109-699, at 153 (2006) for FY
2007.

                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 95 

DHS Response: DHS did not concur with this recommendation in its
original form, and asserted that it called for activities beyond the
department’s authority. The department observed that implementation of
this Homeland Security Presidential Directive 9 provision called for the
agreement and cooperation of government agencies outside of DHS –
USDA and FDA, and noted that Homeland Security Council initially
directed DHS to delay implementation of this requirement.
Notwithstanding these concerns, DHS reported that it will submit an
integrated budget plan for defense of the U.S. food system for FY 2009.

OIG Evaluation: We have amended this recommendation to properly
reflect our aim that the department satisfy its obligations under Homeland
Security Presidential Directive 9. We now recommend that the
department work with HHS and USDA to prepare an integrated food
defense plan. In addition, we have changed the fiscal year we recommend
the department to take this action from FY 2008 to FY 2009. Because the
FY 2008 budgeting process is now drawing to a close, in our judgment it
is no longer reasonable to expect DHS to comply with this requirement for
that fiscal year.

We expect to learn from DHS’ corrective action plan whether it concurs
with the new wording of this recommendation, and look forward to
reviewing evidence of the department’s collaborative work to prepare an
integrated food defense budget plan. In the meantime, we consider this
recommendation unresolved.


Recommendation #9: Expedite the review of existing food sector
assessments to determine their suitability for use in comparative risk
analysis, and collaboratively identify the role of these assessments in the
sector-specific risk methodology.

DHS Response: DHS management concurred with this recommendation.
The department acknowledged present consensus among five federal
agencies that CARVER+Shock is currently the base available tool for use
in the food and agriculture sector. It also noted that S&T is funding the
development of a new assessment tool for the sector.

OIG Evaluation: The department’s acknowledgement of
interdepartmental consensus that CARVER+Shock is presently the “best
available” assessment tool for use in the sector is an important step. We
expect that the department will make consistent use of CARVER+Shock
in its future sector assessment efforts until a new tool is developed. S&T’s
support for the development of a new sector-specific assessment tool is

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 96 

also a welcome development. We look forward to reviewing progress in
this area in the coming year. This recommendation is resolved - open.


Recommendation #10: Pursue the recruitment, hiring, and retention of
several additional staff with expertise in matters of post-harvest food
defense.

DHS Response: DHS agreed with this recommendation, but took issue
with its exclusive focus on the cultivation of expertise in the post-harvest
food arena. The department recognized a need for additional staff with
experience in the food and agriculture sector, and stressed that these
additional staff will have to engage both pre- and post-harvest aspects of
the sector. It also wrote that efforts were underway to expand DHS
expertise in the sector by “leveraging” Food and Agriculture Government
and Sector Coordinating Council expertise, and through a Homeland
Infrastructure Threat and Risk Analysis Center initiative to designate
private sector specialists to work with the program.

OIG Evaluation: We appreciate the rich interconnectedness of pre- and
post-harvest aspects of the food and agriculture sectors and note in this
report that together they represent a complex system characterized by
numerous interdependencies. Despite the vital linkages between these
parts of the sector, they are also distinct in important ways and can be
considered separately to positive effect. The pre- and post-harvest parts of
the sector are occupied by different industry groups, and have many
distinct stakeholders. This is evident in the structure of the Sector
Coordinating Council, which has separate subcouncils for pre-harvest
animal and plant production and agricultural inputs. Perhaps more
importantly from a human resources standpoint, however, is that they
often rely on different skill sets and expertise. Thus, veterinary expertise
does not clearly translate into a working knowledge of the food sciences
and related biochemistry.

This recommendation was not intended to suggest that DHS’ pre- and
post-harvest balance of expertise is askew. Indeed, we could not arrive at
such a judgment without first evaluating the department’s pre-harvest staff
expertise; something beyond the scope of this review. Rather, this
recommendation relates our clear sense that DHS has insufficient staff
expertise in the post-harvest arena.

In reviewing the department’s 90-day action plan, we expect to learn about
specific steps the department has taken to recruit, hire, and retain staff
with post-harvest food sector expertise. Until we can confirm that the

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 97 

department has taken action in these areas, this recommendation will be
resolved – open.


Recommendation #11: Consider the elaboration of food-specific criteria
and guidelines for Customs-Trade Partnership Against Terrorism food
industry firms in collaboration with FDA and USDA.

DHS Response: DHS did not concur with this recommendation. In
disagreeing with it, the department held that implementation of this
recommendation would shift the Customs-Trade Partnership Against
Terrorism away from its current “macro” focus and move toward a
program dealing with the safety of products in individual shipping
containers. According to the department, the program is intended to
improve supply chain security, but not attest to the safety of individual
products shipped through the supply chain. The department also writes
that the program’s security specialists do not have the knowledge or skills
to identify and prevent food adulteration or the introduction of animal or
zoonotic diseases in the food manufacturing process.

OIG Evaluation: According to the Customs-Trade Partnership Against
Terrorism strategic plan, the program supports CBP’s priority mission of
preventing terrorists and terrorist weapons from entering the country. As
this report discusses, intentionally contaminated foods can be used as a
weapon by terrorists. Because food products could be contaminated at
different points in the supply chain before they arrive in the United States,
and because the Customs-Trade Partnership Against Terrorism is designed
to ensure that partnering firms improve their supply chain security
practices, the program should consider measures to reduce the risk of a
terrorist attack on imported foods.

Current Customs-Trade Partnership Against Terrorism security criteria
can be refined to address this risk more effectively. CBP can use existing
USDA and FDA non-mandatory security guidance for food importers to
help refine the program’s security criteria or develop separate guidance for
program participants who handle food shipments. USDA and FDA
standards in this area provide more detailed physical security, personnel
oversight, and operational management guidance than existing Customs-
Trade Partnership Against Terrorism criteria. We anticipate that if CBP
were to implement changes in these areas, current CBP security specialists
would be able to monitor these new criteria without any additional
knowledge or technical expertise.



  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 98 

CBP can satisfy this recommendation by demonstrating that it has
weighed adjustments to its Customs-Trade Partnership Against Terrorism
criteria in light of the risk of the deliberate contamination of imported
foods. To do so, CBP would have to study possible refinements to its
current Customs-Trade Partnership Against Terrorism criteria in light of
USDA and FDA work in the area. CBP could then conduct cost-benefit
analyses and risk assessments to determine whether it is appropriate to
adopt any related refinements. CBP could then determine whether to
apply these new criteria uniformly to all program participants or simply
those handling food products. Because the department has indicated that it
is unwilling to consider elaborating guidance and criteria to respond to this
risk, however, this recommendation is currently unresolved.


Recommendation #12: Study ways to integrate food defense awareness
into existing transportation security programs fully and consider additional
research to improve the security of food in transit.

DHS Response: The department concurred with this recommendation,
but recommended that it be redirected to the Transportation Security
Administration.

OIG Evaluation: We have directed this recommendation to the Under
Secretary for Preparedness because of the Preparedness Directorate’s role
in funding and managing training and transportation security grant
programs, including Highway Watch.

In reviewing the department’s corrective action plan for this
recommendation, we will look for evidence that the department has
examined ways to expand awareness of food security in the context of
transportation security programs. We will also look for indications that
the department has considered research initiatives related to food in
transit. This recommendation is resolved – open.


Recommendation #13: Expand efforts to sponsor food contamination
event exercises with an emphasis on exercises spanning multiple state and
local jurisdictions.

DHS Response: DHS concurred with this recommendation and noted the
need for exercises of this type to be coordinated with USDA and FDA.

OIG Evaluation: The department has embraced this recommendation.
We hope to review evidence of DHS support for exercises of this kind,

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 99 

including exercise after-action reports, when we receive the department’s
corrective action plan. This recommendation is resolved – open.


Recommendation #14: Expand food sector modeling to other portions of
the food supply chain for the purpose of improving food contamination
event consequence assessment and decision support.

DHS Response: DHS concurred with this recommendation, and
highlighted additional work the department has sponsored in this area.

OIG Evaluation: We look forward to learning more about the
department’s modeling of additional portions of the food supply chain,
when available. This recommendation is resolved – open.


Recommendation #15: Evaluate the advisability and feasibility of
integrating additional federal foodborne illness reporting, surveillance, and
detection systems into the National Biosurveillance Integration System.

DHS Response: DHS concurred with this recommendation.

OIG Evaluation: The department’s receptiveness to this
recommendation is a positive sign. We will monitor progress in this area
during the course of our ongoing review of the National Biosurveillance
Integration System. Before closing this recommendation, we will look for
evidence that National Biosurveillance Integration System program
managers have fully considered integrating the food-related information
systems we reference in this report. For now, this recommendation is
resolved – open.


Recommendation #16: Continue to develop and disseminate information
about food subsystem-specific operational protective measures and
operational best practices in collaboration with FDA and USDA.

DHS Response: DHS concurred with this recommendation and indicated
that efforts in this area are currently being pursued through a collaborative
effort between the Government and Sector Coordinating Councils.

OIG Evaluation: We welcome the active engagement of public and
private sector stakeholders in the process, and look forward to reviewing
DHS contributions to this effort. This recommendation is currently
resolved - open.

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 100 

              Appendix A
              Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
              We conducted this review to determine whether DHS has effectively
              executed its responsibilities in the areas of food defense and critical
              infrastructure protection. We framed our review around three objectives:
              identifying DHS’ related responsibilities, determining how the department
              had operationalized those responsibilities, and assessing the quality of
              related programs and initiatives. To supplement our assessments in this
              area, we solicited expert opinions from representatives of other federal and
              state agencies, the private sector, and academia.

              Our fieldwork was conducted from November 2005 to April 2006. During
              this period, we conducted more than 80 interviews. Among those
              interviewed were a number of staff and contractors working for S&T, the
              Office of Infrastructure Protection, Office of Grants and Training, CBP,
              and Office of the Chief Medical Officer. We also met with representatives
              of departments of public health and agriculture from six states and
              localities, and personnel from other federal agencies including the USDA,
              FDA, CDC, FBI, and Office of the Director of National Intelligence.
              Finally, we interviewed academics and researchers in the food security
              and defense arena, quality assurance and security experts from food
              industry firms, and officials from industry associations representing food
              processors, distributors, retailers, and food service concerns. To ensure
              that we received the perspectives of representatives of a range of private
              and public sector views, we spoke with representatives of all four Sector
              Coordinating Council subcouncils pertaining to post-harvest food, as well
              as representatives of seven of the organizations on the Food and
              Agriculture Government Coordinating Council.

              We supplemented these interviews with extensive document review and
              analysis efforts. We studied DHS concept papers, grants, statements of
              work, project schedules, review panel analyses, and performance
              information. We also reviewed government threat assessments,
              vulnerability assessments, consequence assessments, protective plans for
              facilities, and security guidelines. Lastly, we examined reports from
              GAO, the Congressional Research Service, the Homeland Security
              Institute, and academic and research institutions, and reviewed relevant
              speeches, testimony, and news articles.

              This review was conducted under the authority of the Inspector General
              Act of 1978, as amended, and according to the Quality Standards for
              Inspections issued by the President’s Council on Integrity and Efficiency.


                DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                           Page 101 

            Appendix B
            Recommendations



Recommendations
            Recommendation #1: Identify a single senior DHS official to be
            accountable for coordinated implementation of all DHS food sector
            responsibilities, and provide this official with clear authorities and
            adequate staffing to perform this function.

            Recommendation #2: Restore communication with the Food ISAC by
            re-establishing a DHS point of contact and creating food-industry-specific
            products for ISAC distribution.

            Recommendation #3: Seek out improvement in DHS’ relationship with
            food sector partners through:
                 • 	 Better attention to the demands and information flow related to
                     coordinating council comments on DHS initiatives;
                 • 	 Higher level DHS official attendance at council meetings; and
                 • 	 Increased responsiveness to council requests for information,
                     briefings, and presentations by other DHS components.

            Recommendation #4: Expand National Infrastructure Coordinating
            Center outreach efforts to include outreach targeted to the food sector, and
            actively seek to increase information flow related to the food sector.

            Recommendation #5: Evaluate the feasibility of providing financial
            support for and otherwise facilitate the detailing of state or local
            government and private sector representatives to support Office of
            Infrastructure Protection food sector efforts with an emphasis on the
            Homeland Security Information Network’s Food and Agriculture Portal.

            Recommendation #6: Develop and maintain, in collaboration with
            Office of Grants and Training and Office of Infrastructure Protection, a
            comprehensive report on DHS food sector research and education
            initiatives to be shared with FDA and USDA on a regular basis.

            Recommendation #7: Develop a grant process to support non-urban,
            multi-jurisdictional preparedness programs on a regional level.

            Recommendation #8: Work with HHS and USDA to prepare an
            integrated food defense budget plan for Fiscal Year 2009 using a process
            that satisfies Homeland Security Presidential Directive 9 requirements.




              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                         Page 102 

Appendix B
Recommendations



Recommendation #9: Expedite the review of existing food sector
assessments to determine their suitability for use in comparative risk
analysis, and collaboratively identify the role of these assessments in the
sector-specific risk methodology.

Recommendation #10: Pursue the recruitment, hiring, and retention of
several additional staff with expertise in matters of post-harvest food
defense.

Recommendation #11: Consider the elaboration of food-specific criteria
and guidelines for Customs-Trade Partnership Against Terrorism food
industry firms in collaboration with FDA and USDA.

Recommendation #12: Study ways to integrate food defense awareness
into existing transportation security programs fully and consider additional
research to improve the security of food in transit.

Recommendation #13: Expand efforts to sponsor food contamination
event exercises with an emphasis on exercises spanning multiple state and
local jurisdictions.

Recommendation #14: Expand food sector modeling to other portions of
the food supply chain for the purpose of improving food contamination
event consequence assessment and decision support.

Recommendation #15: Evaluate the advisability and feasibility of
integrating additional federal foodborne illness reporting, surveillance, and
detection systems into the National Biosurveillance Integration System.

Recommendation #16: Continue to develop and disseminate information
about food subsystem-specific operational protective measures and
operational best practices in collaboration with FDA and USDA.




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 103 

              Appendix C
              Management Comments on the Draft Report



Management Comments on the Draft Report 





                DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                           Page 104 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 105 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 106 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 107 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 108 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 109 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 110 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 111 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 112 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 113 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 114 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 115 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 116 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 117 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 118 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 119 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 120 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 121 

Appendix C
Management Comments on the Draft Report




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 122 

                    Appendix D
                    Farm-to-Table Continuum



Farm-to-Table Continuum
                    This graphic provides a general overview of food processing across the
                    production and supply chain. It is not intended to represent all stages or
                    specific processing steps for all foods, rather the important links between
                    the food and transportation sectors are noted at each phase of the
                    continuum.

                              Figure 2.                   Farm-to Table Continuum

                             Overview of the Farm-to-Table Continuum


                    Crops & Plant                                                                    Livestock &
                     Production                                                                    Animal Production


     Pre-Harvest
                                                           Harvest   Slaughter
     Post-Harvest


                                                                Storage


                                                               Processing
                                         Transportation




                                                                                  Transportation




                                                               Packaging


                                                                Storage


                                                               Wholesale


                                   Retail                                        Food Service




                                                               Consumer


                      DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                 Page 123 

               Appendix E
               Federal Food Sector Regulatory Oversight



Federal Food Sector Regulatory Oversight
               Nine federal agencies have a regulatory role in the food sector. FDA and
               USDA’s Food Safety and Inspections Service are the two primary entities
               with an oversight role. Summaries of the roles played by each of these
               nine agencies are provided below, as are examples of foods regulated by
               FDA and Food Safety and Inspections Service.


    Federal Food Regulatory Agencies
               Agriculture Marketing Service, USDA
               The Agricultural Marketing Service includes six commodity programs-
               Cotton, Dairy, Fruit and Vegetable, Livestock and Seed, Poultry, and
               Tobacco. The programs employ specialists who provide standardization,
               grading and market news services for those commodities. The agency
               enforces such federal laws as the Perishable Agricultural Commodities
               Act and the Federal Seed Act.

               Alcohol and Tobacco Tax and Trade Bureau, Department of the Treasury
               Established as part of the Homeland Security Act, this new bureau
               assumed some functions historically done by the Bureau of Alcohol,
               Tobacco, and Firearms. The agency also collects alcohol, tobacco,
               firearms and ammunition excise taxes, to ensure that these products are
               labeled, advertised and marketed in a legal manner.

               Customs and Border Protection, DHS
               In the discharge of its import protection role, CBP has a variety of contact
               with the food and agriculture sector. As discussed in this report, CBP
               works with FDA and USDA on import targeting. CBP also conducts
               inspections of agriculture imports, a function that was performed by the
               Animal and Plant Health Inspection Service prior to the creation of DHS.

               Environmental Protection Agency
               Although the Food and Drug Administration regulates most aspects of
               food production and consumption in the United States, the EPA is
               responsible for regulating the use of pesticides on food. In cooperation
               with the states, the agency carefully regulates pesticides to ensure that
               their use does not compromise food safety. In particular, the federal
               pesticide program is designed to ensure that pesticides can be used without
               posing harm children and infants. The agency also provides information



                 DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                            Page 124 

Appendix E
Federal Food Sector Regulatory Oversight



to the public about possible food contamination dangers, such as mercury
in fish.

Federal Trade Commission
The agency’s enforcement of truth-in-labeling laws examines the claimed
benefits of food and other commodities. Additionally, review of anti-
competitive practices focuses on key aspects of the economy, like the food
sector.

Food and Drug Administration, HHS
FDA regulates most of the food consumed in the United States. FDA’s
inspection activities are not continuous, unlike the Food Safety and
Inspections Service. Another major FDA mission is to protect the safety
and wholesomeness of food. The agency's scientists test samples to see if
any substances, such as pesticide residues, are present in unacceptable
amounts. If contaminants are identified, FDA takes corrective action.
FDA also sets labeling standards to help consumers know what is in the
foods they buy. FDA also ensures that medicated feeds and other drugs
given to animals raised for food do not threaten consumer health.

Food Safety and Inspection Service, USDA
The Food Safety and Inspections Service performs continuous onsite
inspection of U.S. meat, poultry, and processed egg facilities. The agency
sets requirements for meat and poultry labels and for certain slaughter and
processing activities, such as plant sanitation and thermal processing. The
Food Safety and Inspections Service tests for microbiological, chemical,
and other types of contamination and conducts epidemiological
investigations in cooperation with CDC. In addition, the Food Safety and
Inspections Service conducts enforcement activities to address situations
where unsafe, unwholesome, or inaccurately labeled products have been
produced or marketed. Another important Food Safety and Inspections
Service activity is the re-inspection of imported products.

Grain Inspection, Packers and Stockyards Administration, USDA
This agency facilitates the marketing of livestock, poultry, meat, cereals,
oilseeds, and related agricultural products, and promotes fair and
competitive trading practices for the overall benefit of consumers and
American agriculture.

National Marine Fisheries Service, National Oceanic and Atmospheric
Administration, Department of Commerce
Under this agency, a voluntary seafood inspection program is conducted.
The program provides vessel and plant sanitation, product inspection,

  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 125 

          Appendix E
          Federal Food Sector Regulatory Oversight



          grading, certification, and other services. Participants may use official
          marks on compliant products, indicating the items were federally
          inspected. Additional work includes reviewing compliance with fisheries
          regulations and reduction of wasteful fishing practices.

Complex Web of Federal Food Oversight
          One challenge in coordinating food defense is the division of regulatory
          responsibility between FDA and the Food Safety and Inspections Service
          on food safety inspections. The absence of a single food safety agency has
          helped foster the development of overlapping and close connections in
          regulating the post-harvest food sector. The different intensity of effort in
          FDA and Food Safety and Inspections Service inspection regimens can
          also result in differences in the vulnerability of food products.

              Figure 3.      Regulatory Oversight of Sample Food Products

                                 Sample of Foods Regulated
                                    by USDA and FDA

                                   USDA                           FDA
                          ¾ Domesticated                 ¾ Wild turkey
                            turkey
                          ¾ Chicken noodle               ¾ Vegetable soups
                            soups
                          ¾ Chicken nuggets              ¾ Alligator nuggets
                          ¾ Meatball                     ¾ Mushroom
                            spaghetti sauce                spaghetti sauce
                          ¾ Pepperoni pizzas             ¾ Cheese pizzas
                          ¾ Open-faced                  ¾ Closed-faced
                            ham sandwiches                ham sandwiches
                          ¾ Processed eggs              ¾ Shell eggs
                          ¾ Beef jerky                  ¾ Venison jerky
                          ¾ Beef                        ¾ Bison meat




            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                       Page 126 

                           Appendix F
                           Critical Infrastructure Sectors and Designated Sector-Specific Agencies



Critical Infrastructure Sectors and Designated
Sector-Specific Agencies
                    Table 4.      Critical Infrastructure Sectors and Sector-Specific Agencies

                                             Critical Infrastructure Sectors
                         Critical Infrastructure Sector                          Sector-Specific Agency
                 Agriculture and Food*                                      USDA and HHS/FDA
                 Banking and Finance                                        Department of the Treasury
                 Chemical                                                   DHS
                 Commercial Facilities**                                    DHS
                 Dams**                                                     DHS
                 Defense Industrial Base                                    Department of Defense
                 Emergency Services                                         DHS
                 Energy                                                     Department of Energy
                 Government Facilities**                                    DHS
                 Information Technology                                     DHS
                 National Monuments and Icons**                             Department of the Interior
                 Nuclear Reactors, Materials, and Waste**                   DHS
                 Postal and Shipping                                        DHS
                 Public Health and Healthcare                               HHS
                 Telecommunications                                         DHS
                 Transportation                                             DHS
                 Water                                                      Environmental Protection Agency
                  * 	 Agriculture and Food were initially treated as separate infrastructure sectors.104 In February
                      2003, however, The National Strategy for the Physical Protection of Critical Infrastructures
                      and Key Assets redefined the two as a single infrastructure sector.105
                  **	 These sectors are considered key assets or key resources rather than critical infrastructure
                      sectors.




104
    Executive Office of the President, Office of Homeland Security, National Strategy for Homeland Security, 

July 2002, p. 30. 

105
    Executive Office of the President, Office of Homeland Security, National Strategy for the Physical Protection of

Critical Infrastructures and Key Assets, February 2003, p. xii. 


                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 127 

                            Appendix G
                            DHS Food Sector Responsibilities



DHS Food Sector Responsibilities
                   Table 5.          DHS Food Sector Responsibilities and Their Origins

                        DHS Responsibilities in Food Defense and Critical Infrastructure Protection

            Role                                          Responsibility                                                Statutory Basis
                                 Critical Infrastructure Protection Management and Coordination
     Lead                ¾ Lead, integrate, and coordinate critical infrastructure protection      Homeland Security
                           efforts by federal, state and local governments, and the private sector Presidential Directive 7 (12)
                         ¾ Establish uniform policies, approaches, guidelines, and                 Homeland Security
                           methodologies for infrastructure protection and risk management         Presidential Directive 7 (14)
                         ¾ Outline critical infrastructure protection goals, objectives,           Homeland Security
                           milestones, and key initiatives                                         Presidential Directive 7 (27)
                         ¾ Establish metrics and criteria for related programs                     Homeland Security
                                                                                                   Presidential Directive 7 (14)
     Collaborative       ¾ Submit integrated budget plan for U.S. food system defense              Homeland Security
                                                                                                   Presidential Directive 9 (26)
     Support             ¾ Provide specific expertise and assistance in addressing critical        NIPP , p. 18-19
                           infrastructure protection
                                                     Asset Identification & Mapping
     Lead                ¾ Identify critical infrastructure and maintain a national inventory of Homeland Security
                           critical infrastructure assets                                          Presidential Directive 7 (13);
                                                                                                   NIPP , p. 31
                         ¾ Develop a program to geospatially map, image, analyze, and sort         Homeland Security
                           critical infrastructure                                                 Presidential Directive 7 (31)
                                         Information Sharing, Threat Awareness, & Warning
     Lead                ¾ Establish systems, mechanisms, and procedures to share critical         Homeland Security
                           infrastructure threat information with federal, state and local         Presidential Directive 7 (28)
                           governments, and the private sector
                         ¾ Establish an effective information sharing and analysis mechanism Homeland Security
                           for food and agriculture                                                Presidential Directive 9 (19)
                         ¾ Develop a national indications and warnings architecture for            Homeland Security
                           infrastructure protection                                               Presidential Directive 7 (33)
                         ¾ Identify and assess the nature and scope of threats, provide threat     NIPP , p. 19
                           scenarios and assessments,
                         ¾ Develop biological threat awareness capacity for detection of attacks Homeland Security
                           on food                                                                 Presidential Directive 9 (10)
                         ¾ Conduct assessments of the evolving biological weapons threat           Homeland Security
                                                                                                   Presidential Directive 10
     Collaborative       ¾ Develop and enhance intelligence operations and analysis                Homeland Security
                           capabilities for the food sector                                        Presidential Directive 9 (9)
                         ¾ Facilitate information sharing on physical and cyber threats and        Homeland Security
                           incidents                                                               Presidential Directive 7 (25)
     * Homeland Security Presidential Directive 10 paragraph citations refer to paragraphs in the published version of the document.
     (http://www.whitehouse.gov/homeland/20040430.html)




                                DHS’ Role in Food Defense and Critical Infrastructure Protection
                                                           Page 128
                       Appendix G
                       DHS Food Sector Responsibilities




                 DHS Responsibilities in Food Defense and Critical Infrastructure Protection**

       Role                                          Responsibility                                                Statutory Basis
                                                Vulnerability Assessment
Lead                ¾ Conduct vulnerability assessments and analyses, and                                 Homeland Security Act,
                      test vulnerabilities                                                                §201(d)(2) and §201(d)(2)(6)
                    ¾ Establish uniform approaches to vulnerability assessment                            Homeland Security
                                                                                                          Presidential Directive 7 (14)
Collaborative       ¾ Expand and conduct vulnerability assessments for the food sector                    Homeland Security
                                                                                                          Presidential Directive 9 (11)
                    ¾ Facilitate sharing of information about vulnerabilities                             Homeland Security
                                                                                                          Presidential Directive 7 (25)
                    ¾ Develop analyses to understand weaknesses that may be exploited                     Homeland Security
                      by adversaries                                                                      Presidential Directive 10
                                         Consequence Assessment & Modeling
Lead                ¾ Model the implications of exploitation of infrastructure                            Homeland Security
                      vulnerabilities                                                                     Presidential Directive 7 (32)
                    ¾ Create and maintain models of critical infrastructure systems                       USA PATRIOT Act, §1016
                                                                                                          (d)(2)(B)
                                           Protective Measures & Prioritization
Lead                ¾ Prioritize and coordinate the protection of critical infrastructure   Homeland Security
                                                                                            Presidential Directive 7 (13)
                    ¾                                                                       Homeland Security Act,
                      Identify priorities for protective and support measures               §201(d)(3)
                    ¾ Recommend measures to protect critical infrastructure                 Homeland Security Act,
                                                                                            §201(d)(6)
Collaborative       ¾ Develop and implement mitigation strategies to protect vulnerable Homeland Security
                      critical food and agriculture production nodes                        Presidential Directive 9 (12)
                    ¾ Expand development of common screening procedures for food            Homeland Security
                      items entering the United States                                      Presidential Directive 9 (13)
                    ¾ Facilitate sharing of information about potential protective measures Homeland Security
                      and best practices                                                    Presidential Directive 7 (25)
* Homeland Security Presidential Directive 10 paragraph citations refer to paragraphs in the published version of the document.
(http://www.whitehouse.gov/homeland/20040430.html)




                           DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                      Page 129 

                       Appendix G
                       DHS Food Sector Responsibilities




                 DHS Responsibilities in Food Defense and Critical Infrastructure Protection**

       Role                                            Responsibility                              Statutory Basis
                                                 Research & Development
Lead                ¾ Establish a university-based center of excellence in food security   Homeland Security
                                                                                           Presidential Directive 9 (25);
                                                                                           Homeland Security Act,
                                                                                           §308(b)(2)(B)(vi)
                    ¾ Coordinate research and development of methods for detection,        Homeland Security
                      prevention technologies, agent characterization, and dose response   Presidential Directive 9 (23)
                      relationships for high-consequence agents in the food supply
Collaborative       ¾ Coordinate interagency research and development to enhance the       Homeland Security
                      protection of critical infrastructure                                Presidential Directive 7
                                                                                           (22)(e)
                    ¾ Prepare an annual critical infrastructure protection research and    Homeland Security
                      development plan                                                     Presidential Directive 7 (30)
                                     Education, Outreach, Training & Preparedness
Lead                ¾ Establish a university-based center of excellence in food security   Homeland Security
                                                                                           Presidential Directive 9 (25);
                                                                                           Homeland Security Act,
                                                                                           §308(b)(2)(B)(vi)
                    ¾ Ensure adequate response capabilities for terrorist attack, disease  Homeland Security
                      outbreak, or other disaster impacting food infrastructure            Presidential Directive 9 (14)
Collaborative       ¾ Establish opportunities for professional development and specialized Homeland Security
                      training in food protection                                          Presidential Directive 9 (22)
Support             ¾ Support the development of inter-disciplinary higher education       Homeland Security
                      programs to prepare food defense professionals                       Presidential Directive 9 (21)
** Excluding response and recovery responsibilities.




                           DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                      Page 130 

                Appendix H
                DHS Food-Sector-Related Programs and Initiatives



DHS Food-Sector-Related Programs
                DHS operates a number of programs and initiatives with food defense and
                critical infrastructure protection features. Some of these programs serve
                critical infrastructure protection efforts at large, and only engage the food
                sector as part of one of these infrastructures, to a limited degree. Related
                DHS programs and activities are arrayed across five different DHS
                organizational entities: the Offices of Infrastructure Protection, Grants
                and Training, and the Chief Medical Officer, S&T, and CBP. The
                following section provides brief descriptions of the related programs and
                initiatives within each of these four DHS components.


    Office of Infrastructure Protection Programs and Initiatives
                Food and Agriculture Government Coordinating Council
                Officially organized in 2004, the Food and Agriculture Government
                Coordinating Council is the government’s primary resource for the
                coordination of inter-departmental work on food security. DHS, USDA,
                and FDA rotate as the Government Coordinating Council chair on an
                annual basis. Three state and local associations and several other federal
                entities, including the Departments of Defense and Commerce, as well as
                the EPA, are part of the Government Coordinating Council. In addition to
                its active participation in the Government Coordinating Council, DHS
                provides funding for the Government Coordinating Council’s
                administrative support requirements. DHS support for the Government
                Coordinating Council Secretariat totals approximately $155,000 a year.

                Food and Agriculture Sector Coordinating Council
                The Food and Agriculture Sector Coordinating Council is the private
                sector’s counterpart to the Government Coordinating Council. Also
                organized in 2004, the Sector Coordinating Council includes a variety of
                members across the food and agriculture sectors. Although dozens of
                companies and organizations participate, seven subcouncils of three
                members each lead the Sector Coordinating Council. Joint meetings
                facilitate communication between the Sector Coordinating Council and the
                Government Coordinating Council. DHS provides funding for the Sector
                Coordinating Council’s administrative support requirements. DHS
                support for the Sector Coordinating Council Secretariat totals
                approximately $180,000 a year.




                  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                             Page 131 

                            Appendix H
                            DHS Food-Sector-Related Programs and Initiatives


                            Homeland Security Information Network Food and Agriculture Portal
                            The Homeland Security Information Network Food and Agriculture Portal
                            is an internet-based tool for sharing threat and analytical information for
                            sector participants. Initial discussions on portal design began in October
                            2004. Representatives from the Government Coordinating Council and
                            Sector Coordinating Council helped establish the online layout of the
                            system, which is currently in the pilot stage. The portal is designed for
                            sharing information, facilitating response to events, and expanding
                            dialogue in the food and agriculture sectors. DHS support for Homeland
                            Security Information Network Food and Agriculture portal development
                            and related sector outreach and requirements development efforts has
                            totaled approximately $430,000.

                            National Infrastructure Coordinating Center
                            A 24/7 watch operations center, the National Infrastructure Coordinating
                            Center reports to DHS’ Office of Infrastructure Protection, but is
                            considered an “operational extension” of the DHS National Operations
                            Center. The primary missions of the National Infrastructure Coordinating
                            Center are to “maintain operational and situational awareness” of critical
                            infrastructure issues and to provide “a centralized mechanism and process
                            for information sharing and coordination.”106 The National Operations
                            Center is the source of most requests for information handled by the
                            National Infrastructure Coordinating Center. The National Infrastructure
                            Coordinating Center issues four types of finished products: suspicious
                            activity reports, spot reports, current situation reports, and a daily sector
                            pulse. As the food sector is a critical infrastructure sector, these products
                            may address related issues.

                            Homeland Infrastructure Threat and Risk Analysis Center
                            The Homeland Infrastructure Threat and Risk Analysis Center, which
                            originated in January 2005, provides industry and government a better
                            understanding of threats to critical infrastructure. The center is located
                            within and jointly staffed by the Office of Intelligence and Analysis and
                            the Office of Infrastructure Protection. It considers threat, risk, and
                            consequence in the creation of various notices and warnings. The center,
                            which has developed some food sector products, regards the private sector
                            as its primary customer.

                            Protected Critical Infrastructure Information Program
                            Established in Section 214 of the Homeland Security Act, the Protected
                            Critical Infrastructure Information program is designed to increase the

106
      DHS, NIPP, June 30, 2006, p. 64.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 132 

Appendix H
DHS Food-Sector-Related Programs and Initiatives


amount of critical infrastructure information by providing private industry
with an alternative means to share voluntarily their sensitive and
proprietary business information with the federal government. Private
sector infrastructure information submitted under the program has greater
protections from disclosure than other government information, and it may
not be released, for example, in response to Freedom of Information Act
requests. DHS, which is charged with guarding this information, is to use
information deemed Protected Critical Infrastructure Information to
improve the protective environment of all infrastructure sectors. The food
industry has provided information under the Protected Critical
Infrastructure Information program.

DHS Educational Reports
DHS has created three types of reports on critical infrastructures. These
reports are distributed to state and territorial Homeland Security Offices,
and are designed for sharing with asset owners and law enforcement
personnel.

        Characteristics and Common Vulnerabilities Reports
        These reports meld information on characteristics, vulnerabilities
        and consequences, along with possible warning signs of an attack,
        to facilitate protective measures, detection and prevention for each
        infrastructure sector. DHS had completed five Characteristics and
        Common Vulnerability Reports on the food and agriculture sectors
        as of December 2005.

        Potential Indicators of Terrorist Activity Reports
        These reports offer suggestions on how to detect possible terrorist
        activity in areas adjoining critical infrastructure. They have
        content similar to the characteristics and common vulnerabilities
        reports discussed above. DHS had completed five Potential
        Indicators of Terrorist Activity reports on the food sector by
        December 2005.

        Protective Measure Reports
        Protective Measure reports are designed to inform states and
        infrastructure owners about best practices and other possible means
        to defend particular sectors against terrorist acts. The reports
        suggest ways to remedy vulnerabilities discussed in Common
        Characteristics and Potential Indicators reports. DHS had
        completed six of these reports on the food sector as of December
        2005.


  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 133 

                          Appendix H
                          DHS Food-Sector-Related Programs and Initiatives


                          Site Assistance Visits
                          Site Assistance Visits are designed to aid in filling gaps in private sector
                          vulnerability assessments. A Site Assistance Visit is a one- or two-day
                          “inside the fence” review of an asset’s vulnerabilities. Written reports are
                          created as a product of this review. These reports discuss baseline threats,
                          vulnerabilities, and protective measures. DHS has concentrated Site
                          Assistance Visit efforts on sector components of “particular concern.” As
                          of December 2005, DHS had conducted eight Site Assistance Visits of
                          food sector assets.

                          Buffer Zone Plans
                          Buffer Zone Plans are products of the Buffer Zone Protection Program, a
                          joint effort between the Office of Infrastructure Protection and Office of
                          Grants and Training. State and local authorities in conjunction with public
                          and private infrastructure owners develop Buffer Zone Plans under the
                          guidance of Office of Infrastructure Protection staff. Among other things,
                          the plans identify vulnerabilities associated with facility buffer zones –
                          extensions of protection beyond the gates of critical facilities – and
                          analyze and categorize the level of risk associated with these
                          vulnerabilities. A limited number of Buffer Zone Plans have been
                          completed on food sector assets.

                          Strategic Partnership Program for Agroterrorism Initiative
                          Announced in July 2005, this initiative is an FBI-funded effort to develop
                          a comprehensive perspective on food and agricultural vulnerabilities.
                          Strategic Partnership Program Agroterrorism is designed to gather
                          vulnerability information on food and agricultural product types,
                          commodities, and activities, rather than particular firms or facilities. FDA
                          or USDA representatives serve as facilitators, while DHS, FBI, and state
                          and local departments of health and agriculture typically participate
                          alongside private sector representatives.107

                          National Asset Database
                          The National Asset Database is to serve as a “comprehensive catalog of
                          the assets, systems, and networks that comprise” the country’s critical
                          infrastructures.108 Overseen by the Office of Infrastructure Protection, the
                          National Asset Database is housed and maintained at Oak Ridge National
                          Laboratory. Food sector assets are represented in the National Asset
                          Database.
107
    Center for Food Safety and Applied Nutrition, “Strategic Partnership Program Agroterrorism (SPPA) Initiative:
A Joint Effort of the FBI, DHS, USDA, and FDA to Help Secure the Nation's Food Supply,” August 2005; and
Center for Food Safety and Applied Nutrition, “SPPA Initiative Questions and Answers,” September 23, 2005.
108
    DHS, NIPP, June 30, 2006, p. 159.

                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 134 

           Appendix H
           DHS Food-Sector-Related Programs and Initiatives




           National Infrastructure Simulation and Analysis Center
           Originally part of the Department of Energy’s Office of Energy
           Assistance, the National Infrastructure Simulation and Analysis Center is
           now overseen by the Office of Infrastructure Protection. The National
           Infrastructure Simulation and Analysis Center is a partnership of Sandia
           National Laboratories and Los Alamos National Laboratory. It provides
           advanced modeling and simulation capabilities for the analysis of critical
           infrastructures, including the food sector, and their interdependencies,
           vulnerabilities, and complexities.


Office of Grants and Training Programs
           Multi-State Partnership for Security in Agriculture
           Iowa, the lead sponsor in the Multi-State Partnership for Security in
           Agriculture, received $2.0 million in 2002 for its Agriculture
           Counterterrorism Project. Under the project, the Multi-State Partnership,
           which includes 10 states in the Central United States, facilitates interstate
           agro-security planning and the development of asset protection programs
           for the food supply chain. The project also assists the food industry’s
           development of vulnerability assessments and effective security strategies.

           University of California - Davis Training Support
           The Western Institute for Food Safety and Security at UC Davis received a
           $4.7 million training grant. The Institute’s focus is on developing a
           training process to enhance preparedness against weapons of mass
           destruction targeted at food and agriculture. The program has seven
           training courses in its agroterrorism-preparedness curriculum. These
           courses address issues of awareness, team building, preparedness, risk
           communication, detection and investigation, response, and recovery. The
           program plans to train 1 million first responders through courses and
           performance-testing exercises.

           University of Tennessee Training Support
           In October 2005, the University of Tennessee College of Veterinary
           Medicine received a grant of $2 million to develop and deliver a national
           16-hour agricultural vulnerability assessment training program for state
           and local officials and agricultural managers. The program aims to
           strengthen the ability of state and local communities to improve the
           intelligence and operational capabilities for prevention and deterrence of
           terrorist acts against the sector by providing courses to 300,000 first
           responders.

             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                        Page 135 

           Appendix H
           DHS Food-Sector-Related Programs and Initiatives




           Louisiana State University Course Development
           The National Center for Biomedical Research and Training at Louisiana
           State University received $1.4 million for food and agriculture course
           development. Training targets those involved in food and agriculture with
           supervisory responsibilities and provides information on the prevention
           and deterrence of a terrorist attack on food and agriculture. Participants
           engage in several scenarios involving planning and case studies and
           conduct a table-top exercise based on a vulnerability in their region.

           Exercise Support
           Grants and Training’s Exercise and Training Division provides food
           defense exercise support in at least two ways. First, it has provided direct
           support for three food sector-related exercises. Second, it helps state and
           local jurisdictions create, conduct, and evaluate exercise programs through
           its Homeland Security Exercise and Evaluation Program. The goal of this
           program is to standardize exercises, and related policies, definitions, and
           requirements across government.

           State Homeland Security Program
           Grants and Training supports food defense activities at the state level
           through the State Homeland Security Program. This program began in
           Fiscal Year 2003 with $566 million in funding for grants. For Fiscal Year
           2006, the program awarded grants totaling $544.5 million. This program
           was designed to assist states and localities build capabilities to address
           state homeland security strategies and develop all-hazard target
           capabilities. The State Homeland Security Program provides support for
           state and local planning, training, exercising, and equipment. These
           activities enhance state and local capabilities to prevent, protect, respond
           to and recover from a range of catastrophes and adverse events, including
           food-related incidents.


Office of the Chief Medical Officer Program
           National Biosurveillance Integration System
           The National Biosurveillance Integration System, which was launched in
           December 2005, is part of a national biosurveillance initiative. The
           system is designed to augment national biosurveillance capabilities
           through coordination of various systems in existence at federal agencies.
           By accessing information from human and animal health, food and
           environmental monitoring systems, the National Biosurveillance
           Integration System seeks to reduce detection time following an event,

             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                        Page 136 

         Appendix H
         DHS Food-Sector-Related Programs and Initiatives


         speed determinations about the cause of biological events, and advance
         recovery efforts.


S&T Programs
         National Center for Food Protection and Defense
         The NCFPD is a university-based Homeland Security Center of
         Excellence established in 2004. Based at the University of Minnesota, the
         NCFPD will receive $15 million over its first three years of operation.
         The Center’s mission is to reduce the likelihood of deliberate
         contamination of the food chain, develop rapid detection methodologies,
         enhance strategies for effective and efficient response to and mitigation of
         intentional attacks, and expand the pool of experts in food security. In
         conducting food defense activities, the Center collaborates with many
         industry, academic, federal, state, and local entities.

         Food Biological Agent Detection Sensor
         The Food Biological Agent Detection Sensor program was established in
         2005. This program focuses on developing a rapid, portable detection
         technology for Clostridium botulinum toxin in a beverage matrix. Once
         the technology is developed and tested, the focus will move to other liquid
         food matrices, as well as other select agents. Awards for the first phase of
         the program, which will culminate in the testing of pre-production model
         sensors, totaled $3.6 million.

         National BioDefense Analysis and Countermeasures Center
         The National BioDefense Analysis and Countermeasures Center is a
         resource established by S&T in 2003 to serve as a research and
         information hub for the federal government at large. Construction is
         underway at Fort Detrick, Maryland for a permanent laboratory facility.
         The Center studies current and future biological threats, assesses
         vulnerabilities, determines potential consequences, and provides a forensic
         analysis capability. It is comprised of three entities: a Biological Threat
         Characterization Center, the Biological Defense Knowledge Center, and a
         Biological Forensic Analysis Center, which is the lead federal entity for
         performing forensic analysis on biological samples. During Fiscal Years
         2003 and 2004, the facility allocated $5.5 million in support of threat
         assessments, detection, and viability studies for biological, chemical, and
         toxic agents that could threaten food.




           DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                      Page 137 

                             Appendix H
                             DHS Food-Sector-Related Programs and Initiatives


                             University of Kentucky Tracking System
                             The University of Kentucky, in collaboration with the University of
                             Louisville and Western Kentucky University, has received approximately
                             $1.5 million in funding to develop a wireless milk tracking system using
                             satellite technology. The system is expected to take two to three years to
                             develop.

                             Critical Infrastructure Protection Decision Support System
                             The Critical Infrastructure Protection Decision Support System is an equal
                             collaboration between Argonne, Los Alamos, and Sandia National
                             Laboratories. The program’s budget for Fiscal Year 2005, which is
                             equally divided among the three labs, was $7.5 million. The system
                             develops interdependent infrastructure models to assess the consequences
                             of disruptions in any of the infrastructure sectors. Critical Infrastructure
                             Protection Decision Support System models attempt to simulate disruption
                             scenarios, evaluate consequences, and assess the effectiveness of
                             mitigation actions. The program uses information from the models to
                             support a “risk-informed” decision-support tool to identify activities to
                             best reduce overall risk.109


           CBP Initiative
                             Notification and Targeting Support
                             CBP has collaborated with FDA in developing prior notification
                             requirements for imported foods and currently shares a watch center
                             facility with FDA’s Prior Notice Center. Also, CBP has supported the
                             development of targeting criteria to aid FDA and USDA in targeting high-
                             risk food imports. Finally, CBP has provided FDA and USDA with key
                             access to information systems, and designed and developed a prior notice
                             submission interface with the primary customs trade information system,
                             the Automated Commercial System.




109
      S&T, Parney Albright, “Critical Infrastructure Protection Decision Support System,” August 4, 2004.

                                DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                           Page 138 

                            Appendix I
                            The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                            Incident Management


The Food Sector in Frameworks for Infrastructure Protection,
National Preparedness, and Incident Management
                            Much of DHS’ mission and many of its related responsibilities can be
                            traced to three key policy frameworks, those for: infrastructure protection,
                            national preparedness, and incident management. To a large extent, these
                            policy frameworks mark their beginnings with different Homeland
                            Security Presidential Directives. Federal infrastructure protection and
                            preparedness activities, the focus of much of this review, were outlined in
                            Homeland Security Presidential Directives 7 and 8. Homeland Security
                            Presidential Directive 5, in turn, discusses federal policy and
                            responsibilities relating to incident management.

                            According to the NIPP, these frameworks collectively amount to a
                            “common, holistic approach to achieving the homeland security
                            mission.”110 Each of these frameworks contain elements relating to the
                            food sector, but it is unclear how they correspond with one another to form
                            a holistic approach.

                            In this section, we outline each of these frameworks – infrastructure
                            protection, national preparedness, and incident management – and their
                            applicability to the food sector. In addition, we examine how effectively
                            the food sector elements of these frameworks link together.


                            Infrastructure Protection Framework

                            In February 2003, the White House published The National Strategy for
                            the Physical Protection of Critical Infrastructure and Key Assets. The
                            National Strategy discussed the government’s plan to secure critical
                            infrastructures, and counted the food industry as part of a critical
                            infrastructure sector – the food and agriculture sector.

                            Homeland Security Presidential Directive 7 clarified roles and
                            responsibilities set forth in the National Strategy with the aim of
                            enhancing the protection of critical infrastructures from terrorist threats. It
                            identified DHS as the overall lead and coordinator of federal infrastructure
                            protection activities, and designated Sector-Specific Agencies for each
                            critical infrastructure sector. According to Homeland Security
                            Presidential Directive 7, Sector Specific Agencies are responsible for
                            working with DHS to augment security for their respective sectors.

110
      DHS, NIPP, June 30, 2006, p. 74.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 139 

                          Appendix I
                          The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                          Incident Management

                          Homeland Security Presidential Directive 7 designated USDA and HHS’s
                          FDA as the dual Sector Specific Agencies for the food and agriculture
                          sector.

                          In addition to assigning sector-specific roles, Homeland Security
                          Presidential Directive 7 mandated that DHS lead the development of a
                          plan for infrastructure protection. This plan, the National Infrastructure
                          Protection Plan was released in June 2006. It describes missions, goals,
                          and standards for protection of the infrastructure sectors. The NIPP
                          outlines actions to be taken by DHS and the Sector Specific Agencies to
                          increase the protection of critical infrastructures.

                          The NIPP sets the stage for common risk-reduction activities across
                          infrastructure sectors, and lays the foundation for activities to be
                          undertaken by individual infrastructure sectors. According to the plan, the
                          following risk management activities are to be conducted for each critical
                          infrastructure sector: setting security goals; identifying assets, systems,
                          networks, and functions; assessing risks; prioritizing; implementing
                          protective programs; and measuring effectiveness.111 The NIPP signals
                          that these activities are to be conducted independently for each sector and
                          to be performed in all-hazards context. This all-hazards orientation is
                          significant in that it extends the reach of critical infrastructure protection
                          activities beyond the scope initially envisioned in Homeland Security
                          Presidential Directive 7, which exclusively focused on protecting critical
                          infrastructures from terrorism.

                          The NIPP also calls for the elaboration of Sector Specific Plans for each
                          infrastructure sector. These Sector-Specific Plans are to “detail the
                          application of the NIPP framework specific to each … sector.”112 The
                          Sector-Specific Agencies are charged with completing their respective
                          Sector-Specific Plans in 2006, and reviewing them on an annual basis.113
                          As discussed in the main body of the report, coordinating councils are the
                          key voice for government and industry for each sector. The Government
                          Coordinating Councils and Sector Coordinating Councils are the bridge
                          between DHS’ national framework and sector experts within DHS.

                          In addition to the NIPP, DHS is charged with preparing a National Plan
                          for Research and Development in Support of Critical Infrastructure
                          Protection. This plan sets forth research and development priorities,
                          goals, and objectives relating to critical infrastructure protection. As noted

111
    DHS, NIPP, June 30, 2006, p. 4.

112
    Ibid., p. 105.

113
    Ibid., pp. 76, 147.


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 140 

                           Appendix I
                           The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                           Incident Management

                           earlier in the report, however, the most recent iteration of the National
                           Plan for Research and Development in Support of Critical Infrastructure
                           Protection does not include any explicit reference to research and
                           development support for the food sector in particular.


                           Preparedness Framework

                           Homeland Security Presidential Directive 8 designates the DHS Secretary
                           as “the principal Federal official for coordinating the implementation of
                           all-hazards preparedness in the United States,” and directs the
                           development of a domestic all-hazards national preparedness goal.114
                           DHS issued an Interim National Preparedness Goal on March 31, 2005.
                           This goal sets national preparedness priorities and establishes a system for
                           assessing the state of overall national preparedness.

                           The preparedness framework laid out in the National Preparedness Goal is
                           centered around preparedness capability development and assurance. This
                           framework uses representative planning scenarios to develop an all-
                           hazards preparedness task list. The task list is, in turn, used to construct a
                           list of targeted capabilities. Among these targeted capabilities, the Interim
                           National Preparedness Goal identified four as national priorities. The
                           National Preparedness Goal also set out three additional overarching
                           priorities: implementation of the National Incident Management System
                           and National Response Plan, expanded regional collaboration, and
                           implementation of the NIPP. Following Hurricane Katrina, DHS adopted
                           an additional national priority capability. While improvements in these
                           priority areas may indirectly benefit the preparedness posture with respect
                           to an attack on the food supply, none of the eight priorities focuses
                           primarily on food.115 One, however – Chemical, Biological, Radiological,
                           Nuclear, and Explosive Detection – includes a “capability measure” that
                           applies to the ability to monitor food for these threats.116 The push to
                           build on another overarching priority, Implementing the NIPP, may also
                           bear positively on food critical infrastructure protection, as the NIPP
                           recognizes the food sector as a part of a critical infrastructure sector.

                           While food defense and critical infrastructure protection activities are not
                           a direct priority under the National Preparedness Goal at this time, they
                           register throughout DHS’ national preparedness framework. The National

114
    Homeland Security Presidential Directive 8: National Preparedness, December 17, 2003, paragraphs 4 and 5. 

115
    Grants and Training notes that the National Preparedness Goal priorities do not specify targeted action in several 

critical infrastructure sectors, including the nuclear, chemical, or transportation sectors.

116
    DHS, Target Capabilities List: Volume 1.1, May 23, 2005, p. 41. 


                              DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                         Page 141 

                          Appendix I
                          The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                          Incident Management

                          Planning Scenarios, for example, which were designed to represent the
                          “scope, magnitude, and complexity” of catastrophic events that may occur
                          for the purpose of identifying “core prevention and response
                          requirements” to aid in preparedness planning,117 include an intentional
                          food contamination scenario involving the contamination of ground beef
                          with liquid anthrax.118

                          The December 2005 iteration of the Universal Task List includes an array
                          of tasks that are food-related. Teams of experts identified the tasks in the
                          Universal Task List as the steps necessary to prepare to address the
                          national planning scenarios. These tasks are intended to form the basis of
                          a “common language and reference system” to drive training, exercises,
                          operational planning undertakings, and preparedness assessments.119
                          Some of the Universal Task List’s food-related tasks support prevention,
                          like collecting information on threats to the food supply, while others
                          address protection and focus, for example, on developing standardized
                          training courses for food-related incidents.120 Still others concern
                          response and recovery tasks related to food. In total, the Universal Task
                          List contains 53 tasks that explicitly relate to food. In addition to food
                          sector specific tasks, the Universal Task List has other broad-based tasks
                          with an effect on the food sector.

                          The Target Capabilities List identifies 37 capabilities that DHS has
                          determined are essential for different levels of government to effectively
                          prepare for terrorist attacks and other major disasters.121 These target
                          capabilities were distilled from critical tasks identified in the Universal
                          Task List and are similarly grouped into their support for the different
                          preparedness mission areas – prevention, protection, response, and
                          recovery. One such target capability relates directly to food. Among the
                          nine targeted “protection” capabilities is the “capability to identify and
                          defend against pathogens, chemical and biological contaminants, and other
                          hazards that affect the safety of food and agriculture products.”122 Other
                          target capabilities only relate to food defense as part of a larger set of
                          activity, like those concerning risk assessment, critical infrastructure


117
    DHS, National Preparedness Guidance, Homeland Security Presidential Directive 8: National Preparedness, 

April 27, 2005, pp. iii, 3.

118
    DHS, National Planning Scenarios, Version 20.2 Draft, April 2005, p. 13-1. 

119
    DHS, Target Capabilities List: Volume 1.1, May 23, 2005, p. 3. 

120
    These are listed as tasks “Pre.A.2.5” and “Pro.C.1.7.15” in DHS’ Universal Task List: Version 2.1, May 23, 

2005, pp. 23, 57. 

121
    DHS, National Preparedness Guidance, Homeland Security Presidential Directive 8: National Preparedness, 

April 27, 2005, p. iii. 

122
    DHS, Target Capability List: Version 1.1, May 23, 2005, p. 54. 


                             DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                        Page 142 

                         Appendix I
                         The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                         Incident Management

                         protection, epidemiological surveillance and investigation, and public
                         health laboratory testing.


                         Incident Management Framework

                         Issued in February 2003, Homeland Security Presidential Directive 5
                         required DHS to develop two major guidance documents, the National
                         Incident Management System, and National Response Plan.123

                         The National Incident Management System sets out the principles for
                         managing incidents at all levels – federal, state, and local – but does not
                         present any information tailored to specific incident types. In establishing
                         the doctrine for overall incident management, the National Incident
                         Management System does not make any reference to food contamination
                         incidents in particular.

                         The National Response Plan identifies the structure and mechanisms for
                         national domestic incident management efforts. Emergency Support
                         Functions are a key ingredient in the National Response Plan incident
                         management framework. Emergency Support Functions are the “primary
                         means through which the federal government provides assistance” to other
                         governmental elements in emergency situations.124 An Emergency
                         Support Function outlines services needed to support recovery efforts, and
                         represents part of a scalable response system that can be invoked as
                         appropriate.

                         Two Emergency Support Functions relate to food, Emergency Support
                         Functions 6 and 11. Emergency Support Function 6 discusses the
                         provision of supplies during incidents, including the provision of food.
                         The Federal Emergency Management Agency is the lead for Emergency
                         Support Function 6, but in this capacity it works with other entities, like
                         USDA’s Food and Nutrition Service, to meet the nutritional needs of an
                         affected population. The Food and Nutrition Service, and other supporting
                         entities, are required to report to FEMA, the coordinator for Emergency
                         Support Function 6, to ensure proper information sharing about ongoing
                         specific recovery actions.

                         Emergency Support Function 11 relates to agriculture and natural
                         resources. USDA is the coordinator for Emergency Support Function 11,

123
    Homeland Security Presidential Directive 5: Management of Domestic Incidents, February 28, 2003, paragraphs

15 and 16. 

124
    DHS, Quick Reference Guide to the National Response Plan, Version 4.0, May 22, 2006, p. 14. 


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 143 

                           Appendix I
                           The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                           Incident Management

                           which includes four primary functions. Two of these functions relate to
                           post-harvest food – the provision of nutrition assistance, and the assurance
                           of the safety and security of the commercial food supply. The Food and
                           Nutrition Service is the lead for the former, while the Food Safety and
                           Inspections Service is the lead agency for the latter.

                           The National Response Plan also includes several incident annexes.
                           These incident annexes are designed to guide federal activities during
                           specific types of evolving incidents, in which the localized impact of the
                           incident may grow in scope and severity over time.125 One such incident
                           annex is to relate to food and agriculture incidents. This incident annex is
                           still under development, however. In the meantime, food contamination
                           incidents may be addressed in line with the Biological Incident Annex.
                           The Biological Incident Annex, which lists HHS as the coordinating
                           agency and FDA as a participant, presents general policies for federal
                           management of biological incidents.


                           Linkages Between Food Sector Elements of Infrastructure Protection,
                           National Preparedness, and Incident Management Frameworks

                           DHS considers these infrastructure protection, national preparedness, and
                           incident management frameworks to be complementary, but their
                           compatibility is difficult to decipher at the sector level. Although these
                           frameworks theoretically interconnect, the linkages between these
                           processes for the food sector need more development.

                         Figure 4.        Food Sector Elements of Homeland Security Frameworks

                                           DHS Framework for Homeland Security Efforts


                                  Protection                   Preparedness                         Response

                            Presidential Directive 7       Presidential Directive 8      Presidential Directive 5
           Executive
                             Critical Infrastructure       National Preparedness         Management of Domestic

           Directive               Protection                                                   Incidents

                           3 Nat’l. Strategy for
                                                          3 Nat’l. Prep. Goal            3 National Response
                             Physical Protection of
             Related
                                     3 Planning Scenarios             Plan
                             Critical Infrastructure
            Guidance
                                     3 Universal Task List          3 National Incident
                           3 Nat’l. Infrastructure
                                                          3 Target Capability List         Management System
                             Protection Plan
                           y Food and Agriculture         y One Planning Scenario        y Support Function 6 & 11
          Food Sector
                                                                   y BI and CI Annexes
                             Sector Specific Plans        y 53 Tasks
           Elements
                                                                     y Food and Agriculture
                                                          y One Target Capability
                                                                                           Annex (under devel.)

125
      DHS, National Response Plan, December 2004, p. 27.

                               DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                          Page 144 

                          Appendix I
                          The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
                          Incident Management



                          DHS has asserted that the National Response Plan and NIPP are
                          “complementary plans.”126 DHS’ considers the NIPP to provide “steady
                          state” infrastructure protection efforts that can be folded into the National
                          Response Plan effort as Homeland Security Advisory System127 levels
                          dictate.128 Indeed, parallels between the two frameworks should facilitate
                          such a transition from NIPP-driven food sector critical infrastructure
                          protection activities and food sector incident management. The National
                          Response Plan, like the NIPP, bundles food and agriculture activities, and
                          is ultimately to have a food and agriculture incident annex to parallel the
                          food and agriculture Sector-Specific Plan developed under the NIPP.
                          Until the food and agriculture incident annex is developed, however, it is
                          not possible to determine how effectively food sector incident
                          management will leverage critical infrastructure protection activities.
                          Questions regarding the role of FDA, which is not mentioned in
                          Emergency Support Functions 6 and 11, for example, need to be resolved
                          if food sector critical infrastructure protection efforts are to be fully
                          exploited during an incident.

                          While the NIPP has and National Response Plan will have a clear place
                          for food sector activities, the role of the food sector is not as clear within
                          the national preparedness framework. The national preparedness
                          framework clearly accounted for the food sector in its examination of
                          national capability requirements, but the end product of that process does
                          not prominently single out food sector activities. Although a number of
                          targeted capabilities may indirectly support food preparedness, only 1 of
                          37 does so in a direct way, and this target capability has not been
                          identified as a priority capability. Without a major food sector
                          preparedness capability focus, it is difficult to determine how preparedness
                          activities align with food sector infrastructure protection and incident
                          management efforts.

                          Tracking food sector activities across the range of incident preparedness
                          and response frameworks is difficult, as these are not fully developed or
                          clearly aligned. Further clarification may be helpful to show, for example,
                          how preparedness activities conducted under Homeland Security
                          Presidential Directive 8 support the food sector infrastructure protection
                          responsibilities established under Homeland Security Presidential
                          Directive 7. Differences like these can create difficulties in defining

126
    DHS, NIPP, June 30, 2006, p. 74. 

127
    The Homeland Security Advisory System is a color-coded system that communicates a threat-based view of the 

likelihood of an attack so measures can be taken to lessen the chance or impact of an incident. 

128
    DHS, NIPP, June 30, 2006, p. 74. 


                            DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                       Page 145 

Appendix I
The Food Sector in Frameworks for Infrastructure Protection, National Preparedness, and
Incident Management

priorities and monitoring resource allocation. Improved integration of
infrastructure protection, national preparedness, and incident management
frameworks has the potential to reinforce the prevention, protection,
response, and recovery posture of the food sector.




  DHS’ Role in Food Defense and Critical Infrastructure Protection 

                             Page 146 

                   Appendix J
                   Chronology of Significant Events



Chronology of Significant Events 


     1996
            July 15, 1996                    Executive Order 13010: Critical Infrastructure
                                             Protection issued

     1998
            May 22, 1998                     Presidential Decision Directive 63:
                                             Critical Infrastructure Protection issued

     2001
            September 11, 2001               Terrorist attacks on World Trade Center and
                                             Pentagon
            October 8, 2001                  Executive Order 13228: Establishing the Office of
                                             Homeland Security and the Homeland Security
                                             Council issued
            October 16, 2001                 Executive Order 13231: Critical Infrastructure
                                             Protection issued
            October 24, 2001                 USA PATRIOT Act signed

     2002
            June 12, 2002                    Bioterrorism Act signed
            July 2002                        National Strategy for Homeland Security published
            November 25, 2002                Homeland Security Act signed
            December 15, 2002                Fourth Gilmore Commission Report released

     2003
            January 1, 2003                  Provisions of Homeland Security Act go into effect
            February 2003                    National Strategy for the Physical Protection of
                                             Critical Infrastructure and Key Resources
                                             published
            February 28, 2003                Homeland Security Presidential Directive 5:
                                             Management of Domestic Incidents issued
            March 1, 2003                    All components transition into DHS;
                                             DHS stood up
            December 17, 2003                Homeland Security Presidential Directive 7:
                                             Critical Infrastructure Identification, Prioritization,
                                             and Protection issued
            December 17, 2003                Homeland Security Presidential Directive 8:
                                             National Preparedness issued



                     DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                                Page 147 

              Appendix J
              Chronology of Significant Events



2004
       January 30, 2004                 Homeland Security Presidential Directive 9:
                                        Defense of United States Agriculture and Food
                                        issued
       April 28, 2004                   Homeland Security Presidential Directive 10:
                                        Biodefense for the 21st Century issued
       April 28, 2004                   Grants and Training awards $2 million to the Multi-
                                        State Partnership for Security in Agriculture
       May 25, 2004                     Grants and Training-funded exercise involving
                                        intentional food contamination at a G-8 Summit
                                        takes place in Georgia
       March 1, 2004                    National Incident Management System Document
       June 16, 2004                    First meeting of the Food and Agriculture
                                        Government Coordinating Council
       June 16, 2004                    S&T awards National Center for Food Protection
                                        and Defense $15 million over three years
       June 29, 2004                    Grants and Training-funded table-top exercise on
                                        intentional contamination of food with anthrax takes
                                        place in Minnesota
       July 6, 2004                     National Center for Food Protection and Defense
                                        launched
       August 23, 2004                  Grants and Training awards UC Davis $4.7 million
                                        to develop an agroterrorism preparedness training
                                        curriculum
       August 25, 2004                  Second Grants and Training-funded exercise on
                                        intentional contamination of food with anthrax takes
                                        place in Minnesota
       September 15, 2004               National Infrastructure Protection Plan, Draft Base
                                        Plan issued
       October 15, 2004                 First meeting of the Agro-Terrorism Training
                                        Working Group
       December 2004                    National Response Plan published

2005
       February 2005                    Interim National Infrastructure Protection Plan
                                        released
       April 8, 2005                    National Plan for Research & Development in
                                        Support of Critical Infrastructure Protection (2004
                                        edition) published
       March 31, 2005                   Interim National Preparedness Goal released
       April 2005                       Draft National Planning Scenarios, Version 20.2
                                        released
       May 23, 2005                     Universal Task List, Version 2.1 released


                DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                           Page 148 

              Appendix J
              Chronology of Significant Events


       May 23, 2005                     Target Capabilities List, Version 1.1 released
       July 22, 2005                    S&T awards Food Biological Agent Detection
                                        Sensor cooperative agreements
       July 26, 2005                    Strategic Partnership Program Agroterrorism
                                        Initiative announced
       August 8, 2005                   Grants and Training awards the University of
                                        Kentucky (in collaboration with the University of
                                        Louisville and Western Kentucky University)
                                        $1.5M to develop a wireless milk tracking system
       September 30, 2005               Grants and Training provides Louisiana State
                                        University with $1.4 million to develop a course on
                                        preparedness and response to terrorist incidents
                                        relating to the food supply
       September 30, 2005               Grants and Training awards the University of
                                        Tennessee $2.0 million to develop a vulnerability
                                        assessment training course
       November 2, 2005                 Draft National Infrastructure Protection Plan, Base
                                        Plan released
       December 1, 2005                 DHS launches National Biosurveillance Integration
                                        System pilot system

2006
       June 1, 2006                     Grants and Training provides exercise support for a
                                        bottled water contamination exercise in North
                                        Carolina




                DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                           Page 149 

Appendix K
Major Contributors to this Report


Justin Brown, Inspector (Team Leader)
Darin Wipperman, Inspector
Levar Cole, Inspector




       DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                  Page 150 

Appendix L
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Science and Technology
Commissioner for U.S. Customs and Border Protection
Under Secretary for Preparedness
Assistant Secretary for Infrastructure Protection
Assistant Secretary for the Office of Grants and Training
Chief Medical Officer
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary fro Legislative and Intergovernmental Affairs
Chief of Security
DHS OIG Audit Liaison
S&T Audit Liaison
CBP Audit Liaison
Preparedness Audit Liaison
Office of Infrastructure Protection Audit Liaison
Grants and Training OIG Liaison
Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS Program Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




       DHS’ Role in Food Defense and Critical Infrastructure Protection 

                                  Page 151 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
